<html>
<title> - MANAGING FOR SOIL HEALTH: SECURING THE CONSERVATION AND ECONOMIC BENEFITS OF HEALTHY SOILS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 MANAGING FOR SOIL HEALTH: SECURING THE 
                   CONSERVATION AND ECONOMIC BENEFITS
                            OF HEALTHY SOILS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JUNE 25, 2019
                              __________

                           Serial No. 116-13
                           
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-018 PDF                WASHINGTON : 2019



                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)



                             C O N T E N T S

                              ----------                              
                                                                   Page
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................     2
    Prepared statement...........................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     4
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     2
    Submitted report.............................................    51

                               Witnesses

Mehta, Ph.D., Shefali V., Executive Director, Soil Health 
  Partnership Program, National Corn Growers Association, 
  Washington, D.C................................................     5
    Prepared statement...........................................     7
Anderson, Nathan, Secretary, Board of Directors, Practical 
  Farmers of Iowa; Owner/Operator, Bobolink Prairie Farms, 
  Aurelia, IA....................................................    10
    Prepared statement...........................................    11
Cunningham, Ian, Secretary-Treasurer, National Association of 
  Conservation Districts; Owner/Operator, Cunningham Family Farm, 
  LLC, Pipestone, MN.............................................    17
    Prepared statement...........................................    18
Douglass, Shannon, First Vice President, California Farm Bureau 
  Federation; Owner, Douglass Ranch, Orland, CA..................    22
    Prepared statement...........................................    23
Ellis, Chad R., Board Chair, National Grazing Lands Coalition; 
  Industry Relations and Stewardship Manager, Noble Research 
  Institute, LLC, Marietta, OK...................................    27
    Prepared statement...........................................    28

                           Submitted Material

Scholz, Ben President, National Association of Wheat Growers, 
  submitted statement............................................    80


 
           MANAGING FOR SOIL HEALTH: SECURING THE CONSERVATION AND ECONOMIC
                       BENEFITS OF HEALTHY SOILS

                              ----------                              


                         TUESDAY, JUNE 25, 2019

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1300, Longworth House Office Building, Hon. Abigail Davis 
Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, O'Halleran, 
Pingree, Axne, Peterson (ex officio), LaMalfa, and Allen.
    Staff present: Prescott Martin III, Felix Muniz, Jr., Anne 
Simmons, Alison Titus, Josh Maxwell, Ricki Schroeder, Patricia 
Straughn, Dana Sandman, and Jennifer Yezak.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing on managing for soil health: 
securing the conservation and economic benefits of healthy 
soils, will come to order.
    Good morning. I would like to welcome everyone to this 
hearing of the Conservation and Forestry Subcommittee, entitled 
Managing for Soil Health: Securing the Conservation and 
Economic Benefits of Healthy Soils, a topic critically 
important to American agriculture and communities across the 
nation.
    I would also like to thank Ranking Member Doug LaMalfa for 
his engagement on this issue, and each Member of the 
Subcommittee for taking part in the hearing today.
    Soil health is a critical topic for this Subcommittee to 
address because it underpins so many of our other conservation 
efforts.
    Soil health practices such as cover crop, crop rotations 
and no-till or reduced-tillage have the potential to provide 
financial benefits to farmers by reducing input costs, 
increasing yield, and ensuring the productivity of cropland 
over the long-term.
    These same soil health practices can also provide 
environmental benefits that the rest of us enjoy. Healthy soil 
filters water, reduces runoff, and sequesters carbon.
    Healthy soil also reduces risk. In recent years droughts 
and floods have cost our economy billions of dollars. Because 
healthy soil is better able to hold water, it can better 
withstand droughts and reduce runoff in floods.
    Because healthy soil benefits not only farmers but the 
public at large, USDA provides financial support to farmers to 
implement soil health practices through programs such as the 
Environmental Quality Incentives Programs and the Conservation 
Stewardship Program, the Regional Conservation Partnership 
Program, and the Conservation Reserve Program.
    Producers in my home State of Virginia are recognizing the 
value of and adopting these practices. Between 2012 and 2017, 
across Virginia we saw more than a 35 percent increase in 
cropland acres planted with cover crops. We have more than a 
million acres of cropland in Virginia where no-till practices 
are used.
    Managing for soil health offers an exciting value 
proposition to farmers and society. It is my hope that with 
this hearing today we can discuss the value of soil 
stewardship, share best practices, and learn about any barriers 
to adoption of soil management systems.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Good morning, I would like to welcome everyone to this hearing of 
the Conservation and Forestry Subcommittee on Managing for Soil Health: 
Securing the Conservation and Economic Benefits of Healthy Soils, a 
topic critically important to American agriculture and communities 
across the nation. I would also like to thank Ranking Member Doug 
LaMalfa for his engagement on this issue, and each Member of the 
Subcommittee for taking part in this hearing today.
    Soil health is a critical topic for this Subcommittee to address 
because it underpins so many of our other conservation efforts.
    Soil health practices such as cover crops, crop rotations, and no-
till or reduced-tillage have the potential to provide financial 
benefits to farmers by reducing input costs, increasing yields, and 
ensuring the productivity of cropland over the long-term.
    These same soil health practices can also provide environmental 
benefits that the rest of us enjoy: healthy soil filters water, reduces 
runoff, and sequesters carbon.
    Healthy soil also reduces risk: in recent years, droughts and 
floods have cost our economy billions of dollars. Because healthy soil 
is better able to hold water, it can better withstand droughts and 
reduce runoff in floods.
    Because healthy soils benefit not only farmers but the public at 
large, USDA provides financial support to farmers to implement soil 
health practices, through programs such as the Environmental Quality 
Incentives Program, the Conservation Stewardship Program, the Regional 
Conservation Partnership Program, and the Conservation Reserve Program.
    Producers in my home State of Virginia are recognizing the value of 
and adopting these practices. Between 2012 and 2017, across Virginia we 
saw more than a 35% increase in cropland acres planted with cover 
crops. We also have more than a million acres of cropland in Virginia 
where no-till practices are used.
    Managing for soil health offers an exciting value proposition to 
farmers and society. It is my hope with this hearing today, we can 
discuss the value of soil stewardship, share best practices, and learn 
about any barriers to adoption of soil management systems.

    The Chair. Finally, I would like to recognize the Ranking 
Member, the distinguished gentleman from California, 
Congressman Doug LaMalfa, for 5 minutes.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Thank you, Chair Spanberger, for holding 
today's hearing and for your help on this issue. It is a very 
critical issue to agriculture and to help hold our communities 
together.
    As we saw with those dramatic pictures you have all seen 
back in the 1930s, the Dust Bowl, Congress recognized back then 
the importance of promoting soil health, soil stabilization 
across the country, and indeed it started with establishment of 
the Soil Conservation Service, otherwise known as the ASCS 
Office in our communities, which got changed to something else 
years later. But that is really the impetus for a lot of what 
USDA became about was that tremendous problem.
    The need for this agency was indeed in response to a 
persistent problem of soil erosion across the country during 
those Dust Bowl eras but beyond.
    The Natural Resources Conservation Service, as it is known 
today, plays an important role in preserving soil health across 
the country by providing producers with voluntary assistance in 
monitoring and assessing soil conditions on their land.
    As our predecessors did for us in the past, we hope the 
future generations do what can be done to understand and 
recognize the importance of healthy soil. To that end, I am 
particularly proud of this Committee's work on conservation 
programs in a newly-enacted farm bill. During that process we 
came forward in a bipartisan fashion to reauthorize and 
strengthen our title II programs.
    The issue of soil health has continuously been highlighted 
by producers and stakeholders during the 2018 Farm Bill 
deliberations, and I believe that is reflected in many of the 
improvements to the conservation program authorities who heard 
directly from farmers who expressed the need for more tools to 
promote the adoption of cover cropping.
    This request was the leading influence in the creation of 
the CIP under EQIP, the CIP Program, allowing for simplified 
contract for the producers to adopt and maintain new 
conservation practices.
    I am proud that so many farmers and foresters in California 
have taken voluntary steps to promote soil health. We have one 
of those early adopters here today who will be speaking to us 
about this conversation, so I will introduce her a little bit 
later.
    Madam Chair, I will yield back.
    [The prepared statement of Mr. LaMalfa follows:]

 Prepared Statement of Hon. Doug LaMalfa, a Representative in Congress 
                            from California
    Good morning.
    Thank you to Chair Spanberger for holding today's Subcommittee 
hearing on soil health. This is a critically important issue to 
American agriculture and strong farming communities.
    Congress has long recognized the importance of promoting soil 
health across the country, starting with the establishment of the Soil 
Conservation Service as a permanent part of USDA in 1935.
    The need for this agency was in response to a persistent problem of 
soil erosion across the country, particularly in the Dust Bowl region. 
The Natural Resources Conservation Service, as it is known today, plays 
an important role in preserving soil health across the country by 
providing producers with voluntary assistance in monitoring and 
assessing soil conditions on their land.
    As our predecessors did for us in the past, we owe it to future 
generations to do what we can to understand and recognize the 
importance of healthy soil.
    To that end, I am particularly proud of this Committee's work on 
conservation programs in the newly enacted farm bill. We came together 
in a bipartisan fashion to reauthorize and strengthen our title II 
programs.
    The issue of soil health was continuously highlighted by producers 
and stakeholders during 2018 Farm Bill deliberations and I believe that 
is reflected in many of the improvements to the conservation program 
authorities.
    We heard directly from farmers who expressed the need for more 
tools to promote the adoption of cover cropping. This request was the 
leading influence in the creation of Conservation Innovation Payments 
under EQIP, allowing for a simplified contract for producers to adopt 
and maintain new conservation practices.
    Additionally, the final conference agreement adopted soil health as 
a priority for the Conservation Stewardship Program. And soil health 
will be a major component of the newly created On-farm Conservation 
Innovation Trials.
    I am proud that so many of the farmers and foresters in California 
have taken voluntary steps to promote soil health. We have one of those 
early adopters here today to talk about the conservation efforts that 
she and her family have implemented on their family farm.
    Ms. Shannon Douglass operates a specialty crop and beef cattle 
operation with her husband and son in Glenn County, CA. Ms. Douglass 
also operates CalAgJobs, a company that matches folks into jobs in the 
agriculture industry. She is here today representing the California 
Farm Bureau Federation, and serves as First Vice President.
    Ms. Douglass, thank you for making time to be here today.
    Whether it's protecting our water supply, keeping nutrients in 
place for the next crop year, or maintaining a supply of forage for 
livestock, there is no shortage of reasons as to why we must continue 
to foster innovation when it comes to promoting soil health.
    We have a great set of witnesses testifying today, and I want to 
thank them for traveling here to share their expertise with the 
Subcommittee.

    The Chair. The Chair would request that other Members 
submit their opening statements for the record so the witnesses 
may begin their testimony and ensure there is ample time for 
questions.
    I would like to welcome our witnesses today. Thank you very 
much for being here.
    Today we will hear from Dr. Shefali Mehta, Executive 
Director of the Soil Health Partnership Program, a part of the 
National Corn Growers Association. Dr. Mehta received her Ph.D. 
in Agriculture and Applied Economics, and a Masters Degree in 
Statistics from the University of Minnesota. Welcome and thank 
you for joining us.
    Our second witness is Mr. Nathan Anderson, Secretary of the 
Board of Directors for Practical Farmers of Iowa. Along with 
his wife, Sarah, Mr. Anderson operates Bobolink Prairie Farms, 
a multigenerational family farm near Aurelia, Iowa. Nathan owns 
and rents a portion of his farm where he produces corn, 
soybeans, hay, and cattle.
    And for our third witness, I would like to yield to the 
Chairman of the Committee for the introduction.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Madam Chair, and I want to welcome 
one of my constituents, Ian Cunningham, who is a fifth-
generation farmer outside of Pipestone, Minnesota. It is a 
beautiful part of the country. If you ever get up there, you 
want to go to see the Pipestone National Monument, right, Ian? 
It is quite a thing. They make peace pipes out of the stuff 
that they get there.
    Anyway, Ian is a NACD soil health champion. He is an early 
adapter of soil health practices like cover crops and no-till, 
strip-till. He is in a leadership position at the local and 
state level on conservation districts, and is now the 
Secretary/Treasurer of the National Association of Conservation 
Districts. But more importantly, when I get off the track, he 
straightens me out on these conservation issues. I can't get 
too far out of line or he will let me know.
    Anyway, we appreciate you being here, Ian.
    Thank you.
    The Chair. Welcome, Mr. Cunningham, and thank you for your 
work keeping the Chairman in line.
    Our fourth witness is Ms. Shannon Douglass, the First Vice 
President of the California Farm Bureau Federation. She is also 
a first-generation farmer. She and her husband own Douglass 
Ranch where they raise beef cattle, sunflowers, pumpkin, corn, 
and forage crops.
    Welcome.
    And I would like to yield to Ranking Member LaMalfa for a 
continued introduction.
    Mr. LaMalfa. Oh, thank you for that. I just don't have 
anything to add other than her pedigree is very impressive on 
that and we thank her for her travel here today. I represent a 
portion of Glenn County I share with Mr. Garamendi, so indeed 
it is great to have your time and travel here and your 
testimony, so thank you for what you do and for what your 
family has legacy-wise over there in Glen County, across the 
river from me.
    Thanks for appearing today.
    The Chair. Thank you, Mr. LaMalfa. And thank you for being 
here, Ms. Douglass.
    Our final witness is Mr. Chad Ellis, the Board Chair of the 
National Grazing Lands Coalition. Mr. Ellis is also the 
Industry Relations and Stewardship Manager at the Noble 
Research Institute and has extensive experience in rangeland 
management.
    We will now proceed to hearing from our witnesses. Each of 
you will have 5 minutes. When 1 minute is left, the light in 
front of you will turn yellow, signaling that your time is 
close to expiring.
    Dr. Mehta, please begin whenever you are ready.

        STATEMENT OF SHEFALI V. MEHTA, Ph.D., EXECUTIVE 
          DIRECTOR, SOIL HEALTH PARTNERSHIP PROGRAM, 
      NATIONAL CORN GROWERS ASSOCIATION, WASHINGTON, D.C.

    Dr. Mehta. Chair Spanberger, Ranking Member LaMalfa, and 
Members of the Subcommittee, thank you for the opportunity to 
appear here today to share the story of the farmers we serve 
and the investments in soil health.
    We applaud the Subcommittee's commitment to learning about 
the benefits of soil health practices and the efforts that 
farmers are making to blaze a trail in conservation.
    I am Dr. Shefali Mehta, the Executive Director of the Soil 
Health Partnership, a program of the National Corn Growers 
Association, or NCGA. I have had the experience to work with 
and travel around the country and the world working with many 
producers and can personally attest to the value that farmers 
put on land stewardship and the impact that soil health has on 
long-term agricultural productivity.
    The Soil Health Partnership, or SHP as it is known, was 
begun in 2014 when The Nature Conservancy and Monsanto and the 
Environmental Defense Fund came together to develop a farm-led 
network that allowed us to measure the impacts of soil health 
practices on working farms.
    True to their vision of being farm-led and making sure the 
decisions stayed there, SHP partnered with the National Corn 
Growers Association which represents 40,000 dues-paying corn 
farmers nationwide and more than 300,000 growers who pay into 
the corn check-off system which then goes into their states.
    SHP continues to be administered as a flagship 
sustainability program for NCGA, so SHP partners with over 220 
farmers who are fairly diverse across 15 states. We were 
recently joined by the National Wheat Foundation and currently 
work with over 120 partner organizations, including commodity 
associations, governments, nonprofits, and private companies.
    Farmers work with their team of experienced field managers 
to measure the impact of practice changes on their lands. As a 
result, we have created a unique, in-depth data set to help 
support farmers' decisions and to understand the impact on 
soil, yield, input use, and the farmers' bottom line.
    We are also assessing and understanding the near-term risks 
that can come with the adoption and also the long-term 
reduction and risk that comes from these practices and the 
increase in resiliency on land.
    The farmers who work with us are exceptional land managers 
on their journey to improve the economic and environmental 
sustainability of their operations. Many are looking to reduce 
or eliminate tillage, try cover cropping, or experiment with 
advanced nutrient management.
    This year we began incorporating farmers who are grazing on 
cover crops with their livestock, manure use, and diverse crop 
rotations. Our goal is to meet the needs of our farmers and to 
continue to add more tools to their toolkit to ensure that they 
have more economic diversification.
    However, these practices are in no way a silver bullet. 
They must be understood in concert with the specific 
geographies where they are adopted and the goals and needs of 
the individual farm operation.
    Our data illustrate that these practices can result in very 
different outcomes, even when implemented on the same farm 
operation but in different fields. Our work aims to better 
understand the impacts so farmers can use these tools to 
greater efficacy. We know that managing for soil health has 
concrete impacts. We are still working though to quantify the 
full benefits and costs.
    Our initial analyses indicate that SHP farmers have soil 
health indicators that increase over time. For example, we have 
seen soil organic matter increase by \1/3\ to \1/2\ percent 
over 3 to 5 years. This may not sound like much of an increase, 
but soil organic matter takes quite a bit of time to change and 
evolve. This is a key indicator of soil health and linked to 
several benefits including reduced runoff and soil erosion, 
increased resiliency to extreme weather events, and increased 
carbon sequestration which in turn helps mitigate climate 
change.
    Our SHP farmers highlight other benefits as well, such as 
making it easier to work in wet fields earlier in the spring. 
Those with reduced-tillage have experienced cost-savings such 
as decreased machinery use, field use, labor needs, and more 
efficient use of farmers' time.
    Soil health is about the long game. It gives the farmers 
the ability to reduce risks and increase resiliency, and our 
data indicates farmers invest in these practices because they 
believe in these long-term benefits as well.
    Although there are clear benefits for managing soil, we 
must not lose sight of the fact that transitioning to these 
practices is costly and risky for farmers. It takes time to 
adopt and identify the combination of practices that will work 
on the land and in the context of their production system.
    And keep in mind the benefits of soil health do take many 
years to come. The results we had in our data set were 
anomalous and actually have raised a lot of questions about 
what you can do, but on the whole it takes time.
    Collaborations are key to successful outcomes in this 
arena. I would say no one group can do it alone, and so strong 
outcome-based collaborations like ours have seen greater 
awareness and adoption of soil health practices.
    By supporting farmers making these investments, we increase 
the overall well-being of farmers and society overall, so thank 
you for your time and your continued support for soil health 
and farmers.
    I look forward to your questions.
    [The prepared statement of Dr. Mehta follows:]

Prepared Statement of Shefali V. Mehta, Ph.D., Executive Director, Soil 
    Health Partnership Program, National Corn Growers Association, 
                            Washington, D.C.
    Chairwoman Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee:

    Thank you for the opportunity to appear here today to share the 
story of the farmers we serve, and their investments in soil health on 
their farms. We applaud the Subcommittee's interest in, and commitment 
to, learning about the benefits of soil health practices and the 
efforts farmers are making to blaze a trail in conservation that 
benefits their lands as well as society broadly.
    I am Dr. Shefali Mehta, the Executive Director of the Soil Health 
Partnership, a program of the National Corn Growers Association (NCGA). 
Having the opportunity to visit many farms across the world and work 
with numerous producers, I can attest to the many efforts led by 
farmers to be stewards of their lands and the impact soil health 
investments have for long-term agricultural productivity. The Soil 
Health Partnership began in 2014, when The Nature Conservancy and 
Monsanto (now Bayer), alongside the Environmental Defense Fund, shared 
the vision of developing a farmer-led research network which measured 
the impacts of implementing soil health practices on working farms. 
True to their vision of being led by farmers--and existing to serve 
farmers--the Soil Health Partnership partnered with NCGA and continues 
to be administered as our flagship sustainability program. NCGA 
represents 40,000 dues-paying corn farmers nationwide and the interests 
of more than 300,000 growers who contribute through corn check-off 
programs in their states. NCGA growers are proactively working to 
support farmers pursuing ways to more fully utilize appropriate 
sustainability tools. Through the Soil Health Partnership, corn growers 
are on the ground serving as a resource for other growers adopting soil 
health improvement practices.
    Today, the Soil Health Partnership works alongside more than 220 
farmers as they try new soil health practices on their farms. Joined 
most recently by the National Wheat Foundation, our network spans over 
15 states and 100 partner organizations at the Federal, state and 
county level including state government, commodity associations, 
nonprofits, foundations, and private companies. We have a team of eight 
experienced field managers that work hand-in-hand with farmers in their 
region. When a farmer joins our program, he or she works with the 
designated field manager to design an experiment on a field that 
compares a soil health practice, or combination of practices, to the 
typical management undertaken historically on the field. Our partner 
farmers work with us over 5 years to measure the impacts of the 
practice change. We measure basic soil macro- and micronutrients every 
year on the field, as well as soil health indicators every other year. 
Through this process, we are creating an in-depth data set from which 
to support farmers' decisions and to understand the long-term changes 
in soil health over time. We look for impacts on yield, input use, and 
the farmer's profitability. We also examine the near-term risks 
associated with adoption of practices, and long-term risk reduction and 
increased resiliency that comes from these practices.
Soil Health Practices and Management Systems
    The farmers we work with are exceptional land managers looking for 
partnership on their journey to improve the economic and environmental 
sustainability of their farm operations. Many are looking to reduce or 
eliminate tillage, to try cover cropping, or to experiment with 
nutrient management in an advanced soil health management system. In 
addition to these key soil health practices, we are now working with 
farmers who are incorporating grazing of cover crops as forage for 
livestock and experimenting with using manure and diverse crop 
rotations to build soil health. Our goal is to meet the needs of our 
farmers. This means we have expanded our offerings in line with the 
needs and requests of farmers trying to add more ``tools'' to their 
toolkit and find more ways to create economic diversification and 
support in this tough climate.
    To provide some background on these practices, no-till, strip-till, 
and reduced tillage are all ways of managing the soil prior to 
planting. These practices reduce or eliminate plowing (or tillage). 
Historically, tillage has been used to prepare soil for planting and is 
used to manage weed pressure. However, tillage can impact the soil in 
negative ways by contributing to compaction of the soil and soil 
erosion. Tilling less intensively--or not at all--can reduce soil 
disturbance, which can minimize compaction, improve soil structure and 
function, improve soil water holding capacity, and reduce soil erosion.
    Growing a cover crop means planting a crop, usually after harvest, 
primarily for soil health or conservation purposes. Cover crops are not 
typically harvested or sold, which means that they are not a direct 
income stream for the farmer. However, for farms that raise livestock 
and grow crops, cover crops can be used as a forage source for 
livestock, either by letting the livestock graze the cover crop 
directly, or by harvesting the cover crop to be fed to livestock.
    Reducing tillage, incorporating cover crops, and practicing 
advanced nutrient management are all key soil health practices that can 
be incorporated into a soil health management system. They fit within 
broad soil health principles put forth by the U.S. Department of 
Agriculture (USDA) Natural Resources Conservation Service (NRCS), which 
include minimizing soil disturbance, maximizing soil cover, maximizing 
biodiversity, and keeping living roots in the soil.
    We recognize these practices are not a silver bullet but must be 
understood in concert with the specific geographies where they are 
adopted and the goals and needs of the individual farming operations. 
Our data illustrate these practices can yield varied outcomes, even 
when implemented on different fields in the same farms. Our work 
strives to better understand these impacts so farmers can use these 
tools with greater efficiency.
On-Farm Benefits and Costs of Soil Health Practices
    Although we are still working to quantify the benefits and costs of 
soil health practices and management systems across our farmer network, 
we know that managing for soil health can have concrete impacts. Our 
initial analyses show that farmers participating in the Soil Health 
Partnership for more than 3-5 years have seen increases in soil organic 
matter of \1/3\ to \1/2\ percent. Though this might not sound like much 
of an increase, soil organic matter typically changes very slowly with 
a change in management and is a key indicator of soil health. Increased 
soil organic matter means that the soil is able to infiltrate and store 
more water, which can result in reduced runoff and soil erosion, as 
well as make the soil more resilient to extreme weather events, such as 
droughts or floods. Soil organic matter increases may also be linked to 
increased carbon sequestration. These and other increases we have 
witnessed in our network and our dataset highlight ways of creating 
soil health benefits at greater rates: strong management practices 
coupled with support, farmer knowledge sharing, providing the right 
tools at the right time and the use of multiple practices in concert.
    We hear from our farmers that improving soil structure and reducing 
soil erosion can have other concrete benefits, such as making it easier 
to work in wet fields earlier in the spring, or reducing time spent 
managing sediment at the edge of the field. For some farmers who are 
reducing tillage, there can be clear cost savings through decreased 
machinery and fuel use, time and labor. Over time, improvements in soil 
health may result in more productive soil or reduced need a for costly 
farm inputs. The ability to reduce risks and increase long-term 
resiliency of the land are also benefits. We are studying these types 
of questions at the Soil Health Partnership through our on-farm 
demonstration research plots as well as our unique, long-term data set. 
Our data indicate that farmers invest in these practices because they 
believe in the indirect and long-term benefits such as living, healthy 
soils for their future generations, creating increased land resiliency 
and knowing they are giving back to the land that sustains us.
Benefits of Soil Health Practices Beyond the Farm
    Improvements in soil health can have on-farm impacts, but the 
impact extends beyond the farm. By reducing nutrient runoff and soil 
erosion, improvements in soil health can translate into improvements in 
water quantity and quality. Reducing tillage can increase water 
quantity over time and growing a cover crop can have a direct impact on 
water quality by tying up nitrogen in a growing plant and keeping the 
soil in place in the spring prior to planting when it is perhaps most 
vulnerable to runoff into streams and rivers. Although many are still 
studying the capacity of agricultural soils to store carbon under 
diverse management practices and in different locations, there is 
research that suggests a vast potential for soil health management 
systems to reduce greenhouse gas emissions from agricultural production 
and sequester carbon in the soil. This means that soil health practices 
and management systems, combined with broader societal efforts, hold 
the potential to help mitigate climate change.
Soil Health Practices Require Management of Risks and Costs to 
        Implement
    Although there are clear benefits of managing for soil health, we 
must not lose sight of the fact that transitioning to soil health 
practices and management systems can be both costly and risky for 
farmers. It may take time for a farmer to determine what combination of 
practices works well in the context of their production system, and the 
benefits of improving soil health may only appear after many years.
    In the case of cover crops, a farmer has to select a cover crop or 
cover crop mix, and purchase seed, which has a direct cost. Different 
species of cover crops work well in different agronomic environments 
and require some trial and error to get it right. The farmer also has 
to determine when and how to seed a cover crop before or after they 
harvest their cash crop in the fall. The timing of cover crop planting 
is critical to realizing the benefits of a cover crop and getting a 
cover crop growing in the fall can be difficult as days grow shorter 
and colder. In the spring, the farmer has to decide when and how to 
terminate (i.e., kill) their cover crop, in order to make sure that 
their field is ready to support the following cash crop they are 
planting in the spring. Farmers have to learn how to manage fertilizer 
and other inputs in order to support cash crop growth after a cover 
crop. Additionally, decisions need to be made on what other inputs they 
can use in their system that will support the growth of the right 
crops, at the right time. Data from our farmer network suggest that 
there is not significant yield loss, on average, from using a cover 
crop--but neither is there a significant yield gain. Further research 
and information sharing will shed more light on the full costs, and 
ways to manage these costs of various beneficial soil health practices.
Advancing Adoption and use of Soil Health Management Practices
    With farmers leading the way, and by working together with numerous 
partners, we can better understand the benefits of soil health 
practices and inform farmers on the best ways to manage the associated 
risks so that their operations are both economically and 
environmentally sound. Collaborations are key to successful outcomes in 
this arena--no one group can go it alone. Through strong outcome-based 
collaborations, like ours, we have seen greater awareness and adoption 
of soil health practices. With stronger data and input across our 
diverse growing regions, we are learning more about the economic 
impacts to farmers and ways to improve adoption by mitigating risks and 
improving the bottom line.
    We continue to strive to ensure that the farmers we work with have 
access to the best information to make the right decisions for their 
farm. Soil health practices and management systems may, but do not 
always, make short-term economic sense for a farmer. It is our 
responsibility to continue to study the impacts of adopting soil health 
practices across the landscape so we can better understand where--and 
when--soil health practices are likely to be adopted by farmers, and 
where these practices have the greatest benefit for society.
    As farmers invest in soil health practices, we also want to ensure 
that they receive compensation for their private investments, which can 
have substantial public benefits ranging from improving land health, 
biodiversity, water quality and quantity, reductions in greenhouse gas 
emissions, amongst others. By supporting farmers making these 
investments, we increase the overall well-being of farmers and society.
    Thank you for your time and your continued support of effective 
mechanisms that enable farmers to adopt the practices that best fit 
their operations which create benefits for all of us.

    The Chair. Thank you very much, Dr. Mehta. We appreciate 
your comments.
    Mr. Anderson, when you are ready, please.

 STATEMENT OF NATHAN ANDERSON, SECRETARY, BOARD OF DIRECTORS, 
               PRACTICAL FARMERS OF IOWA; OWNER/
         OPERATOR, BOBOLINK PRAIRIE FARMS, AURELIA, IA

    Mr. Anderson. Chair Spanberger, Ranking Member LaMalfa, and 
Members of the Subcommittee, thank you for the opportunity to 
appear before you today to testify about securing the 
conservation and the economic benefits of healthy soils.
    My name is Nathan Anderson. My wife, Sarah, and our young 
son operate Bobolink Prairie Farms, raising corn, soybeans, 
hay, and cattle on owned and rented land in northwest Iowa. Our 
farm's mission is to honor God, our family, and our community 
by caring for the resources to which we have been entrusted. In 
doing so, we are building a resilient and enduring farm and 
family.
    Today it is my humble privilege to be speaking on behalf of 
Practical Farmers of Iowa, PFI, and our 3,600 members. Since 
1985, PFI has been working to equip farmers to build resilient 
farms and communities. Farmers guide and lead PFI's 
programming. Our top priority in our most recent member survey 
is soil health.
    My first glimpse of a clear conservation value of soil 
health principles was in the spring of 2013. Dad and I, working 
together on a regular basis, had started using a brains-of-the-
day and brawn-of-the-day award to affirm each other's work and 
contributions. By 2013 we had been using no-till and cover 
crops for 3 years.
    During a devastatingly heavy rainfall event, the water from 
a neighboring field was streaming off with enough force that 
you could take a kayak across it. Once that water entered our 
no-till and cover crop field, the moving water slowed, dropped 
its load of sediment, and infiltrated. Dad looked out the 
window through the pouring rain at the disappearing stream of 
water and said matter-of-factly, ``That may be the brains of 
the year award.''
    Today I want to highlight the positive economic and 
conservation impact of soil health improvements on rented land 
and additional policies Congress could implement to further 
assist us as farmers.
    Using skills and techniques learned from other PFI farmers 
at field days, NRCS technical assistance and cost-share funding 
through the Environment Quality Incentives Program, or EQIP, we 
developed and implemented a management-intensive grazing 
system. This system plans cattle movement on pasture to 
positively impact species diversity, carbon sequestration, feed 
value, and ultimately profit.
    By the third year of using this grazing system, we had 
increased the pounds of beef weaned per acre by 74 percent, a 
positive impact of $300 per acre. This grazing system and the 
adjacent crop field also gave us the opportunity to host a soil 
health training on our farm for NRCS and partner organizations.
    It is imperative that training opportunities like these 
have continued funding and program support which will allow 
conservation professionals the chance to interact and learn 
from on-farm research and networking.
    Members of Practical Farmers of Iowa greatly value 
cooperative learning and research partnerships. We rely on 
programs like Sustainable Agriculture Research and Education, 
SARE, and cover crops councils as partners and their impact is 
magnified through a farmer-led model like PFI's.
    We also have private cost-share available through companies 
like Unilever who are partnering with PFI and investing in soil 
health practices like cover crops.
    Soil health is our top priority and we encourage funding 
for programs like the Conservation Stewardship Program that 
directly supports farmers already taking steps to address 
resource concerns on the land they manage and conduct more 
conservation work in the contract term.
    This and other programs need to continue to improve the 
flexibility to work on rented land. The soil health technique 
of using cover crops is a sound agronomic practice and has been 
proven as such, and because of that I ask you the Subcommittee 
to move forward provisions directing the Risk Management 
Agency, RMA, to remove special restrictions placed on cover 
crops that treat them differently than seed, fertilizer, or 
other crop protection decisions made between a farmer and their 
agronomists.
    I was once asked the question, ``10 years after you die why 
will it matter that Nathan Anderson farmed that land, who will 
know, and who will care?'' I am still considering that question 
and have formulated this response. Each one of us who is 
fortunate enough to farm, own, or manage land leaves our own 
imprint on it. That imprint can be negative, neutral, or 
positive and can be seen for generations. Just as we can see 
the soil-based evidence of manure applications, tillage, fence 
lines, and travel paths made by farmers decades ago, farmers 
decades from now will see our own imprint on the land. For the 
future of food security, of rural communities, and family 
farms, that imprint must be positive and enduring.
    The broad application of basic soil health principles is 
capable of having that impact. PFI member farmers are ready to 
work with you to have that broad and enduring impact.
    Thank you very much for your time and I look forward to 
your questions.
    [The prepared statement of Mr. Anderson follows:]

 Prepared Statement of Nathan Anderson, Secretary, Board of Directors, 
  Practical Farmers of Iowa; Owner/Operator, Bobolink Prairie Farms, 
                              Aurelia, IA
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to testify about the importance of soil health and its impact on 
resiliency of farming in the Midwest.
    My name is Nathan Anderson. I, along with my wife Sarah and our 
young son, operate Bobolink Prairie Farms as part of a multi-
generational family farm near Aurelia, in northwest Iowa. I started 
farming full-time after graduating from Iowa State University, and 
raise corn, soybeans, hay and cattle on a combined 1,000 acres of owned 
(400 acres) and rented (600 acres) ground. Our farm's mission is to 
honor God, our family, and our community by caring for the resources to 
which we have been entrusted, in doing so, building a resilient and 
enduring farm and family. This mission drives our long-term focus on 
both the owned and rented land we manage.
    Today, it is my humbling privilege to be speaking on behalf of 
Practical Farmers of Iowa (PFI) and its 3,600 members. Since 1985, PFI 
has been working to equip farmers to build resilient farms and 
communities. The organization was created by a group of farmers who 
wanted to learn from each other. Farmers guide and lead PFI's 
programming; their top priority in its most recent member survey is 
soil health. PFI helps farmers learn about and improve soil health 
through farmer-to-farmer education at field days, workshops and 
webinars. It also helps farmers conduct on-farm research so they and 
others in the network can learn more about how practices impact their 
farms. More people are recognizing the value of farmer-to-farmer 
education and on-farm research, and Practical Farmers' membership 
levels are at an all-time high.
    I have been a member of PFI since 2011, and currently serve on its 
board of directors. PFI's on-farm research and openness in sharing the 
resulting knowledge drove my interest in the organization. Thousands of 
farmers seeking to answer questions that make their operations better, 
and an excitement to share that information to help other farmers. Most 
recently I've served on the Welcoming Committee to welcome farmers 
brand new to PFI and to cover crops and offer trouble-shooting help and 
support as farmers get started improving the resiliency of their farms.
Our Farm's Focus on Soil Health Principles
    I grew up always wanting to farm, and in high school managed and 
farmed 150 acres under dad's guidance. During my junior year at Iowa 
State University, when I was looking at grad school and employment 
options, my dad offered to make space to come back to farm, and I 
accepted, starting in 2010 with 600 acres of rented land. In 2011, 
Sarah and I were married, and we brought to the farm a different 
perspective on the farm management practices, along with different sets 
of skills and added labor to implement new practices. Then in 2012 we 
experienced a drought, followed by exceedingly heavy rainfall events in 
2013 and 2014 that further informed our management practices. We saw 
that we needed soil that was more resilient to drought, flooding and 
heavy rainfall. The way to do that was to build the soil's capacity to 
both infiltrate and hold water and soil health practices were the way 
to do that. My experience and education gave me an understanding of the 
impact below the ground in order to manage the land above ground. 
Impacts such as rooting patterns, ground cover and tillage.
    Basic soil health principles include: Protecting the soil surface 
with living plants or plant residue, minimizing soil disturbance, 
growing diverse plants, having living roots in the soil as long as 
possible, and integrating livestock.\1\
---------------------------------------------------------------------------
    \1\ https://www.nrcs.usda.gov/Internet/FSE_DOCUMENTS/
stelprdb1082147.pdf.
---------------------------------------------------------------------------
    Our farm's first practical application of these soil health 
principles came in our grazing system management. As beginning farmers 
on rented pasture with limited resources relative to more established 
landowning farmers, we had an opportunity of necessity to produce more 
at a lower cost on a limited footprint. We applied our available labor 
and management resources as well as basic soil health principles in the 
development of a management-intensive rotational grazing (MiG) system. 
Utilizing frequent movements of the cattle herd and short-duration 
grazing events to have a positive impact on soil health. In the first 3 
years of our management-intensive grazing system, on what was rented 
pasture at the time, we saw an increase in plant diversity and a 
dramatic increase in pounds of beef weaned per acre--by 74%. MiG 
increased our carrying capacity and we weaned 6,371 more pounds of 
beef, which resulted in an increased economic impact of nearly $12,000, 
or over $300 per acre.

     Table 5: Calf weaning weight and average daily gain (ADG) relative to acres grazed in 2010 and 2013 \2\
----------------------------------------------------------------------------------------------------------------
                                                   Average calf                                    Pounds weaned
      Year        Total  pasture     Number of    weaning weight   Average calf    Total pounds     per grazed
                     size (ac)     calves weaned       (lb)         ADG (lb/d)      weaned (lb)    acre (lb/ac)
----------------------------------------------------------------------------------------------------------------
         2010              30.6              12             567            2.26           6,802             222
\2\ https://
 practicalfarmer
 s.org/wp-
 content/uploads/
 2018/12/
 13.L.Pasture-
 monitoring-
 Anderson.pdf.
         2013              34.1              24             549            1.96          13,173             386
                 -----------------------------------------------------------------------------------------------
  Average.......           32.4              18             558            2.11           9,988             304
----------------------------------------------------------------------------------------------------------------

    We've had similar results in our row cropping system. On one rented 
field, through manure and compost nutrient application, diverse cover 
crops, and continuing testing and monitoring, we managed a 1.6% 
increase in organic matter over a 7 year period. This increase in 
organic matter has improved soil nutrient cycling, making more 
nutrients available without additions of fertilizer. This organic 
matter increases available water, soil structure and support for both 
plants and equipment. USDA-NRCS has shown through rainfall simulation 
that rainfall hitting a ``naked'' field not only erodes large amounts 
of soil but also most of the rain water never infiltrates. This results 
in thirsty crops during the late summer when rainfall is limited. 
Because of our increase in soil organic matter through changing our 
farming practices we are now able to hold more rainwater in the soil 
and better withstand extreme drought and flood. We've done this while 
reducing nitrogen application and herbicide passes (input costs), and 
while achieving increased yields of our primary corn and soybean crops.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          [As soil health improves, so too does its hydrologic 
        function. This graphic illustrates how much additional water 
        could be stored in the soil of all U.S. cropland with the 
        addition of one percent of organic matter.]

    Sharing information about row crop production and our livestock 
production separately is a disservice to the benefit of incorporating 
the two of them together on the same acres. Row crop production with a 
diverse cover crop that is then grazed by ruminants like cattle 
provided us the quickest return on our soil health investment. The 
recent USDA-SARE report, Cover Crop Economics, notes that ``when cover 
crops are grazed, they can provide a profit in the first year of use if 
fencing and water are already available.'' \3\
---------------------------------------------------------------------------
    \3\ https://www.sare.org/Newsroom/Press-Releases/When-Do-Cover-
Crops-Pay-New-USDA-SARE-Report-Addresses-the-Question
---------------------------------------------------------------------------
    Many soil health practices take a long time to realize an economic 
return, but as cited above, grazing cover crops is a practice that 
immediately offsets the cost of feed; helping farmers net hundreds of 
dollars per acre. This is a win-win practice that boosts a farmer's 
bottom line while building organic matter. In addition, Cover Crops 
Economics points out that receiving Federal or state incentive payments 
while transitioning to cover crop use can make a major contribution to 
a quick economic return. In Iowa, we have a number of state programs, 
including the first in the nation crop insurance discount demonstration 
project by the Iowa Department of Agriculture and Land Stewardship and 
USDA Risk Management Agency. We also have private cost-share available 
from companies such as Unilever, who are partnering with PFI and 
investing in soil health practices such as cover crops.
Soil Health Practices Grow Rural Economies and Support Beginning 
        Farmers
    Soil health practices allow for growth of rural economies by 
``farming in the off-season.'' Today a young couple wanting to return 
to a corn and soybean operation may have limited opportunity to build 
sweat equity and eventually start farming on their own. But soil health 
practices create an immense opportunity to build operations by farming 
in the off-season through the establishment of custom cover crop 
seeding businesses, custom grazing, haying or fencing businesses, and 
more. For the state of Iowa to properly address soil health 
improvements we will need to be seeding at least 11 million acres of 
corn and soybean ground with cover crops, or 60% every fall. To 
accomplish this, we will need more than 2,000 independent applicators. 
These custom operations can help the next generation of farmers wanting 
to put roots down in rural America to become entrepreneurs and 
revitalize our communities.
    These ideas are what lead the founder of PFI, Dick Thompson, to 
create the organization in 1985. He saw the initial losses of diversity 
of crops and livestock and worried back then about how farmers could 
help reduce the loss of the rural population. Fast-forward more than 35 
years and we are still working to improve opportunities for young 
people to have the opportunity to begin farming. The importance of farm 
diversity is one of the only ways I, as a young farmer, was able to 
return to my multi-generational farm and get started.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Land access is commonly surveyed as the most significant limiting 
factor for beginning and young farmers.\4\ With this in mind, our own 
early focus was to improve the productivity and profitability of the 
acres that we could access, some owned, most rented. Using data and 
information from PFI, NRCS, Iowa Learning Farms (ILF) and other 
sources, we began incorporating diverse cover crops, management-
intensive grazing (MIG), no-till, manure and compost fertility sources, 
and continuing on-farm research and networking.
---------------------------------------------------------------------------
    \4\ https://newfarmers.usda.gov/access-land-and-capital.
---------------------------------------------------------------------------
    We have always farmed with the purpose of improving the soils of 
the land we work on, regardless of whether or not we own the land. I 
make an extra effort to explain to the landowner the practices I am 
doing and why I am doing it. Not all landowners may want certain 
species of cover crops on their land, or some may want their fields to 
look a certain way, so we make sure to have open communication with our 
landowners.
    Soil health practices on our pasture were initiated with the help 
of EQIP cost-share funding through the NRCS. The knowledge provided 
through NRCS planners supported the changes that we made and continue 
to make.
Soil Health and Extreme Weather
    As many of you are aware, this spring was challenging for many 
farmers across the country, especially in my home state of Iowa. 59 of 
our 99 counties were declared disaster areas after spring flooding. 
Even after the flooding subsided rain continued and made it very 
difficult to plant crops.
    While we faced a few challenges, the health of our soil helped to 
mitigate some of the issues we faced. We were able to plant in fields 
sooner because the resiliency of our soil supported equipment with 
wetter than average conditions. Our soil structure minimized the 
negative impact of sidewall, or seed trench compaction. Improvements in 
soil health result in widely recognized benefits to surface and 
groundwater, both on and off farm.
    Healthy soils' ability to slow water movement across the landscape 
is vital as extreme weather becomes more and more common.
    My Dad and I, while often working together, have a ``brains of the 
day'' and ``brawn of the day award.'' This award serves to affirm the 
work of each other and sometimes lighten the pressure of working in 
close quarters with a parent daily. In 2013, after a few years of no-
till and cover crops, we had a devastatingly heavy rainfall event. The 
water from a neighboring field was streaming off with enough force you 
could take a kayak across the field. Once that water entered our field, 
the force of the water slowed, the sediment it was carrying dropped 
out, and its impact was lessened. My Dad looked out the window through 
the pouring rain at the stream of water and said matter-of-factly, 
``That may be the brains of the year award''.
Soil Health Call to Action
    Being a fourth-generation farmer in the United States has had its 
unique set of challenges for our family. My great-grandfather was a 
tenant farmer in a different area of the county, but he lost the farm 
in The Great Depression. Then, after arriving back from World War II, 
his son--my grandfather--worked his way back into a farm of his own. 
The next generation--my father and uncle--had to deal with some of the 
hardest times for agriculture in the United States due to the farming 
crisis of the 1980s. And, while I have not had to deal with any trials 
quite like they have had, it is up to my generation to ensure that 
their legacy is carried on.
    One of the ways in which we are doing so is through the adoption of 
new techniques to maintain and improve soil health. While there have 
been many barriers--such as labor shortages, which make continuing 
education and implementing practices difficult, and extreme weather 
conditions--I find that partnerships with government, support from 
private companies and continuous research and data make it easier to 
adopt these practices. However, this is not enough, and I believe there 
are a few areas where Congress can assist.

  (1)  Because cover crops are proven as a sound agronomic practice, 
            their management should not be segregated from fertilizer, 
            crop protection, and seed selection choices under RMA-
            policy approval. I believe that RMA should treat cover 
            crops as any other crop input and allow farmers and their 
            agronomic advisors to make the relevant management 
            decisions.

  (2)  New and beginning farmers who are able to apply management 
            skills to their chosen cropping system can do so through 
            the CSP and EQIP programs, and be supported by training 
            from the BFRD program. However, as I have mentioned, 
            extreme weather is a major barrier we face in our industry. 
            I believe flexibility is needed in these programs to manage 
            a biological system that does not follow calendar dates. 
            Along with this, Federal programs, such as the ones listed 
            above, should be easier to implement by landowners and 
            tenants working in cooperation to benefit from these 
            programs.

  (3)  Our farm, in the practice of PFI farms, values partnerships with 
            governmental and non-governmental organizations. In 2017, 
            our farm hosted an NRCS soil health training event on our 
            farm, where we had 40 staff participate rather than being 
            in an office all day. PFI farmers continue to lead on-farm 
            research on soil health topics, and it is important that 
            the organizations we partner with can attend events and 
            gain knowledge gleaned through on farm research by the 
            farmers who conducted it. I believe Congress should provide 
            more funding for opportunities like this.

  (4)  Last, as I have previously mentioned, continued research and 
            data are crucial to our industry. I strongly believe that 
            Congress should appropriate additional funding toward 
            programs like SARE, OREI, and Cover Crop Councils that 
            conduct research on soil health.
Concluding Thoughts
    I was once asked the question ``10 years after you die, why will it 
matter that Nathan Anderson farmed that land? Who will know, and who 
will care?'' I'm still considering that question and have formulated 
this response:

          Each one of us who is fortunate enough to farm, own, or 
        manage land leaves our own imprint on it. That imprint can be 
        negative, neutral, or positive, and can last for generations. 
        Just as we can see the soil-based evidence of manure 
        applications, tillage, fence lines, and travel paths in our own 
        fields that were made decades ago, farmers decades from now 
        will see our imprint on the land. For the future of food 
        security, rural communities, and family farms, that imprint 
        must be positive and enduring. The broad application of basic 
        soil health principles is capable of having the necessary 
        impact.

    The Chair. Thank you very much.
    Mr. Cunningham, please proceed with your testimony.

  STATEMENT OF IAN CUNNINGHAM, SECRETARY-TREASURER, NATIONAL 
    ASSOCIATION OF CONSERVATION DISTRICTS; OWNER/OPERATOR, 
           CUNNINGHAM FAMILY FARM, LLC, PIPESTONE, MN

    Mr. Cunningham. Good morning, Chair Spanberger, Ranking 
Member LaMalfa, and Members of the Subcommittee. Thank you for 
the opportunity to testify on the important topic of soil 
health.
    I am Ian Cunningham of Pipestone, Minnesota. Along with my 
son, we operate Cunningham Family Farm in the southwestern 
corner of the state. We produce corn, soybeans, and beef 
cattle. Soil health is a top priority across our 800 acre 
operation.
    I also currently serve as the Secretary-Treasurer of the 
National Association of Conservation Districts. Conservation 
Districts were founded in response to the poor soil health 
practices that resulted in the infamous Dust Bowl of the 1930s.
    Over the last 80 years we have come to realize that healthy 
soil is the key to addressing many natural resource concerns. 
When the soil is healthy and has a cover crop or residue left 
in the field, there is far less wind and rain erosion. When 
soils are healthy they can hold and slow water during 
devastating rain events. Healthy soil holds nutrients in the 
soil, improving water quality and the efficiency of added 
nutrients, leading to increased yields.
    NACD believes there are five main principles to soil 
health: maintaining soil cover, minimizing soil disturbance, 
increasing plant diversity, maintaining living roots in the 
soil, and the integration of livestock.
    While the natural resource benefits of soil health are 
plentiful, increased adoption of soil health practices is 
largely driven by the ability to demonstrate economic benefits 
for producers. I believe that if we can make the argument that 
benefits outweigh any costs and we can back that argument up 
with data, we will see uptake increase substantially.
    In 2017, NACD adaptive research released a set of case 
studies through NACD's Soil Health Champion Network that 
demonstrate economic benefits of soil health practices. The 
case studies on corn and soybean farms detailed year-by-year 
budget data on their adoption of cover crops or no-till.
    Major takeaways were while planting costs increased by up 
to $38 an acre, fertilizer costs decreased by up to $50 an 
acre, repair costs decreased by up to $16 an acre, yields 
increased by up to $76 an acre, and altogether yearly net 
income increased by up to $110 per acre.
    In my operation we see a very similar story. I am 
personally proud to be an NACD soil health champion in my 
community and I am proud of the work I have done to encourage 
the adoption of practices that improve soil health by my 
neighbors. I can only do this by being a true believer in how 
soil health has improved my operation.
    While increasing yields and decreasing inputs were the most 
obvious ways my operation's soil health has benefitted my 
bottom line, perhaps the greatest economic advantage can be 
seen when disaster strikes.
    During the historic drought of 2012, the combination of all 
the soil health practices we adopted created a soil health 
system that provided more pasture production for our cows and 
calves, and when we harvested our cash crops we were amazed by 
the yield compared to other farmers who weren't implementing 
soil health practices at the same level that we were. This was 
due to the soil's better rainfall infiltration when it did 
rain, water holding capacity to get us through the dry periods, 
nutrient cycling, and other benefits that we can't see with our 
eyes. This was all created using no-till in our fields, growing 
cover crops, ensuring a diversity of plants, and integrated 
grazing and livestock system.
    In 2018 we had a different problem when too much rain fell. 
Much of the excess rain fell during harvest. Farmers who didn't 
implement soil health practices were fighting mud, tearing up 
their fields and their equipment. We were able to harvest our 
crop on time due to better soil structure our soil health 
conservation system provided.
    Our crop insurance agent contacted me in early November 
asking if I would be filing a claim as so many of the farmers 
in my areas were doing. I replied I would not since our yields 
were higher than the insurance guarantee, which was the first 
time he had heard that from one of his customers. Wet or dry, 
by following the principles of soil health, our farm is more 
resilient.
    If we are to continue to grow the food, fuel, and fiber our 
nation and the world will need in the future, agriculture must 
continue to innovate, making sure our natural resources are 
protected for future generations.
    Ensuring soil health is at the center of every operation is 
crucial to accomplishing this goal. This Subcommittee has a 
role to play by supporting farm bill conservation programs, 
advancing policies that enable the adoption of soil health 
practices like no-till and cover crops, and by ensuring that 
NRCS has adequate staff in local service centers to provide the 
technical assistance that is crucial to the adoption of soil 
health practices.
    As an elected supervisor in my local soil and water 
conservation district, I know that conservation districts are 
committed to doing their part to provide locally-led voluntary 
efforts that will ultimately lead to greater conservation 
adoption.
    Thank you again for inviting me this morning and I look 
forward to answering your questions.
    [The prepared statement of Mr. Cunningham follows:]

  Prepared Statement of Ian Cunningham, Secretary-Treasurer, National 
   Association of Conservation Districts; Owner/Operator, Cunningham 
                    Family Farm, LLC, Pipestone, MN
    Good morning, Chair Spanberger, Ranking Member LaMalfa, and Members 
of the Subcommittee. Thank you for the opportunity to testify on the 
important topic of soil health.
    I am Ian Cunningham of Pipestone, Minnesota, and along with my son, 
we operate Cunningham Family Farm in southwestern Minnesota. We produce 
corn, soybeans and beef cattle. Soil health is a top priority across 
our 800 acre operation.
    I also currently serve as the Secretary-Treasurer of the National 
Association of Conservation Districts. NACD is the nonprofit 
organization that represents America's 3,000 conservation districts, 
their state and territory associations and the more than 17,000 men and 
women who serve on their governing boards. Conservation districts are 
local units of government established under state law to carry out 
natural resource management programs at the local level. Districts work 
with millions of cooperating landowners and operators to help them 
manage and protect land and water resources on all private lands and 
many public lands in the United States.
    Conservation districts were founded with the philosophy that all 
conservation decisions should be made as close to the local level as 
possible. Created in response to the Dust Bowl, healthy soil is the 
very reason why districts came into being. Degraded soil health led to 
the great loss of topsoil to wind erosion in the 1930s. Conservation 
districts have helped farmers and ranchers across the country improve 
conservation on their operation and form the local component of the 
Federal, state and local partnership of conservation delivery.
    Over the last 80 years, we have come to realize that healthy soil 
is the key to addressing many natural resource concerns. When soil is 
healthy and protected by cover crops, there is far less wind and rain 
erosion. Healthy soils can hold and slow rainwater during devastating 
floods. Healthy soils hold nutrients better, improving water quality 
and the efficiency of added nutrients. It is clear that healthy soil is 
the bedrock and should be the priority of our conservation efforts.
    NACD believes there are five main principles to soil health: (1) 
maintaining soil cover, (2) minimizing soil disturbance, (3) increasing 
plant diversity, (4) maintaining living plants and roots, and (5) the 
integration of livestock.
The Economics of Soil Health
    While the natural resource benefits of soil health are plentiful, 
we have seen that adoption of soil health practices will be improved if 
you can show an economic benefit for these practices to a producer. 
Often, a farmer's first question on these practices will be, ``How much 
is this going to cost me?'' If we make the argument that the benefits 
outweigh any costs, and can back that argument up with data, we will 
see uptake increase substantially.
    In 2017, NACD and Datu Research, LLC released a set of case studies 
on four corn and soybean farms in the Upper Mississippi River Basin, 
which detailed year-by-year budget data on their adoption of cover 
crops or no-till.\1\ These farmers shared decisions they made and why; 
how adoption affected income and yields; and what they learned. Each 
case study uses budget analysis to measure yearly changes in income 
that the farmer attributes to adoption, compared to the pre-adoption 
baseline.
---------------------------------------------------------------------------
    \1\ https://www.nacdnet.org/soil-health-research/.
---------------------------------------------------------------------------
    The major takeaways were that although planting costs increased by 
up to $38 per acre:

  <bullet> Fertilizer costs decreased by up to $50 per acre;

  <bullet> Erosion repair costs decreased by up to $16 per acre;

  <bullet> Yields increased by up to $76 per acre; and altogether[; 
        and]

  <bullet> Yearly net income increased by up to $110 per acre.

    Additional comments from the case study illustrate good advice for 
those wanting to get into soil health practices:

  <bullet> The initial investment in learning what is right for your 
        own individual farm can reap serious benefits. Enrollment in a 
        conservation program can be key to make the initial investment 
        cost beneficial.

  <bullet> Devote time to learning about cover crops before trying them 
        on the farm. The variety of cover crop seed used can 
        dramatically alter both the budget and benefits.

  <bullet> During bad weather years, the effects of increases in 
        organic matter and the reservoir of water in soils from no-till 
        returned significant benefits.

  <bullet> Start small enough so it doesn't freak you out, but large 
        enough to matter.

    NACD is currently working to expand this research across the 
country, encompassing different cropping systems, soil types, climates 
and geographic regions to demonstrate the specific economic benefits of 
soil health practices.
Education and Outreach
    Despite the clear benefits of healthy soil, NACD believes that for 
a more successful uptake of soil health practices, producers need to be 
informed of the latest data and research, and this must come from a 
trusted local source. In some instances, the conservation practices 
needed to produce healthy soil may seem counterproductive and hearing 
real world examples from their neighbors is critical.
    For example, some may assume planting a cover crop may limit 
moisture for their cash crop or compete for needed nutrients. In 
reality, a cover crop creates greater root networks, allowing rainfall 
or irrigation to be absorbed by and kept within the soil in greater 
amounts and can actually replenish some of the nutrients needed by the 
main crop. Tillage used to be the only way to farm because it was the 
only way farmers knew to control weeds. Farmers believed that tillage 
was actually improving the health of the soil by mixing it and breaking 
up compacted soil. We know now that soil needs to be left intact, and 
tilling the soil actually increases compaction, reduces water 
infiltration, kills beneficial soil microorganisms, and reduces soil 
organic matter.
    We have learned that combating these myths and spreading 
information on soil health is best done face-to-face and farmer-to-
farmer.
    It is for this reason that NACD's Soil Health Champions Network 
began in 2015.\2\ Established in partnership with NRCS through a 
Conservation Innovation Grant (CIG), the Network promotes soil health 
education and outreach among America's farmers, ranchers and forestland 
owners. Today, the Network is comprised of more than 240 landowners and 
operators who implement conservation practices on their land and 
champion the benefits of soil health within their communities. (See 
Appendix A) Conservation districts were created so local communities 
would have a voice in conservation decisions, and NACD's Soil Health 
Champions Network helps amplify this voice, neighbor-to-neighbor, 
across the country. To further understand how soil health benefits a 
producer's bottom line, NACD also held a focus group earlier this year 
where Soil Health Champions discussed how soil health practices have 
benefited their operations in the face of extreme weather patterns.\3\
---------------------------------------------------------------------------
    \2\ https://www.nacdnet.org/get-involved/soil-health-champions-
network/.
    \3\ https://www.nacdnet.org/wp-content/uploads/2019/06/NACD-Report-
Soil-Health-and-Weather-Extremes.pdf.
---------------------------------------------------------------------------
Soil Health on My Operation
    I am personally proud to be a Soil Health Champion in my community 
and I am proud of the work I have done to encourage the adoption of 
practices that improve soil health by my neighbors. I can only do this 
by being a true believer in how soil health has improved my operation. 
My great-grandparents first farmed the land I currently farm in the 
1880s. Since then, my family has always worked to be on the cutting 
edge of conservation adoption. Today, I use cover crops on 100 percent 
of my land; utilize no-till practices; and have been working with 
precision agriculture, grid sampling and variable application rates as 
a way to take my conservation to the next level. I have personally seen 
how my soil health conservation system has improved weed control, which 
limits my herbicide purchases and increases my yields, leading to more 
income with decreased fertilizer costs. With no-till or limited-till, I 
am able to use my tractor less, ultimately limiting wear-and-tear on my 
machinery and reducing fuel costs. Reduced fuel use combined with a 
healthy soil's ability to sequester carbon are significant factors in 
reducing greenhouse gases.
    Although increasing yields and decreasing inputs are the most 
obvious ways my operation's soil health has benefited my bottom line, 
perhaps the greatest economic advantage, and sometimes least heralded 
one, can be seen when a disaster strikes. During the historic drought 
of 2012, a combination of all of the soil health practices we adopted 
created a soil health system that provided more pasture production for 
our cows and calves when forage was scarce and feed costs skyrocketed. 
When we harvested our cash crops, we were amazed by the yield that was 
provided compared to other farmers who weren't implementing soil health 
practices at the same level we were. This was due to the soil's better 
infiltration when it did rain, water-holding capacity to get us through 
the dry periods, and nutrient cycling and other benefits we can't see 
with our eyes. This was all created by utilizing no-till on our fields, 
planting cover crops, ensuring a diversity of plants, and implementing 
a managed grazing and livestock system.
    In 2018, we had a different problem, similar to the one we are 
facing currently, where too much rain fell, except that in 2018, the 
excess rain fell during harvest. Farmers who didn't implement soil 
health practices had soil that wasn't able to absorb the rainfall and 
were getting their equipment stuck in the mud, ultimately damaging 
their equipment. Many chose to wait for the ground to freeze before 
their crops could be harvested, a significant gamble for any producer. 
We were able to harvest our crop on time due to the better soil 
structure our soil health conservation system provided.
    Our crop insurance agent contacted me in early November of that 
year to let me know that due to a price decline, our revenue policy 
covered more bushels. He asked if we would have a claim, and I replied 
that we would not since our yield was quite a bit better than the new 
guarantee. We were the first customer he had heard from who would not 
be filing a crop insurance claim. Wet or dry, by following the 
principles of soil heath, our farm is more resilient.
    If we are to continue to grow the food, fuel and fiber our nation 
and the world will need in the future, agriculture must continue to 
innovate and grow more with less, while making sure our natural 
resources are protected for future generations. Ensuring soil health is 
at the center of every operation is crucial to accomplish this goal, 
and as an elected supervisor at my local conservation district for the 
past 21 years, I know that conservation districts are committed to 
provide the locally-led, voluntary efforts that will ultimately lead to 
greater conservation adoption.
    Congress must also stand committed to doing its part. NACD 
appreciates the 2018 Farm Bill recently passed by this Committee for 
its commitment to funding programs at NRCS and FSA at the same levels 
as the 2014 Farm Bill. That is only the first step, however, and 
Congress must continue to promote voluntary, locally-led conservation 
by ensuring these programs continue to receive needed funding and 
ensuring that we reverse the trend of woefully understaffed NRCS 
service centers. The financial assistance programs provided by the farm 
bill are critical to further soil health adoption, but we must have the 
technical experts in local county offices across the country if we are 
to truly see uptake of soil health practices take place on every 
agricultural operation. If there is no one in an office to provide 
technical assistance, we are missing out on a clear opportunity to 
advance conservation and protect our nation's natural resources.
    With the disaster currently effecting my part of the country, 
flexibility in the prevented planting rules at RMA is very important. I 
appreciate USDA's recent announcement that this year's date after which 
cover crops can be hayed and grazed will be moved to September 1.\4\ 
Allowing flexibility in cover crop usage will hopefully lead to greater 
adoption of cover crops on acres that won't ultimately be planted with 
the intended cash crop. Greater adoption of cover crops and other 
conservation practices will help farmers survive future disasters. I 
personally appreciate Committee Members Angie Craig and Dusty Johnson 
for introducing legislation and their leadership on this issue.
---------------------------------------------------------------------------
    \4\ https://www.rma.usda.gov/en/News-Room/Press/Press-Releases/
2019-News/RMA-Announces-Change-to-Haying-and-Grazing-Date.
---------------------------------------------------------------------------
    I appreciate the invitation to speak before the Subcommittee this 
morning on a topic that is so close to my heart and look forward to 
answering any question you might have about the need for greater focus 
on soil health and the economic and natural resource benefits that can 
be realized.
                               Appendix A
Map of NACD Soil Health Champions Network

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chair. Thank you very much, Mr. Cunningham.
    Ms. Douglass, please proceed when you are ready.

           STATEMENT OF SHANNON DOUGLASS, FIRST VICE 
 PRESIDENT, CALIFORNIA FARM BUREAU FEDERATION; OWNER, DOUGLASS 
                       RANCH, ORLAND, CA

    Ms. Douglass. Thank you.
    Good morning, Chair Spanberger, Ranking Member LaMalfa, and 
Members of the Subcommittee. Thank you for the opportunity to 
appear before you today on the important topic of soil health.
    I am Shannon Douglass. I am the First Vice President of the 
California Farm Bureau Federation, representing 39,000 members 
in California.
    My husband, Kelly, and I are first-generation farmers, 
living in Glenn County with our young son. We raise beef 
cattle, grow forage crops, walnuts, hay, sunflowers, and 
various seed crops. We recognize soil health is vital for 
sustainability, productivity, and profitability on our farm. 
One method we have personally found effective on our farm is 
the planting of cover crops to improve soil health.
    Our county, Glenn, leads the state in the number of acres 
contracted for cover crops with NRCS, thanks to the great work 
locally.
    On our farm, we have implemented cover crops to achieve the 
multitude of benefits possible in a cropping system. These 
include, but are not limited to, prevention of erosion, 
improvement of the soil's physical and biological properties, 
providing nutrients for the soil, the suppression of weeds, 
availability of water in the soil, and breakage of pest cycles.
    We began rotating in our cover crops before planting our 
sunflower seed crop. Since then we have continued to test 
different mixes as part of our crop rotation system. We have 
been pleased with the increase in organic matter, the overall 
weed suppression, and we anticipate yield increases in the 
coming years in response to these efforts. We believe these 
results will give us the ability to continue making the 
investment of seed and planting costs.
    In addition to soil health benefits, we are seeing many of 
these cover crop varieties serve as habitat for bees and other 
pollinators, as well as habitat for beneficial insects. There 
are also varieties that can be utilized to decrease nematode 
populations in the soil, and we have seen that working for some 
of our neighbors.
    An incentives program available to growers in California is 
the Healthy Soils Program. It is managed by the California 
Department of Food and Agriculture. We commend CDFA for the 
creation of this program, but after researching it for our farm 
we personally decided that the application process was a bit 
too cumbersome and time consuming at the time, and know that 
they are working to streamline that program.
    But having said that, the CDFA Healthy Soils Program is 
important to highlight as a program that is attempting to 
improve soil health in California. To date, this program has 
funded 329 projects and claims to have reduced 18,360 metric 
tons of carbon dioxide. The most common practices for 
incentives include compost application followed by cover 
cropping. Funded demonstration projects include a higher 
percentage for orchards, and the most common practices are 
cover cropping, composting, and mulching.
    To maximize the conservation economic benefits of soil 
health on the farm, Farm Bureau provides several 
recommendations in my written testimony for the Committee's 
consideration. I wish to highlight three of them.
    First, flexibility is needed to ensure that soil health 
practices and programs are not one-size-fits-all. In California 
alone there are over 400 commodities grown. Each commodity, 
each farm, and frankly each region in California has different 
conservation and economic needs that need to be recognized.
    Second, we call for continued research to support strong 
soil health practices. Areas of research should include the 
study of diseases that jeopardize soil health, new technologies 
that have the potential to improve soil health, and the 
application of agricultural byproducts and soil amendments.
    Last, soil health practices must take into consideration 
other on-farm practices such as those required by laws like 
FSMA, Food Safety Modernization Act. We must be thoughtful 
about the intersection of practices required in other laws to 
ensure that best practices under NRCS are in harmony with food 
safety and other regulations.
    In conclusion, cover crops are one of the many tools that 
will be effective for some farmers and in some farming systems. 
With continued research and prioritization of funding, cover 
crops hold great promise as a tool to combat the increasing 
pressures on American farmers.
    Thank you for the opportunity to testify and I am looking 
forward to your questions.
    [The prepared statement of Ms. Douglass follows:]

     Prepared Statement of Shannon Douglass, First Vice President, 
  California Farm Bureau Federation; Owner, Douglass Ranch, Orland, CA
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
about the important topic of soil health. I am Shannon Douglass, First 
Vice President of the California Farm Bureau Federation (Farm Bureau).
    Farm Bureau is a nonprofit, voluntary membership organization whose 
purpose is to protect and promote agricultural interests throughout the 
state of California and to find solutions to the problems of the farm, 
the farm home and the rural community. Farm Bureau is California's 
largest farm organization, representing nearly 36,000 members across 53 
counties contributing to the largest agricultural economy of any state 
in the nation. Farm Bureau strives to protect and improve the ability 
of farmers and ranchers engaged in production agriculture to provide a 
reliable supply of food and fiber through responsible stewardship of 
California's resources.
    My husband Kelly and I are first generation farmers living in Glenn 
County with our son where we raise beef cattle and grow forage crops, 
walnuts, hay, sunflowers and various seed crops. In addition to farming 
and my position at Farm Bureau, I run a company called CalAgJobs, which 
connects agricultural career candidates with California's agricultural 
employers.
Importance of Healthy Soil
    Farmers recognize that healthy soil is one of the necessary, 
critical inputs of a successful farm. Regardless of whether it is the 
multi-generational farm that continues to produce a safe and abundant 
food supply or the first-generation farmer, like myself, farming on 
newly-established agricultural land, soil health is vital for 
sustainability, productivity, and profitability. Unhealthy soils 
produce poor crops and poor feed for livestock, requiring soil inputs, 
while promoting weed growth or no growth at all. In California, in 
particular, over the past 3 decades, we've lost more than a million 
acres of farmland, much of which is our most productive, prime, 
agricultural soils. If our development trends and resource constraints 
continue, some studies suggest, we will lose another 1.4 million acres 
by the year 2050. This is also a crucial timeline where our food, 
fiber, and energy demands are expected to increase by about 50%.
    Beyond responding to impending food and land scarcity, healthy 
soils have been demonstrated to serve as a carbon sink, effectively 
sequestering carbon in agricultural soils and vegetation. As farmers 
and ranchers manage more than 1 billion acres in the U.S., we have a 
wonderful opportunity to share our positive contributions, including to 
those that may articulate otherwise. The 400 commodities we grow in 
California, particularly our specialty crops, depend upon the 
robustness and uniqueness of our soils, for both economic and 
conservation purposes. It is in our best collective interest to pivot 
more quickly to a proactive, holistic approach to ensure we are 
managing our soils and applying practices that maintain and ultimately, 
improve soil health.
    Farm Bureau member-adopted policy confirms a strong interest in 
soil health. As a grassroots, member-led organization, Farm Bureau 
members work through a process each year to create and refine Farm 
Bureau policy that directs the organization's program of action. Ideas 
and suggestions for the policies originate in discussions among Farm 
Bureau members at various meetings and gatherings. After consideration 
by a statewide committee, our voting delegates annually adopt policies 
at the Farm Bureau annual meeting. Soil health is incorporated and 
interwoven throughout Farm Bureau's policies and programs of action. 
This is evident in our support for public policies, programs and 
legislation, such as the farm bill, that encourage voluntary 
conservation programs and research to investigate and improve on-farm 
practices, as well as technological investments that further soil 
health and sustainability. Farm Bureau supports both public as well as 
privately-led initiatives to achieve these goals. We also support 
incentives for promoting carbon sequestration in soils.
Practices On My Operation
    Our farm is located in Glenn County, California, which as a county, 
leads the state in the number of acres contracted for cover crops with 
the United States Department of Agriculture--Natural Resources 
Conservation Service (NRCS). A recent soil health cover crop 
demonstration day in our county attracted 95 grower participants, 
showing the increasing interest in the practice. Demonstration events 
such as this in our county are widely attended and successful because 
of the great outreach efforts to those in industry by our local NRCS 
office. The technical advisory committee created by NRCS, led by a 
combination of local farmers, local agronomists and local seed 
suppliers, has also played a key role in outreach and collaboration. 
The committee works with our local NRCS agronomist to ensure NRCS 
recommended cover crop seed mixes are easy to use and readily 
accessible to growers in the area.
    In part because of these types of demonstration events, I have 
taken steps to improve the soil health on my own farm. Some popular 
national varieties include the annual cereals and forage grasses. 
Following seed supplier protocol, we implemented cover crops to achieve 
the multitude of benefits possible in a cropping system. These include, 
but are not limited to, prevention of erosion, improvement of the 
soil's physical and biological properties, providing nutrients for the 
soil, the suppression of weeds, availability of water in the soil, and 
breakage of pest cycles. Of course, we are aware that the potential 
benefits achieved will vary depending on the species of cover crop, the 
crop cycle, and the location of the operation.
    Using the regional tools, progress reports, and plant guides 
developed by NRCS, we implemented cover crops on our farm in 2016 
beginning with rotating them in before planting our sunflower seed 
crop. Since then, we have continued to test different mixes as part of 
our crop rotation system. Specifically, we have planted cover crops in 
the winter in advance of planting and are also integrating cover crops 
into a newly planted walnut orchard.
    We have been pleased with the increase in organic matter, overall 
weed suppression, and we anticipate yield increases in the coming years 
in response to our efforts. We believe these results will give us the 
ability to continue making the investment of seed and planting costs. 
In addition to soil health benefits, we are finding extension benefits 
from the utilization of cover crops, as well. For example, we are 
seeing many of these varieties serving as habitat for both bees and 
other pollinators, as well as for beneficial insects. There are also 
varieties that can be utilized to decrease nematode populations in the 
soil and we have seen those working on the fields of our neighbors.
California's Healthy Soils Program
    For our operation, we opted to utilize cover crops without any 
financial assistance or incentive support, although we are aware that 
such programs exist. I'll explain our state program, why it wasn't a 
good fit for my farm, and more detail on how the program works.
    In California, one particular incentives program available to 
growers is the Healthy Soils Program (HSP) managed by the California 
Department of Food and Agriculture (CDFA). While we commend CDFA for 
creation of the program, after researching it for our farm, we 
personally decided the application process was too cumbersome and time 
consuming. It was ultimately easier to implement the practice ourselves 
than to put in the time and resources necessary to go through the 
extensive grant application. Having said that, the CDFA HSP is 
important to highlight as a program attempting to improve soil health 
in California.
    The HSP was born out of the 2015 International Year of the Soils, 
which encouraged the State of California to create an interagency plan 
via the Healthy Soils Initiative to promote the development of healthy 
soils. The initiative articulated the benefits of soil health: improved 
plant health and yield, improved biodiversity, habitat development, 
carbon sequestration, reduced sediment erosion and dust, increased 
water retention, and improved air and water quality. The initiative 
promoted five actions:

  1.  Protect and restore soil organic matter in CA;

  2.  Identify sustainable and integrated financing opportunities;

  3.  Provide research, technical assistance and education;

  4.  Increase governmental efficiency on public and private land 
            applications; and

  5.  Promote interagency collaboration.

    While several agencies had individual actions, CDFA initiated the 
HSP aimed at incentivizing the use of on-farm soil management practices 
that improve soil organic matter, sequester carbon and reduce 
greenhouse gas emissions. In its current form, the program is divided 
into two funding streams: incentives and demonstration projects.
    Incentives are offered to California growers and ranchers who 
implement specific conservation management practices on their farms and 
ranches that sequester carbon, reduce greenhouse gas emissions, and 
improve soil health. Forecasted benefits are calculated using a tool 
developed by NRCS, Colorado State, CDFA and the California Air 
Resources Board. This tool is called COMET-Planner. On-farm management 
practices are also those eligible under NRCS conservation practice 
standards, and include practices like compost application, cover 
cropping, no-till, reduced-till, mulching, herbaceous cover, and 
conservation plantings such as windbreaks and hedgerows.
    Demonstration projects are offered to farm operators, industry 
groups, nonprofits, academia or Resource Conservation Districts 
providing on-farm projects that collect data or showcase conservation 
management practices to benefit soil health. These also typically 
include an outreach and education component and have included practices 
such as compost application, hedgerow planting, mulching, no-till and 
cover crop management with grazing and controlled burns.
    CDFA is also now offering grants for technical assistance for the 
HSP. Funds awarded through this competitive grant program are 
distributed to technical assistance providers including Resource 
Conservation Districts, the University of California Cooperative 
Extension, and nonprofit organizations, with demonstrate technical 
expertise in designing and implementing agricultural management 
practices to support CDFA's incentive programs. Technical assistance 
providers help provide hands-on, on-demand application assistance for 
growers and ranchers applying for a grant and implementing one or 
multiple management practices.
    Grant guidelines are proposed before an Environmental Farming 
Scientific Advisory Committee convened by CDFA that consists of 
representatives from academia, other state agencies and departments, 
USDA, technical advisors and growers. The Committee discusses the 
program, advises on improvements, takes public comment and makes 
recommendations to the California Secretary of Agriculture.
    The Healthy Soils program originally received its first funding 
allocation in 2016-17 with $7.5 million from the state administered Cap 
and Trade program proceeds. In 2018, it again, received $5 million from 
the Cap and Trade proceeds and $10 million from California Proposition 
68: the CA Drought, Water, Parks, Climate, Coastal Protection and 
Outdoor Access for all Act of 2018. To date, it has funded 329 projects 
and has claimed to reduce 18,360 metric tons of carbon dioxide, the 
equivalent of removing approximately 4,000 cars off the road for 1 
year. In the awards announced just this month, CDFA awarded $8.7 
million for 194 incentive projects and $3.8 million for 23 
demonstration projects. The most common practices for incentives 
include compost application, followed by cover cropping. The funds are 
evenly dispersed amongst orchards, grazing/rangelands, cropland and 
vineyards. Funded demonstration projects include a higher percentage 
for orchards and the most common include cover cropping, composting and 
mulching. For the current proposed California budget, the state 
legislature included $28 million to the HSP from Cap and Trade Auction 
revenues.
Recommendations
    To maximize the conservation and economic benefits of soil health 
on the farm, Farm Bureau provides the following recommendations for the 
Committee's consideration:

  <bullet> Flexibility: Recognition that there is no one-size-fits-all 
        approach for on-farm soil health practices. In California 
        alone, there are over 400 commodities grown. Each commodity and 
        operation will have different conservation and economic needs 
        to factor and we need to realize that in some circumstances, 
        the practices that have been validated as promoting healthy 
        soils may not make sense. In those circumstances, we can't make 
        value judgments against those operations, but rather, we need 
        to use our motivation and resources to identify new practices 
        that work.

  <bullet> Producer Incentives: Support for programs that create 
        incentives to encourage or recognize activities on working 
        farms that enhance soil health. For example, to help address 
        climate change, we support compensation to farmers for planting 
        crops or adopting farming practices that keep carbon in the 
        soil. Application processes for these programs should be 
        streamlined and should not overburden producers. Compensation 
        needs to be provided so that it actually makes financial and 
        agronomic sense.

  <bullet> Soils Research: Continued resources for research that 
        support soil health practices. Areas of research should include 
        the study of diseases that jeopardize soil health, new 
        technologies that have the potential to improve soil health, 
        and the application of agricultural byproducts as soil 
        amendments. Soil health practices specific to specialty crops 
        should not be overlooked. For example, programs such as the 
        USDA Specialty Crop Block grants could place more emphasis on 
        encouraging specialty crop growers to utilize cover crops or 
        implement other soil health focused practices.

  <bullet> Technical Assistance: Ongoing resources for NRCS technical 
        assistance staff that are commensurate to the voluntary 
        financial assistance available to producers. Resources for 
        ongoing soil mapping and publication of soil survey information 
        are also essential.

  <bullet> Wildfire Response: The utilization of public-private 
        partnerships for replanting fire-ravaged areas with beneficial 
        species ecologically appropriate for the region that stabilize 
        soil and reduce weed invasion.

  <bullet> Prioritize Local: Long-term implementation of on-farm soil 
        health practices will depend on the practicality, feasibility, 
        and availability of resources to the producer. Any soil health 
        program should be locally focused and producer led.

  <bullet> Avoid Conflicting Regulation: Soil health practices must 
        take into consideration other on-farm practices such as those 
        required by laws like the Food Safety Modernization Act (FSMA). 
        We must be thoughtful about the intersection of practices 
        required in other laws to ensure that best practices under NRCS 
        are in harmony with food safety and other regulations. The 
        burden must be placed on the legislators and regulators to 
        avoid regulatory conflict.

  <bullet> Other Research: Further research is needed to document the 
        additional agronomic benefits of soil health practices. For 
        example, research documenting the reduction in water needed for 
        lands with compost applications.
Conclusion
    A comprehensive suite of tools is available to successfully manage 
for soil health. Cover crops are one of many tools that will be 
effective for some farmers and in some farming systems. It is important 
to note they will not integrate well with all crops. Any implemented 
recommendations by private and public sources need to be tailored to 
the local area relying on the science provided by local experts for 
maximum effectiveness. With continued research and prioritization of 
funding, cover crops hold great promise as a tool to combat the 
increasing pressures on American farmers.
    Thank you for the opportunity to testify.

    The Chair. Thank you, Ms. Douglass.
    Mr. Ellis, welcome and please begin whenever you are ready.

STATEMENT OF CHAD R. ELLIS, BOARD CHAIR, NATIONAL GRAZING LANDS 
 COALITION; INDUSTRY RELATIONS AND STEWARDSHIP MANAGER, NOBLE 
             RESEARCH INSTITUTE, LLC, MARIETTA, OK

    Mr. Ellis. Chair Spanberger, Ranking Member LaMalfa, 
Members of the Committee, thank you for the opportunity to 
provide testimony on behalf of the National Grazing Lands 
Coalition as their Chairman, and the Industry Relations and 
Stewardship Manager for the Noble Research Institute.
    Grazing lands are one of America's greatest natural 
resources. They are vast and they cover over 650 million acres 
in the U.S. alone. They provide a secure food supply, renewable 
energy, clean water, carbon sequestration, wildlife habitat, 
and healthy soils.
    To sustain agricultural production, grazing lands must be 
conserved and properly managed to produce robust resilient 
stands of grasses and forage. All of this starts below our feet 
with soil health, the foundation of our operations.
    Innovative producers today understand that we do not solve 
ecological problems by implementing practices, rather by 
implementing principles.
    We can and are addressing ecological degradation by 
following principles that rebuild ecological process and 
habitat from the ground up rather than focusing on specific 
singular species or management practices.
    It all begins with maintaining a solid foundation with 
healthy soils as the cornerstone to any agricultural 
enterprise. Properly applied, grazing is the capstone of 
building soil health.
    There are five principles that must be implemented to 
maintain and improve soil health.
    The first is armor the soil. Keeping the soil covered is 
key step to protecting the soil and building soil health.
    Second is optimizing disturbance. Tilling the ground alters 
soil structure and limits biological activity, but not all 
disturbances harm the soil. In fact, some are quite beneficial 
when optimized. Grazing, prescribed fire, and herbicide 
applications all are disturbances that can, if properly 
managed, be beneficial for soil health. Optimizing these 
disturbances means ensuring timing, frequency, intensity, and 
the duration of these activities are implemented in a planned 
manner.
    Our third is increasing diversity. Increasing plant 
diversity above ground allows for a more diverse community 
below the ground.
    Fourth is keeping a living root in the ground all year. 
Living roots improve soil structure and provide a food source 
for beneficial microbes. They also facilitate symbiotic 
relationships between plants and mycorrhizal fungi.
    Fifth is properly integrating livestock. Grazing improves 
both soil health and plant health. Grazing recycles the 
nutrients through manure distribution, reduces plant 
selectivity, and increases plant diversity. When properly and 
intentionally applied, grazing is one of the most critical 
factors to improving soil health.
    To provide an effective mechanism for implementing the soil 
health principles and the natural laws of grazing management, 
the most effective producers develop and follow a grazing plan. 
The plan allows producers to intentionally manage their land 
and achieve the desired outcomes for a livestock operation. A 
good grazing plan considers two essential components, the 
nutritional need of the livestock and the health of the plants 
being grazed.
    Grazing plans are in essence conservation plans for the 
grazing lands. A well-designed and a well-managed grazing plan 
results in healthy soils and grasses, proper nutrition for the 
grazing animals, and a greater livestock production at a lower 
cost.
    A proper grazing plan considers first, the stocking rate, 
meaning the number of animals on a given area of land over a 
certain period; second, the grazing rotation, which means where 
to graze, when to graze, and how long to graze; and third is 
grazing intensity, which is the amount of plant materials to be 
removed from livestock or rotated to a new area, and following 
the guiding principles of take half, leave half; and fourth and 
last is plant rest and recovery, which recognizes that grazed 
plants are given adequate periods of time to recover.
    All of these elements when managed in unison enable 
producers to increase both their productivity of their 
operations and health of their soils.
    Management of grazing lands is a dynamic process with a 
complex set of variables. However, as the science of grazing 
management has evolved, so have livestock producers. 
Integrating livestock into our agricultural operations is a key 
component of the five soil health principles.
    Today, most effective livestock producers are seeing 
dramatic improvements in the productivity, in the resilience of 
their grazing lands, as well as their bottom line. They are 
also benefitting from the significant improvements and the 
health of their soils.
    Thank you.
    [The prepared statement of Mr. Ellis follows:]

  Prepared Statement of Chad R. Ellis, Board Chair, National Grazing 
  Lands Coalition; Industry Relations and Stewardship Manager, Noble 
                 Research Institute, LLC, Marietta, OK
    Chair Spanberger, Ranking Member LaMalfa, Members of the Committee, 
thank you for this opportunity to submit a written statement on behalf 
of the National Grazing Lands Coalition as their Chairman and as the 
Industry Relations and Stewardship Manager for the Noble Research 
Institute.
    Established in 1991, the National Grazing Lands Coalition is as a 
grassroots, nationwide consortium of individual agriculture producers 
and organizations that support voluntary, ecologically and economically 
sound management of all grazing lands for their adaptive uses and 
multiple benefits to the environment and society through science-based 
technical assistance, research and education.
    The National Grazing Lands Coalition is led by a national steering 
committee dedicated to America's grazing lands resource and its 
sustainability. The Steering Committee is made up of individuals 
representing the National Association of Conservation Districts (NACD), 
National Cattlemen's Beef Association (NCBA), American Forage and 
Grassland Council (AFGC), American Sheep Industry (ASI), American Farm 
Bureau Federation (AFBF), Society for Range Management (SRM), the Dairy 
Industry, the Soil and Water Conservation Society (SWCS), the National 
Farmers Union (NFU), and the Noble Research Institute, LLC.
    Grazing lands are one of America's greatest natural resources. They 
provide the nation and the world with a secure food supply, renewable 
energy, improved water quality and availability, productive plants that 
sequester carbon, robust wildlife habitat, and healthy soils and serve 
as the foundation for our country's farming and ranching families. 
Grazing lands contribute $78 billion annually to the U.S. economy by 
supporting an estimated 60 million head of cattle and eight million 
head of sheep. To sustain agricultural production, grazing lands must 
be conserved and properly managed to produce robust, resilient stands 
of grasses and forage. All of this starts below our feet with ``soil 
health,'' the foundation of our operations.
    Grazing lands are those lands not cultivated by man. As America 
developed westward in the 19th century, farmers began to cultivate 
soils by clearing timber and destroying many of the natural prairies 
that existed, all in an effort to grow what are now known as commodity 
crops. The fertile, productive prairies of the Great Plains that once 
teamed with diverse grasses, forages and large herds of bison were 
tilled and farmed. These practices depleted the soils of nutrients, 
organic matter, and biological life. The natural biological processes 
of grazing by roaming herds and periodic fire that created the natural 
grazing lands, were no longer at work. Combined with a decade-long 
drought, these poor management practices contributed to the great Dust 
Bowl of the 1930s. This disaster brought about the birth of land 
conservation and the Conservation Act of 1935, which created the Soil 
Conservation Service, now the NRCS. Notwithstanding, in the 1950s the 
Green Revolution took hold, and great advancements were made in 
agricultural technology, including the development of commodity and 
forage crops that responded well to fertilizer, advanced farm machinery 
and other technological advancements that expedited crop production 
with less need for labor.
    In the years that followed, the agricultural industry operated on 
cheap feed, cheap fertilizer and cheap fuel. Our industry and our 
research during that time focused on the chemical and physical 
characteristics of soils with little to no consideration of biological 
interactions within the soil.
    In recent years, however, prices for feed, fertilizer and fuel have 
increased to a point that has become unsustainable for many operations. 
Many producers have had to make a choice: continue doing what they have 
always done or work with nature to find a new way to farm and ranch. 
Born out of equal parts necessity and frustration, producers began to 
experiment with farming and ranching techniques that limited the use of 
inorganic fertilizer, fuel and feed.
    They began to see that limiting or eliminating tillage reduced 
their fuel bill, using the ageless practice of ``cover crops'' to keep 
their fields covered provided numerous benefits to the soil (i.e., 
preventing erosion, increasing water holding capacity and increasing 
biodiversity), converting marginal soils to perennial pasture land to 
eliminate tillage and minimize erosion, and through managed rotational 
grazing the pastoral lands improved in composition and production due 
to the recovery allowed between grazing events.
    In essence, they built a foundation of principles that many 
producers follow today to manage healthy soils and restore deteriorated 
soils. These soil health management principles were set forth to 
achieve specific goals that are inherent to all soils. They are based 
on mimicking highly diverse, heterogeneous, native grazing land plant 
communities by harnessing the power of biologic interactions between 
plants, soil microbes, fungi and other of life in our soils. These 
principles build soil aggregation, which further builds soil structure.
    These principles have proven the path forward for many innovative 
producers and substantiated that the conventional farming and ranching 
practices of the last 6 decades are not the only way.
    The following soil health management principles were developed by 
producers for producers, and these apply to both croplands and grazing 
lands:

  (1)  Armor the soil: Soil health cannot be built if the soil is 
            moving. Building organic matter on the soil surface armors 
            and protects the soil from erosive processes. Keeping the 
            ground covered also serves as a mitigation mechanism for 
            soil temperature. Excessive increases in soil temperature 
            can have drastic and destructive effects on soil microbial 
            life. Once soil temperatures reach 
            140 F, soil bacteria die. The soil must be covered to 
            minimize bare ground, this is largely accomplished by 
            forage and crop residue. In grazing lands, this means 
            managing lands to retain forage cover year round either in 
            the form of growing plants and plant residues.

  (2)  Optimize disturbance: Physical soil disturbance, such as 
            tillage, alters the structure of the soil and limits 
            biological activity. If the goal is to build healthy, 
            functional soil systems, tillage should only be use in 
            specific, limited circumstances. While tillage is a 
            detrimental disturbance, not all disturbances harm the 
            soil. In fact, some are quiet beneficial and should be 
            optimized. Grazing, prescribed fire, herbicide 
            applications, among others, are all disturbances that can, 
            if properly managed, be beneficial. For this reason, we use 
            the term optimize disturbance to ensure that the timing, 
            frequency, intensity and duration of these management 
            activities are implemented in a planned manner. In grazing 
            lands, the act of grazing is a disturbance, but if properly 
            managed, the grazed plants are allowed to regrow. In 
            addition, fire is a type of disturbance that when 
            administered periodically as a tool can have positive 
            effects on plant composition and reduce unwanted woody 
            plant encroachment.

  (3)  Increase diversity: Increasing plant diversity above ground 
            allows for a more diverse community below ground. Specific 
            soil microbes require specific plant types. The more 
            diverse the microbial population in the soil, the better 
            the plant species will perform due to increased biological 
            activity. In grazing lands, this means inter-seeding forage 
            species into monocultures of introduced pastures and 
            providing appropriate periods of recovery following grazing 
            events.

  (4)  Keep living roots in the ground all year: Soil microbes tend to 
            utilize active carbon first. Active carbon is the exudates 
            from living plant roots. Therefore, to keep soil biology 
            working as long as possible, a living root in the ground is 
            ideal. A living root provides a food source for beneficial 
            microbes and provides opportunity for symbiotic 
            relationships between plant roots and mycorrhizal fungi. In 
            grazing lands, this means inter-seeding cool season forages 
            into warm season pasture and vice versa depending on the 
            predominate type of pasture.

  (5)  Properly integrate livestock: Grazing lands naturally evolved 
            under grazing pressure. Soil and plant health is improved 
            by grazing, which recycles nutrients through improved 
            manure distribution, reduces plant selectivity and 
            increases plant diversity. The most important factor in 
            grazing systems is the management of stocking rate and 
            allowing, in some manner, adequate rest periods for plants 
            to recover before being grazed again. This principle is 
            critical to both native and introduced grazing lands.
Principles over Practices
    The great challenges facing the U.S. agricultural industry as a 
whole are numerous and daunting. However, to solve those challenges, 
one must determine the root of the problem. For much of the past sixty 
years, the agriculture industry admittedly focused on treating symptoms 
with practices and inputs rather than addressing the problem with 
science-based, holistic principles. Innovative producers today 
understand that we do not solve ecological problems by implementing 
practices, rather, we implement principles. We can and are addressing 
ecological degradation by following principles that rebuild ecological 
processes and habitat from the ground up rather than focusing on 
specific singular species or management practices. It all begins with 
maintaining a solid foundation with healthy soil as the cornerstone to 
any agricultural enterprise. Properly applied grazing is the capstone 
to building soil health.
Applying the Principles Today
    In properly managed grazing lands, whether in introduced pastures 
or native range, all five of the soil health principles can actively 
build more productive, more profitable and more sustainable 
agricultural production systems. In fact, it is often easier to apply 
the soil health principles to grazing lands (rather than cultivated 
croplands) because the soil health principle of properly integrating 
livestock (the grazing animals) is already in place. Healthy grazing 
lands begin with a management philosophy that properly manages grazing 
livestock and addresses the physiological needs of the forages being 
grazed.
    Similar to the five soil health principles, there are four guiding 
principles, natural laws, of grazing management that, when understood 
and properly implemented, can help restore and rebuild the soil. These 
principles contribute to improved soil health and the function of both 
native range and introduced pastures.

  (1)  Keep down the shoot, kill the root: In essence, if plants are 
            grazed too short for too long of a duration, the plant will 
            die. Roots of plants form essential functions: anchor the 
            plant to soil, take up water and nutrients, and if healthy, 
            the roots help the plant mitigate stresses of drought, 
            temperature extremes, and grazing. The top growth of grass 
            plants is directly proportional to root growth. Roots 
            naturally die and are replaced by new roots. However, when 
            excessive amounts of top growth are removed, roots are 
            unable to regrow and replace themselves as they die. The 
            plant becomes weaker and eventually dies. When actively 
            growing leaves are left at an optimum amount, the root 
            system is maintained and supports plant growth. Grassland 
            managers have learned that managing plants and root systems 
            are the keys to a healthy and productive grassland. These 
            managers have adopted a planned grazing approach to their 
            management, which defines a proper degree of grazing use 
            for the key species. Planned grazing prescribes rest and 
            recovery following grazing events to maintain or enhance 
            grasslands.

  (2)  Nature abhors a vacuum: Nature does not like bare ground. Bare 
            ground is soil that is not protected by plants, plant 
            residues, plant litter, gravel or rocks. Bare ground is 
            subject to erosion, rain runoff instead of infiltration, 
            intense temperatures and exposure to the sun.

        When grazing lands are disturbed, overly grazed, and managed 
            poorly for extended periods, bare soil is exposed. Grazing 
            lands with extensive bare soil are more susceptible to 
            droughts and are much less productive. Managing grazing 
            lands so that the soils remain covered provides protection 
            from erosion, allows for water infiltration, and builds 
            organic matter, which in turns builds biological activity 
            and soil health. Together these elements improve soil 
            stability and productivity.

  (3)  Bare soils decrease moisture availability: When grazing lands 
            have significant amounts of bare soil or are in the early 
            stages of recovery, they have little organic matter and are 
            prone to erosion, weeds and the effects of drought 
            mentioned above. Rains that fall on bare soil is less 
            effective because less moisture soaks into the soil whether 
            it can be absorbed by organic matter. More water runs off 
            the soil making the affected area more prone to drought. 
            With the direct exposure to the sun, soil surface 
            temperatures of bare soil are elevated creating an 
            environment that reduces or eliminates biological activity 
            in the top layers of the soil. In this condition, soils are 
            less likely to support productive grasses and forages. As a 
            result, less productive, less desirable plants, such as 
            weeds, appear rapidly.

        Conversely, rain that falls on grazing lands covered with 
            productive grasses and forages readily infiltrates the soil 
            and is absorbed by soil organic matter. This provides an 
            environment more conducive to the continued recruitment and 
            maintenance of the desired grasses and forages. Healthy 
            grazing lands remain more resilient to drought over time.

  (4)  If given a chance, the best-adapted plants will dominate: In 
            general, nature will bring back the best-adapted vegetation 
            on grazing lands if the producer works with nature by 
            following a good grazing plan. These best-adapted 
            vegetation species are more productive, more resilient to 
            drought, and are more profitable than less desirable 
            species. This concept also holds true with introduced 
            pastures. A well-managed, properly grazed grazing land 
            provides nature the opportunity for the grasses and forages 
            that best fit the environment to survive and thrive.
Implementation of Principles and Natural Laws on Grazing Lands
    Grazing Plans--To provide an effective mechanism for implementing 
the soil health principles and the natural laws of grazing management, 
producers must develop and follow a grazing plan. A grazing plan allows 
producers to intentionally manage the grazing lands to achieve desired 
outcomes for a livestock operation. A good grazing plan considers two 
essential components--the nutritional needs of the livestock and the 
health of the key plants being grazed and managed, which is impacted by 
health of the supporting soil.
    Grazing plans are, in essence, conservation plans for grazing 
lands. They include decisions for manipulating the plant community to 
manage the soil, water, air, plant and animal resources. A well-
designed and well-managed grazing plan results in healthy soils and 
grasses, proper nutrition for grazing animals, and greater livestock 
production at a lower cost.
    There are also four keys to proper grazing management: stocking 
rate, livestock rotation, utilization rate and plant rest and recovery. 
All of these elements must be managed in unison to be effective.
    Stocking Rate--Stocking rate is arguably the most critical variable 
in proper grazing management. Stocking rate is the number of animals on 
a given area of land over a certain period. If intake is not limited, 
livestock consume about three percent of their body weight of grass 
and/or forage per day. For all practical purposes, stocking rate is a 
measure of the grass demanded by the livestock over a period of time.
    The amount of grass and forage produced on a given area is a 
function of many factors, including soil types, forage types (e.g., 
grasses, legumes), pasture condition, and previous management. However, 
moisture and temperatures during the growing season also drive 
production. Forage production is dynamic, and the entirety of the 
forage produced should not be grazed. As provided above, with proper 
grazing management, only a portion is grazed and the rest is used to 
maintain the health and productivity of the grazing land. The portion 
of the forage that is allocated for grazing is called the available 
production. It is important that the stocking rate match the available 
production and be used optimally. Improper stocking of grazing lands 
leads to over-grazing or under-grazing, neither of which provides 
favorable outcomes. Over-grazing for extended periods of time leads to 
the degradation of the grazing land and an overall reduction in pasture 
productivity, soil health and livestock production. Determining a 
proper stocking rate is essential for proper grazing management and 
requires balancing the animal numbers with available grass and forage 
production.
    Grazing Rotation--Once a proper stocking rate is established, 
implementing a suitable grazing rotation is the next variable in proper 
grazing management. A grazing rotation considers where to graze, when 
to graze, how long to graze, and how long to allow a grazed area to 
rest and recover. The purpose of a grazing rotation is to manage the 
impact of grazing on the grazing land while maintaining or improving 
livestock production.
    Livestock are selective grazers, and left unmanaged they tend to 
[disproportionately] graze more-productive plants over less-productive 
plants. Livestock also prefer the fresh regrowth over mature leaves. In 
a continuously grazed pasture, plants that are grazed early in the 
growing season are grazed repeatedly without adequate time to recover. 
Since these plants are not allowed to regrow leaves and supply needed 
energy to the roots through the process of photosynthesis, roots do not 
regrow adequately to support the plant. Roots of these plants become 
weakened, depleted, and eventually die. Over time, the more-productive 
plants are grazed out leaving less desirable, less productive plants, 
which can lead to deterioration of the grazing land and the health of 
the soil.
    Grazing Intensity--Grazing intensity is the amount of grass and 
forage removed before livestock are rotated to a new area. Stated 
another way, it is how short the pasture is grazed before removing the 
grazing animals. A good grazing management practice is ``take half and 
leave half.'' Conceptually, this means graze the top half of the leaves 
and leave the rest to allow for rapid recovery and regrowth. Ideally, 
every plant in the pasture would be grazed evenly at this level. Taking 
more than 50% of the leaf production stops root growth and extends the 
recovery time. Grazing 50% or less of the leaf area of plants has 
little or no effect on root growth and plant regrowth. This expedites 
recovery and increases the productivity of grazing lands. Other 
benefits of grazing less intensely include increased root production, 
rooting depth, and plant residue, which increases soil organic matter, 
water holding capacity, pasture production, and soil health. When 
properly stocked with a good grazing rotation, grazing intensity can be 
managed such that the majority of the plants in a pasture are grazed at 
50% or less during each grazing rotation throughout most of the growing 
season allowing for optimum growth and production of the grazing land.
    Rest and Recovery--The final aspect to consider in grazing 
management is the rest and recovery period. After being grazed, plants 
need an adequate recovery period. The more severe the grazing 
intensity, the longer it takes for the plants to fully recover. Soil 
moisture and seasonal temperatures also affect the rest and recovery 
period. In favorable moisture conditions, the recovery period is 
shorter than in low moisture conditions. As moisture becomes more 
limiting, longer rest and recovery periods are required. It is 
important to determine the recovery period based on the key species in 
the grazing land being managed. In a native grass pasture, the key 
species are those more productive, more palatable species that have a 
longer recovery period than the less desirable species. Introduced 
pastures usually have a shorter recovery period than the native 
prairies and have to be managed differently for optimum results. Well-
managed rest and recovery periods increase pasture production and offer 
greater potential for livestock production.
Conclusion
    Management of grazing lands is a dynamic process with a complex set 
of variables that must be taken into account. However, as the science 
of grazing management has evolved, innovative producers have mastered 
the understanding of the natural laws of grazing management. Many have 
seen dramatic improvements in the productivity and resilience of their 
grazing lands. They have also observed great improvements in soil 
health and ecosystem function because they have embraced and are 
managing for the soil health principles; many even before the soil 
health principles were specifically identified. It is the challenge of 
organizations, such as the National Grazing Lands Coalition and the 
Noble Research Institute, to continue to education land managers, 
farmers and ranchers to ensure proper management of grazing lands 
becomes the norm for producers focused on the long-term economic 
viability and ecological sustainability.

    The Chair. Thank you very much.
    Members will now be recognized for questions in the order 
of seniority for Members who were here at the start of the 
hearing. After that, Members will be recognized in order of 
their arrival.
    I first recognize myself for 5 minutes.
    Mr. Anderson, I truly appreciate your very personal story 
that you told related to your family farm and what motivates 
you day to day. I have hosted roundtables in my district and 
heard from growers and conservationists about how important 
voluntary soil health management practices are to them, and it 
is important for us here in Congress to hear voices like yours 
as we develop and oversee the Federal policies that are 
intended to support and scale the adoption of soil health 
management.
    Across the country, non-operating landowners control 41 
percent of U.S. farmland, and you said that you rent 
approximately 60 percent of the acreage that you farm. I am 
curious if you can talk a little bit about your experiences as 
an operator; specifically, what factors motivated you to use 
cover crops on your farm and how we can help encourage non-
operating landowners to support soil health practices and how 
can we help on land that you rent and not just land that you 
own?
    Thank you.
    Mr. Anderson. Thank you. That is a very good question and I 
will do my best to respond in detail as best I can.
    As an operator, as a renter, implementing soil health 
practices it is imperative that I and that others in my similar 
situation focus on practices that can provide an immediate 
return, and grazing management is one of those that can provide 
an opportunity to increase profit on rented land short-term and 
long-term.
    Cover crops in situations that they can be grazed are 
another scenario that can provide a first-year return on 
investment, provided there is an opportunity, given the 
weather, to graze those cover crops.
    Another point of use for cover crops that can provide a 
positive return in a first year, and this is from recent SARE 
data, Sustainable Agriculture Research and Education data, is 
areas that have herbicide-resistant weed populations where that 
cover crop can provide weed suppression resulting in a 
decreased herbicide use.
    Those are three of the top areas as operator on rented land 
to focus efforts.
    A couple other thoughts on the remainder of your question, 
because it is a very good and detailed question that I don't 
think any of us all have the answer to, which is why we are 
here. There are opportunities, especially for rural 
entrepreneurs, to become more involved in particularly the 
cover crop industry and in grazing management that provide a 
way for beginning farmers and changed-career farmers to come 
back and implement those practices, provide their management 
skills using the knowledge and data that are available to 
implement change on the landscape. A focus on rural 
entrepreneurs that are beginning businesses or growing 
businesses in the area of soil health would be tremendously 
beneficial.
    The Chair. Thank you very much.
    And in my remaining time I have a question for Dr. Mehta.
    I appreciate that you spoke about the financial and 
technical barriers to soil health management. I would like to 
insert for the record a USDA SARE report focusing on the 
economics of cover crop adoption. And my question for you is 
are there any existing programs or pilots that are especially 
encouraging when it comes to more at-scale adoption of these 
practices?
    [The report referred to is located on p. 51.]
    Dr. Mehta. Absolutely. That is a great question and it is 
one that we face daily with our farmers and farmers throughout 
the U.S.
    We are seeing a range of programs that are tackling the 
financial side and the technical side. They are rather 
different, so I am just going to tackle the financial piece 
first.
    As we have just heard from everyone to the left of me, they 
take quite a bit of risk on themselves and there is quite a 
leap of faith in recognizing that these practices will work, 
and while we are seeing the long-term risk reduction in 
resiliency, there are near-term cost issues that can come up.
    In our data we have seen, we like for some of the farmers' 
risks to be reduced within 3 years. The reality is it can take 
6, 7 years. We have had farmers even after a decade get hit, 
especially whey they have tenure situations.
    Anything that can be done around cost-sharing. The NRCS 
Program around cost-sharing has been helpful. We have heard of 
several of the programs farmers are being able to take 
advantage of and really utilize.
    We are also starting to lean heavily on the private side as 
well because looking to lenders and agricultural, especially on 
the banking side, to help incorporate the use of cover crops 
and all of these reduced tillage practices are extremely 
important. That is not to say that the government programs are 
not sufficient, but we think government programs can't go it 
alone. We have been advocating along with The Nature 
Conservancy and Environmental Defense Fund to take into account 
the fact that again, many of the farmers you have heard from 
should have benefits in their lending practices and other 
mechanisms.
    And at the state level we have seen many effective 
programs. They actually are some of the ones that are maybe 
best because they are localized and can target the needs that 
are specifically of the needs of the farmers and specific 
weather issues that they may be facing at any given time.
    The Chair. Thank you very much for your response. It made 
me think of Mr. Cunningham's story of not needing his crop 
insurance because of his use of cover crops.
    I would like to now recognize Ms. Pingree from Maine.
    Ms. Pingree. Thank you, Madam Chair, and thank you to you 
and the Ranking Member for holding this hearing and to all of 
you for making the journey to Washington and presenting such 
eloquent testimony. It has really been great to hear all of 
you.
    One thing I just wanted to quickly say in the sense for the 
Committee reference, some of you have referenced the important 
role that the USDA plays in helping farmers, and Mr. 
Cunningham, you noted that the NRCS is critically important but 
centers are woefully understaffed, and I just want to amplify 
this for the Committee. In a hearing earlier this month in 
another Subcommittee we heard about understaffing at ARS, and I 
just have been hearing a troubling understaffing of departments 
at USDA, also the climate hubs which are critically important 
in some of the issues that we are working on.
    I just want to put that out there for the Committee. We 
have to continue to probe with USDA if positions are being 
filled. There is no hiring freeze but there seem to be less 
people to do these important jobs, and so many of you have 
talked about the importance of having that support.
    A couple things I want to touch on in my short time. In 
order for some of these pilots and future programs on allowing 
farmers to benefit economically from using good soil practices, 
and we have all talked about a lot of things that it does for 
your yield and resilience, but also in being in carbon markets 
in the future and some of the potential that that has.
    One of the issues is how we are going to measure the 
outcomes. Mr. Anderson, in your great testimony you talked 
about that you managed a 1.6 percent increase in organic matter 
over a 7 year period. What tools were you using to do that, and 
could all of you just spend a second after that talking about 
how you see measurement and what seems to be effective or what 
you think should be done?
    I will start with Mr. Anderson.
    Mr. Anderson. The tools we use to measure, to begin with 
our baseline data is rigorous soil testing data that we use on 
a zone sampling system across our fields. We are doing that on 
a regular basis which allows us to monitor organic matter as 
well as other nutrients.
    The in-field practices that we were using in those fields 
primarily consisted of no-till, cover crops, and then growing 
highly-productive crops. For example, corn, that contributes in 
its very large root mass contributes a lot of organic matter 
and carbon sugars into the soil to build organic matter. Those 
are the primary three ways, cover crops, productive crops, no-
tillage.
    Ms. Pingree. And I guess just to follow up and also ask 
anyone else who wants to answer this, one of the ideas in 
allowing farmers to benefit in a carbon market about the 
organic matter that they are retaining or increasing is how we 
have a universal tool that we can agree on to measure that.
    Do you want to add anything else or does anyone else want 
to throw something in on that?
    Dr. Mehta. SHP is very involved with several carbon market 
and ecosystem services market developments, and exactly to your 
point, it is a way for us to monetize the work that our farmers 
are already doing.
    We actually also developed our own carbon and setting 
framework. Just to highlight what Mr. Anderson just shared is 
creating these markets that take into account the fact that you 
have very different changes. What we are seeing in our 220 
farms, even if you apply the same practices, the outcomes on 
organic matter are quite different, but it goes a little 
further than that.
    When we start to look at depth, what is actually happening 
in terms of carbon sequestration that directly goes to 
greenhouse gas emissions, that is varying by soil type, by farm 
operation, and by state. We continue to support the development 
of these, but we really advocate for using broader, more 
diverse input so you truly capture what all of our farmers are 
doing rather than having kind of over-sampled or selected of 
certain groups that are there.
    We continue to encourage it and hope that we start to see 
more and more partnerships between our government and our 
private companies as these develop.
    Ms. Pingree. Yes. And do you see it as kind of a balance of 
measuring the inputs and practices along with the outputs?
    Dr. Mehta. Absolutely. And as much as we are pushing, and 
all of us here are pushing the edge quite frankly of what we 
know in soil science, even the last 9 months that I have been 
with SHP, what we thought we knew has actually changed and we 
have had to update our protocols already three or four times. 
What we continue to advocate for is more research.
    I agree that the land-grants and extension have been under-
funded, understaffed. These are long-term research goals and a 
lot of our partners have been cut, so the more we can do around 
what you just highlighted, the better we are going to actually 
be able to pinpoint the carbon savings and get that to our 
farmers.
    Ms. Pingree. Thanks. That is really helpful.
    Anyone else want to add in?
    Mr. Cunningham. Well, I would just like to say in 2004 I 
traveled to a conference in Des Moines and the idea was a 
private-sector carbon market, and I was very excited about it. 
But as it was explained, by the time all the middlemen and 
bankers and insurance companies got done with taking their cut, 
there was no money left for the farmer that was actually 
sequestering the carbon.
    I adopted a theory that perhaps it is better to pay people 
to do things that have multiple benefits, carbon sequestration 
being one of them, rather than trying to insure and re-insure 
and quantify and measure and have the person actually doing the 
good thing see none of the financial benefit.
    Ms. Pingree. Great. Well, I am out of time, but you have 
outlined something that frequently happens to farmers, that 
they get the short end of the stick or not the money that they 
deserve.
    But thank you all and your testimony has been great.
    The Chair. The chair now recognizes Congresswoman Axne from 
Iowa, for 5 minutes.
    Mrs. Axne. Thank you, Madam Chair, and Ranking Member, and 
thank you to everybody on the panel for being here today, 
especially Mr. Anderson. Thank you.
    And as Mr. Anderson so eloquently stated, Iowans are very 
connected to our soil, as many of you can imagine. Our 
agriculture communities unfortunately right now are struggling 
due to flooding as well as low-commodity prices from tariffs 
and uncertainty, and many of our constituents' livelihoods are 
really at stake from our agriculture industry, and we know that 
they are heavily intertwined with the soil health.
    The crisis is clear. Iowa's black gold, if you have heard 
that term, is at risk, and we are losing our topsoil at an 
alarming rate of 5.5 tons per acre per year. According to the 
USDA Natural Resources Conservation Service, Iowa lost an 
average of 6.8" of topsoil since 1850. If we don't find a way 
to conserve and preserve our soil, farmers are going to pay the 
price first, and when Iowa farmers pay the price, the country 
pays the price and the world pays the price as well.
    An estimated yield reduction is 10 bushels of corn per acre 
with the loss of this much topsoil, and in 2018 our Iowa 
farmers' average yield was 196 bushels per acre. There is no 
room for our farmers to lose 10 bushels more per acre.
    And as a former employee at the Iowa Department of Natural 
Resources, I am personally familiar with the 2013 Iowa Nutrient 
Reduction Strategy. This strategy calls for 10 million acres of 
cover crops within 20 to 30 years to preserve the Mississippi 
River and improve water quality. But in the last report, Iowa 
had only 760,000 acres of cover crops or 7.6 percent of the way 
there in 2018.
    I am grateful that you are all here today, and very 
grateful for Mr. Anderson's testimony today, and I want to 
recognize Nathan and his lovely wife, Sarah, and their son, and 
for being a Board Member of the Practical Farmers of Iowa. We 
are very appreciative of your voice, and as you have heard, he 
has been implementing conservation practices and educating 
people across our state as well.
    Getting to my question here, one of the best indicators of 
healthy soil is organic matter, and Ms. Pingree just touched on 
that. But Mr. Anderson, you said in your testimony that you 
managed a 1.6 percent increase in organic matter in your soil 
over a 7 year period, and that is pretty remarkable.
    I would like to take this a little bit further in a couple 
of questions. What financial benefits have you seen on your 
farm from implementing these conservation practices?
    Mr. Anderson. Thank you for your kind comments as well. I 
appreciate those as a fellow Iowan.
    The economic rewards from those practices first and 
foremost are increased yield. We have been able to see a 
stability in yield throughout years of drought and heavier 
rainfall. Due to our soil conditions, soil landscape positions, 
as was commented earlier there is a wide variety in changes 
that occur, but as a collective farm throughout the operation, 
we are able to see those benefits across the operation.
    Primarily in our grazing system, extending the grazing 
season so our costs for our livestock operation are decreased 
by having more feed available for them has also been a 
significant economic benefit for us.
    Mrs. Axne. Thank you so much.
    And part of your work for Practical Farmers has been 
educating and helping other farmers. What are some of the 
barriers that you have seen from your neighbors from starting 
or maintaining some of these conservation practices?
    Mr. Anderson. One challenging barrier that exists in Iowa 
and throughout rural America is just an access to labor. A 
number of these practices require labor and management, and for 
a large number of rural crop farms that is very difficult to 
find and difficult to hold on to throughout the season.
    As I mentioned earlier, it is a great opportunity for 
beginning farmers and rural entrepreneurs to fill in that area, 
but that has definitely been a challenge.
    And one of the other ways that we are making progress in is 
farmer-to-farmer learning. One of the top ways that farmers 
implement changes is by learning from other farmers, and one of 
the other top ways is by doing it themselves on their own farm. 
The more that we can accomplish those two things, the more 
success we will have.
    Mrs. Axne. I appreciate that.
    I ask the whole panel, overall why do you think more 
farmers aren't cover cropping, especially if the return on the 
investment is high financially and ecologically? And I would 
offer that to anybody.
    Mr. Cunningham. Mrs. Axne, I believe that farmers are very 
proud in what they do and they really believe that what they 
are doing is the very best way to do it or otherwise they 
wouldn't be doing it that way. Quite often we see field days 
where we have hundreds of people attend, and one generation 
gets pretty excited about doing some soil health things and 
the--and perhaps the generation that has been used to doing it 
another way and is doing it at the very best way in their own 
mind has a hard time changing.
    I spoke at a field day with another producer from a nearby 
county and it was a father and son and the son had come back 
from college and was excited about soil health and had actually 
worked as a student intern with one of the top researchers in 
the country, and they had a hundred acres and the grandfather 
had a hundred acres. The grandfather said, ``I want you to farm 
my land the way I have always farmed it, but you can do 
whatever you want on your own land.'' And after 1 year the 
grandfather came to them and said, ``I want you to farm my land 
like you are farming your land.'' Now if they had forced it on 
the grandfather he probably would have said no way, but by 
seeing the success that his son and grandson had had, he 
decided that he would like his land farmed that way too.
    Dr. Mehta. Very quickly. What we are seeing as we ask our 
farmers, and we have a lot of field days and the question 
persists, in this climate what would it take for you to adopt 
cover crops, no-till, and broader, and what they are coming 
back with is, remember, we have 40 shots in our lifetime to get 
it right. Every time we change our system we have to ride the 
risk, and given what is happening in the climate we are trying 
to balance all of the additional risks that we know and don't 
know with new practices.
    It is not that they are not looking at the cover crops. 
They are looking holistically and saying, ``What happens if, I 
was just in Nebraska, we have another flood like this? What 
happens if I can't actually make my combine payment for this 
year?'' And so they are essentially saying, ``If I holistically 
look at my business case, if I inject something like a cover 
crop or switch to a no-till will my system be able to handle 
that additional risk?'' Again, the more we can do to de-risk 
it, the easier it is for them to adopt.
    The Chair. Thank you. The chair now recognizes Ranking 
Member LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you again, Madam Chair. I apologize for 
having to step out in the hallway for a meeting that was 
brought to me here, so I do appreciate all the panel here again 
for your time and long-distance travel to be here.
    Mr. Anderson, I enjoyed your comments and the deep thought 
a while ago about 10 years after what kind of mark had we made, 
and that is something I think about around here too as far as 
what is it that we have gotten done. And then somewhere a few 
seconds after I said something about manure applications and 
hopefully nothing new to that around here, but thank you.
    Ms. Douglass, again, great to have you here. You had 
mentioned in the goal we have towards better soil practices and 
such that the implementation of a California HSP, which is it 
looks like just a few years old here, you said the claim is 329 
projects so far have been funded and put into place and some of 
the things you are looking at are more flexibility within that 
program and then that they don't conflict with other desired 
needs such as FSMA.
    Could you elaborate a little bit more on--and my thought 
was do those 329 projects seem like they are reaching the goal 
for as large as California is and for as long as the program 
has been around? And then a little bit more on some of those 
barriers, for example, with your own operation of why you have 
gone on yourself and done some of the work but you didn't avail 
yourself of some of the grants that were available to maybe 
take it to a higher space? Please elaborate on that.
    Ms. Douglass. Yes. The first part of that being the Healthy 
Soils Program in California, and we are a big state so there is 
definitely more work to be done, and I know there were some 
challenges with that program as far as the outreach that CDFA 
was needing to do to try to get people to apply. And as a 
grower you had to go to an informational session and learn how 
to work the software and go online and how to figure that out. 
And then it was just a very cumbersome time-consuming process--
--
    Mr. LaMalfa. That takes everybody over 60 out, right?
    Ms. Douglass. It was very complicated. The workshop alone 
was 3 hours or maybe 4, and we just opted not to do it and 
instead start doing the investments ourselves on a smaller 
scale, where we might have done it on a larger scale if it was 
a more simplified process.
    They just did the third round, which is the one they just 
announced, so it is a pretty fresh program, and I know this 
time they simplified it for growers. We don't really have any 
extra time happening at my household these days, so we did not 
attempt to apply the second----
    Mr. LaMalfa. Coming into the third round they have done 
things to simplify it?
    Ms. Douglass. Yes. My understanding is that this last round 
they have. I have not seen those, like I said, for ourselves, 
but I can tell you the first round, that was why they had not 
nearly as much participation as they would have liked in that 
first one, because we need it to be simple and efficient.
    Mr. LaMalfa. And so the Federal nexus with us here today, 
how does that aid in what you are talking about with that 
program?
    Ms. Douglass. They are two very different programs. I can 
tell you that in our local county the NRCS programs are working 
very well. We are very fortunate to have had a regional 
agronomist with NRCS that was invaluable. And as you talked 
about staffing earlier, I know our local NRCS Office would 
state that that was such a critical component, because having a 
regional agronomist they were able to work with a technical 
advisory committee and make sure that they were working with 
the farmers, with the local seed suppliers, to find simple 
options that would work and make sure that the NRCS 
recommendation for seeds to be planted as cover crops were 
available for purchase locally and easily. And I know that has 
helped us and I believe that is a big part of why we have led 
the state. Our county anyhow has led the state in terms of the 
acres.
    Mr. LaMalfa. Those two were well and parallel, not like 
some of the concerns you were having in your third concern a 
while ago with conflict like on FSMA? The NRCS is working? They 
are parallel goals?
    Ms. Douglass. Yes and no. The FSMA concern is still a new 
one. It is going to be very important, because in California 
how we are using the cover crops is a bit differently. We are 
generally not grazing those cover crops, and the reason we 
can't graze those cover crops is many parts. We just farm a 
little differently, of course.
    But one of the issues in FSMA is making sure that you do 
not have any animal manure, for example, in your fields, and 
that is really challenging to do. And if you are planting a 
cover crop and you are bringing in the bees and the butterflies 
and the ladybugs, that is all wonderful. You are also bringing 
in the deer and deer are a known E coli. carrier. And there is 
some concern that we are doing this great practice, we are 
happy to do it, but if we are attracting deer and therefore 
attracting the manure that comes with them, that could be a 
real problem at the intersection of food safety and soil health 
practices. We would really like those to be able to work 
together because it is such an important issue, but that is a 
concern for many of our growers, in particular for the 
orchards.
    Mr. LaMalfa. Yes. Thank you.
    We need to lock some of these people in the same room and 
get this worked out because that manure application used to be 
looked at as a pretty good thing even on our own rice fields in 
the past, so yes. That has to be sorted out.
    Thank you, Madam Chair. I yield back.
    The Chair. The chair now recognizes Mr. O'Halleran from 
Arizona.
    Mr. O'Halleran. Thank you, Madam Chair, and Ranking Member 
for scheduling this bipartisan hearing on soil health and its 
conservation and economic benefits. I want to thank the panel 
for being here also today.
    This issue is very important to farmers and ranchers across 
my district. Practices for maintaining good soil health can 
help tackle drought and production. According to the USDA's 
recent report entitled, Cover Crop Economics: Opportunities to 
Improve Your Bottom Line in Row Crops, the use of cover crops 
can improve soil moisture and holding capacity. The same report 
demonstrated that cover crop usage can help increase yields for 
farmers. One year after using cover crops, farmers experienced 
an average increase of \1/2\ percent for corn and 2.1 percent 
for soybeans.
    These practices can also produce cost-effective results and 
help conserve the environment.
    Mr. Cunningham, from your perspective what kind of 
financial and technical support is most necessary and effective 
to support farmers taking on cover crops?
    Mr. Cunningham. Well, I believe the first step is always 
having someone who is an expert to have a conversation with, 
and when you go to the local service center and the NRCS person 
is either not in or covering several counties, that is a 
barrier.
    We are fortunate in Minnesota to have robust soil and water 
conservation districts. Quite often we know the NRCS programs 
and are able to have that conversation, but to actually get it 
done, we need people on the ground.
    From 2010 to 2017, NRCS staffing in Minnesota fell from 419 
to 243, and I believe that it has accelerated since then and we 
do have some new positions being hired, but they are new unless 
they were able to headhunt soil and water conservation district 
people that have experience in the conservation field. I 
believe the pendulum is starting to swing in the right way 
about having that technical assistance.
    Then there is also the EQIP Program. There is the CSP 
Program and there are opportunities perhaps with growing some 
cover crops that are beneficial to pollinators. I am not sure 
exactly where those programs would fit in, but we do have 
tools. Quite often our--we just had a EQIP signup for cover 
crops on preventative planning in Minnesota, and within a very 
short period of time they had twice the applications that they 
had the money for.
    There is a great need out there. There is a great interest, 
but as Dr. Mehta said that we need to insulate that transition 
time with some financial incentives.
    Mr. O'Halleran. Thank you.
    Mr. Ellis, you spoke about the importance of developing a 
grazing plan so that producers can successfully manage multiple 
elements in unison.
    What are the essential components of a grazing plan? Is 
there a role for USDA in supporting the development of these 
plans?
    Mr. Ellis. Yes, sir. The key component and the number one 
component of a grazing plan is really the stocking rate. That 
is the number one and it is the hardest for producers to come 
up with. That technical assistance, that boots-on-the-ground, 
is critical. I would say that not only do we need more 
employees but we need processes for those employees who are out 
in the field helping us and help empower those producers.
    The grazing plan also kind of helps. We need to know where 
we are today and kind of set that baseline and that monitoring 
and help those producers be able to kind of see where they are 
and track, as well as track the weather and all these other 
components to their operation to move forward to be successful 
in their grazing management.
    Mr. O'Halleran. Thank you very much.
    I guess what I have heard today so far is that we don't 
have enough technical people, we don't have enough funding from 
my perspective to have those technical people, the educational 
part of it is complicated and in need of a review, and Madam 
Chair, with that I yield back.
    The Chair. Thank you very much.
    The chair now recognizes Mr. Allen from Georgia.
    Mr. Allen. Thank you, Chairwoman, and thank you panel for 
being with us today.
    Georgia is the home to one of the top public universities, 
the University of Georgia. Also being a land-grant university, 
the College of Agriculture and Environmental Sciences is a 
leader in research and extension. The Department of Crop and 
Soil Sciences currently has a number of soil health programs 
that address soil conservation, economically- and ecologically-
sound agricultural production, as well as maintenance and long-
term enhancement of soil health. Many of these programs are 
supported through state, industry, and USDA funding.
    We have talked about expertise and where do we get this 
expertise. And my question really to anyone on the panel and 
all of you who want to comment on this is, could you talk about 
the important role of land-grant universities and the role they 
play in research and technology and innovation, especially as 
it relates to soil health? And can you provide an example of 
when your organization has worked with a university or utilized 
their services to better serve your local farmers, ranchers, 
and communities?
    And I will just open that up. We will just start here and 
go down the line.
    Dr. Mehta. Oh, we are lucky we are in over 15 states and we 
work with the land-grant in every single state we are in, but 
we get to do something extra. We work with a lot of the land-
grants that are in your state, partly because of the reason you 
said.
    Everyone has a strength and we bring in as much as we can. 
We have seen some of the passion that has come from our 
researchers. It has been extensive.
    We talked about the funding cuts that are affecting NRCS in 
technical. We are experiencing them on the university side, so 
since they are going to be going through that at the state 
level, some of the programs that have maybe been there for a 
longer time are being affected. There is a lot of variability, 
so what we are trying to do is manage across them.
    What I would say is first of all you have a young, excited, 
passionate generation. I have seen ag schools across the 
country, starting to see a lift. It is wonderful for me as a 
much older alumni.
    Land extension is extremely powerful, but again, does need 
support in funding, a lot of times directed support from state 
level.
    And then the other piece is some of the targeting around 
research. We have effective research coming through on cover 
crops, perennials for example. Almost all of your states have 
something on the cover crop side. The challenge we have is how 
do you translate that so it is usable, and that is where we are 
kind of missing a gap on the research end.
    If we can really help support the land-grants and get that 
through, but they are one of our most effective partners.
    And we continue to have that.
    Mr. Allen. Mr. Anderson, and allow time for the others. I 
have 2 minutes and 18 seconds.
    Mr. Anderson. Okay. Quickly, the role of the land-grant in 
soil health we are fortunate in the State of Iowa to have Iowa 
State University, and the role that they play in agriculture 
across the state is tremendous. We are fortunate with the 
Wallace Chair, Matt Liebman, who conducts soils based and 
cropping systems research in diverse cropping systems, which is 
really critical to apply across a wide range of geographies.
    It is difficult because we are working with very complex 
biological systems and across wide geographies. It is difficult 
to get good data that is repeatable. It is important that we 
have that data and then the real world application of that 
information.
    Mr. Cunningham. Well, I had an experience with a cow-calf 
production day and the person expert from the university was 
speaking about cover crops, and he said, ``Well, make sure that 
you grow something that there won't be refusal and waste.'' And 
I thought, ``Well, but you don't want bare soil, bare soil is a 
bad thing.'' And he said, ``But it will plug up your field 
cultivator.'' I said, ``You don't need to use your field 
cultivator.'' There is a little bit of gap between the book 
learning that perhaps a university setting may have and 
experiment station research and what is going on in the real 
world.
    Mr. Allen. Maybe you need to teach college.
    Mr. Cunningham. I have been asked to speak at the 
University of Minnesota and North Dakota State.
    Mr. Allen. I understand that, yes.
    Mr. Cunningham. Yes.
    Mr. Allen. Yes, ma'am.
    Ms. Douglass. I will give you a little bit of a different 
angle on the colleges, and I think that they are providing some 
great work and doing great things, but in California for 
example, well, nationwide actually we have two jobs for every 
graduate in agriculture coming out of an agricultural college 
nationwide.
    In California if you look at crop science, soil science, 
agronomy-related issues, we have 4.6 job opportunities for 
every one of those grads coming out of school in California.
    Mr. Allen. Wow. That is great.
    Ms. Douglass. We need more of them and that is probably one 
of the challenges that our NRCS Offices in particular have had 
is finding people who are experts in soil health that have this 
agricultural background, and I think that is an important area 
to note.
    Mr. Allen. Okay. Mr. Ellis, we have 16 seconds.
    Mr. Ellis. Yes, sir. Yes, we cherish our relationships with 
Oklahoma State University and Extension. They are extremely 
important.
    I will add one point that wasn't stated that is very 
important, is the 4-H Program.
    It is really about going into that youth and starting from 
that ground level from our future farmers and ranchers.
    Mr. Allen. Right. Thank you so much and I yield back.
    The Chair. Thank you so much, Mr. Allen.
    We would love to pursue a couple more questions. I know 
some of our participants and witnesses today do have a hard 
stop, so I am going to be mindful of time, but I invite anyone 
who would like to ask a second question to do so.
    Mr. Allen. Yes, I had one other one that I just wanted an 
answer to this question right here that was brought to my 
attention. Cattle graze on nearly \1/3\ of our continental 
United States land mass providing an economic driver to 
maintain those important grasslands across the country. 
However, some people think that the grasslands should be 
maintained without cattle, failing to understand the 
environmental value of grazing. What are the benefits of having 
cattle graze our rangeland as opposed to leaving it ungrazed? 
Could you answer that question?
    Mr. Ellis. Yes, sir.
    So, when we think about our plains, they evolved around two 
key components. One is grazing and the other is fire. We had 
the buffalo grazing and as well as these fires, and so our 
grasses in our native rangelands really function around that, 
and so that is one of the things that hurts us is that when we 
don't graze, we are hurting and setting back these plants and 
the environment that grew around it in this ecological process.
    You can kind of think about it from an aspect in that 
leaves are basically solar panels.
    They are taking that energy from that sunlight, bringing 
that energy back into the root system.
    When we are not grazing, we are starting to get descent 
plants and not green, growing, healthy plants and so that hurts 
us in the long-term. Proper grazing is essential as well as our 
prescribed fires in the plains.
    Mr. Allen. Why are we having the debate on grazed versus 
ungrazed?
    Mr. Ellis. I think, sir, is that some of us have a 
conservation-minded, which is having that conservation in mind, 
is really grazing and the proper management and land 
stewardship and this land stewardship ethic, and then there is 
another side of us that look at preservation.
    Mr. Allen. Yes.
    Mr. Ellis. That we are better off to set it aside and let 
it work naturally, but when we think about the aspect again is 
grazing and fire, that is how the landscapes were formed, in 
that aspect and that process. By removing it we are not really 
doing good by that preservation mindset. It is all about 
conservation.
    Mr. Allen. Anyone else like to comment on that?
    Mr. Cunningham. Well, my neighbors sometimes wonder why we 
are not using that pasture. We have a 20 paddock system so our 
cattle are in an individual paddock, much less in it than out 
of it, and the same thing goes with a lot of range systems that 
may be grazed 2 or 3 days out of the year and then have 400 
days of rest. They look at these beautiful diverse wildflowers 
and all this stuff and go, well, there is no cattle there. 
Well, the cattle were there and that is why it looks as nice as 
it is. It is a disconnect of people not knowing about natural 
systems, but large herbivores are a very necessary and 
beneficial component of perennial systems that include plants.
    Mr. Allen. Is it a seasonal thing?
    Mr. Cunningham. Well, it is a management thing.
    Mr. Allen. Right.
    Mr. Cunningham. We want to graze intensively and provide a 
long rest.
    Mr. Allen. Any other comments? Okay.
    Thank you. I yield back.
    The Chair. Thank you. For the next 5 minutes I recognize 
myself and then I will proceed back into the order we were 
using before so Members are prepared.
    Mr. Allen. I'm sorry.
    The Chair. That is okay.
    Soil health and water quality are inextricably linked. My 
constituents and I have seen firsthand with this with the 
Chesapeake Bay, and because of this we have seen partnerships 
that include farmers, agribusiness, environmentalists, 
sportsmen, homeowners, and others, folks who come together 
around a shared goal of the Chesapeake Bay's health. I thought 
of that motto when I read about the Soil Health Partnership.
    Dr. Mehta, can you talk with us about any lessons learned 
about these outcomes focused on collaboration as the Soil 
Health Partnership has grown? Any words of wisdom that you may 
have for others?
    Dr. Mehta. Thank you. That is a great question and the 
Chesapeake Bay has absolutely been a role model for many of us.
    Collaborations are extremely powerful, especially in 
agriculture and environmental issues. A couple of items: First, 
it takes investment and time to truly mobilize a group. It is 
not easy but it is worth it, especially when you have a group 
with different objectives and cultures.
    There are five areas that really help drive a successful 
collaboration and the Chesapeake Bay was an example we see with 
HSP and others.
    One, defining your shared objective up front, establishing 
boundaries and working norms, identifying intermediate or 
tangible goals, getting some early wins. A lot of us were in 
it. These are long-term outcomes, so being able to really 
produce some quick ones, and again the folks on the panel have 
identified some. Continuing to make sure that the overall end 
goal is not lost so that a collaboration has an actual high-
impact flowrate of success.
    And the last kind of word of advice is don't shy away from 
unlikely partners. The fact that the Environmental Defense 
Fund, The Nature Conservancy, Monsanto and the Corn Growers 
came together to do SHP says, and it is one of the most 
impactful cross-sector programs I have seen, is sometimes 
having the most differing diverse opinions and perspectives 
actually produces some of the most impeccable collaborations.
    The Chair. Thank you very much.
    The chair now recognizes Mr. LaMalfa for an additional 5 
minutes.
    Mr. LaMalfa. Well, thank you again.
    I just wanted to follow up, Shannon, on our previous 
thoughts. I don't know if I left you the time on there about 
those 329 projects in California. Do you feel like that is 
keeping par with the potential for the amount of time it has 
been in place? Is it where it should be or is it behind because 
you felt the difficulty with accessing it?
    Ms. Douglass. I don't know how the CDFA staff feels about 
where they are and what their goals exactly were. I know that 
early on at least they were behind based on they had opened an 
additional round of funding within a year. They would still 
like to see more projects and part of that is it is, number 
one, a new program. It is a unique application process.
    Like I said, it was a bit cumbersome. I know they worked on 
streamlining that, so there is more to go. There are still some 
barriers and of course we are using cover crops but differently 
in California, like I mentioned before. For example, our 
neighbors with orchards when they are putting cover crops in 
those orchards it is going to be a little different to plant 
those than it would be for our friends in the Midwest. And so 
they don't always necessarily have that equipment still, 
because once you have gone to trees you don't necessarily have 
much need for some of those planters.
    And so there are some of those barriers and I think that 
the Healthy Soils Program is helping with some of that, and 
hopefully we see increased adoption as a result of those 
efforts.
    Mr. LaMalfa. Okay. Would you want to touch on real quickly 
your work in CalAgJobs to branch out?
    Ms. Douglass. Yes. I do work off-farm where I help recruit 
people into agricultural roles. I am co-owner of a business 
that promotes agricultural career opportunities and then does 
some actual headhunting, so to speak, of those roles. When we 
talk about the shortage of candidates for some of these roles, 
I know very firsthand how critical that is, particularly in 
California.
    Mr. LaMalfa. Yes. We need more people that know how to 
access all that technical stuff to sign up for the program, 
right?
    Ms. Douglass. We do. We need them to know all that and all 
the agronomics with it.
    Mr. LaMalfa. All right. Thank you.
    Chad Ellis, returning to the cattle grazing and the 
benefits versus some folks' concern about it being not 
beneficial on rangelands, on grasslands.
    Now, where I come from in northern California, you probably 
worry about prairie fires, and we worry a lot about forest 
fires and such, and then there are a lot of areas where the 
foothills meet the forest, so you have that integration of 
grasslands and sparse forests and then getting into dense 
forests.
    Talk to me a little bit, please, the panel, please, about 
more of the benefits of cattle grazing. Now, again, we have in 
the flatland areas we will have wetlands, we will have certain 
types of meadowfoam is one of the, is a species out in 
California there is a lot of concern about. There is the debate 
between cattle grazing, is it actually making it better for 
some of these native grasses and native species to grow well 
versus not. And so talk about that, please, in fire suppression 
and in terms of the native species that we are actually trying 
to preserve.
    Mr. Ellis. One thing is that when we are thinking about 
grazing we need to be intentional on how we graze, and that is 
the key component of the Grazing Management Plan of actually 
planning and utilizing the livestock as a tool. Depending on 
your goals and objectives, depending on a particular invasive 
species or from plant or animal, we can basically prescribe 
that grazing to meet the goals and the habitat for those 
animals.
    I think that is a key component is that it is being 
intentional, it is being used as a management tool to move 
forward to help the overall plan.
    And, fire ends up being, depending on the area and where 
you are at, becomes a very useful tool integrated within that 
grazing in that it helps, one, mitigate some of the wildfire 
issues, it helps re-strengthen and have that new growth of 
plants and forages for that grazing opportunity.
    Mr. LaMalfa. Well, if all we suffer is wildfire out there, 
there are ranchers that graze right up to a fence line. You can 
see where fires occurred.
    Mr. Ellis. Yes.
    Mr. LaMalfa. Fire stops at the fence line, and so we have 
folks that are in different areas of government that are 
thinking about doing some pilot programs to see how grazing 
could help suppress fires, like, well, welcome aboard.
    But let us just keep going I guess, so anything more on 
cattle being a tillage tool, like when we are talking the 
meadowfoam again? The cattle out working the soil, my 
understanding is actually helpful to make meadowfoam and some 
of these other species grow back.
    Mr. Ellis. In that grazing management we can increase the 
stock density to kind of help utilize that hoof action to draw 
some of that tillage and some of those things, and again it is 
to meet those goals and objective. But cattle are a great tool. 
Aldo Leopold, Father of Conservation said that cattle, fire, 
the axe were those key components and tools for conservation 
that he set forth.
    Mr. LaMalfa. It is having a prescription really, not 
overdoing it, not underdoing it?
    Mr. Ellis. Correct. Yes, sir.
    Mr. LaMalfa. Thank you, Madam Chair.
    The Chair. Thank you.
    The Chair now recognizes Congresswoman Pingree from Maine.
    Ms. Pingree. Thank you.
    I know we are getting to the end here, so I will try to 
speed up my time, but I do want to say I love that term hoof 
action. I don't think I have heard that before, but kind of 
picture cows dancing in the fields, till it up a little bit.
    You have all done such a good job of talking about how this 
has benefitted you and other farmers, but it is consistent that 
you talk a little bit about the need to de-risk, whether it is 
more funding, technical assistance. We have talked about some 
of that, but I am interested if I could just get each of you to 
quickly answer the question, like what are the things that we 
should put most of our focus on, given that there are all kinds 
of benefits to this in general, in terms of preventing soil 
loss and carbon sequestration, nutrient management around 
watersheds? I mean, there are a lot of reasons this should be 
important.
    Where should our focus be? The funding opportunities to 
help people get through the challenges of not having the right 
equipment or making that leap when it is difficult? And also on 
the de-risking side, are we doing enough to tie our 
conservation programs to these practices incentivizing farmers?
    Mr. Cunningham, you mentioned crop insurance and you didn't 
need it, so should we be doing more on the crop insurance side 
to kind of de-risk crop insurance a little by requiring these 
practices be coupled with that?
    I will stop talking and if each of you have something to 
say, I am happy to hear it.
    Mr. Cunningham. Well, I guess while we are talking about 
crop insurance, as you recall in my testimony, fall of 2018 was 
extremely wet. We went into the freeze-up time saturated. A lot 
of ground didn't get planted. Our ground that did get planted 
got planted late. I had the crop insurance adjustor out to look 
at the places that just wasn't physically possible to plant by 
the final planting date, and the field that I had terminated 
and had dead material on it, took a picture of that, and he was 
quite happy. And we went over to another field where it was 
intended for corn and the cover crop had not been terminated 
yet and he says, ``Well, I am nervous taking a picture of this 
because you got all this stuff growing out here.'' And I said, 
``Well, now that is a cover crop. It was planted in November. 
If it was going to be a cash crop or a seed or a grain crop I 
would have managed it much differently.'' He thought someone at 
the company might not like the looks of this.
    But I believe crop insurance has come a long way. There was 
a time a few years ago where I had grazed a winter annual cover 
crop in the spring with some cattle and I was denied coverage 
because it was considered something I shouldn't do, and 
unfortunately that portion of the field was not able to be 
included in my production history and it yielded ten percent 
more than the rest of the field did just by the benefit of 
grazing.
    Ms. Pingree. Thanks. Anybody else want to weigh in?
    Mr. Anderson. A couple thoughts. The State of Iowa has a 
pilot program to offer crop insurance premium discounts to 
farmers who have implemented cover crop practices on their farm 
and then certified those cover crop acres with their local USDA 
FSA Office. Those acres are then verified and that discount is 
then applied to the crop insurance premium for that crop. That 
is an excellent way that the crop insurance program with a 
state program is recognizing some of those benefits.
    The one recommendation that I would have is for cost-share 
programs that are implementing these soil health practices, to 
be distributed over a period of years it allows that farmer, 
landowner, or farm manager the ability to learn with that cover 
crop, reduce the risk in those first few years as they learn, 
and include an education and networking component as part of 
that cost-share, because again, farmers learn well from other 
farmers.
    Ms. Pingree. Yes.
    Ms. Douglass. I would add that the flexibility in the 
programs is important and I think that making sure these 
decisions are able to be made on a local level because, as 
you've heard, there is so much difference not only state to 
state, but within the regions.
    I also think that the research component is still very 
important because there it is not like there is one recipe for 
cover crops, there is one mix. There are many, many varieties 
and mixes that we are choosing from to try to figure out what 
is going to work best on our farm and with our cropping system.
    And then also that continued research into where food 
safety and these cover crops intersect. That is going to be 
hugely important in California and we could have a whole lot of 
acres utilized if we are confident in what that looks like.
    Ms. Pingree. That is great.
    Mr. Ellis. I would add that a free market approach to some 
of these that can kind of parallel and work together with our 
Federal funding, beyond just carbon markets, but water quality, 
water quantity, all of these other ecosystem services that all 
of us on this panel are working really hard from our land 
stewardship perspective and what we are producing on our 
properties.
    And the other key is really technology, thinking of it from 
a technology, from new sensor technologies, other things that 
can help develop some decision supports for decision tools for 
the producer to help mitigate some of that risk.
    Ms. Pingree. Great.
    The Chair. Thank you.
    The chair now recognizes Mrs. Axne.
    Mrs. Axne. In 1990 small- and medium-sized farms accounted 
for nearly \1/2\ of all agriculture production in the U.S. and 
today they make up less than \1/4\ of that production. And 
nobody knows better how to protect their soil than our actual 
small- to mid-sized farmers and I truly believe that, but I 
have concerns about large industrial farming, making a profit 
off our soil fertility and of course contributing to the 
problems with our waterways as well.
    My question to the panel is, are we doing enough to ensure 
that large industrial farmers are participating in conservation 
efforts?
    Dr. Mehta. We do have a few farmers in our network who 
would fit that definition and it has been interesting because 
we keep asking this question, why are you here and your 
counterparts are not. And so based on their responses I would 
say we are not doing enough, because largely the incentives, if 
we think of the spectrum of farmers, the self-selected spectrum 
that tends to show up, again the folks that are sitting here, 
it is this particular group that has a particular connection to 
the land and has a certain size. You are not necessarily going 
to see the benefits of some of these programs if you are in 
some of those larger buckets.
    And being able to expand the flexibility and to take into 
account what are the specific needs and nuances, that could 
incentivize those programs. The other piece is really using the 
other lever of the free market mechanisms because they might 
respond more heavily to market-based mechanisms than 
government. Those two in tandem could be quite effective.
    And I think that is where we are seeing, at least on our 
end, why some of them are signing up for our network is we have 
a 5 year program. We offer a much longer length of time to be 
with us, so at least they say, ``Well, we see the improvement 
and we see that there are certain benefits that we couldn't get 
if we had gone through a government program.''
    There is a great space there and that is a great question, 
because if we could tackle it we would have a major impact on 
our land.
    Ms. Douglass. It is really important to look at making sure 
farmers of all scales are considering these practices, and for 
some of the larger farms it is probably going to be economics 
that get them to consider these.
    I can tell you that the outreach in California was 
generally focused on smaller farmers, and that is great for the 
educational purposes, but when we talk about trying to get more 
acres and if you are interested in things like carbon 
sequestration, for example, those are the farmers we really 
need to bring onboard to have more impact. I think that, 
hopefully, it is going to be economics that really do that and 
get them onboard.
    I haven't seen really strong data though on who is picking 
them up and who is not. I mean, I know obviously what cross-
sector most of us seem to represent, but it is important that 
all shapes and sizes are represented so that we all get the 
benefit.
    Mrs. Axne. Thank you.
    The Chair. Thank you very much to our witnesses for being 
here today. Thank you to Ranking Member LaMalfa and to our 
other Members for participating in this hearing.
    We have heard about the benefits of soil health management 
for producers and for the rest of our communities.
    We have heard about the financial and technical costs for 
adopting them at scale, which we know is necessary.
    We have work to do and the job before us is a serious one. 
The good news is we are in this together and we see strong 
results, and so thank you very much for participating and 
telling us about your experiences, your research, and your 
knowledge base.
    I thank you all for being here, and under the Rules of the 
Committee, the record of today's hearing will remain open for 
10 calendar days to receive additional material and 
supplementary written responses from the witnesses to any 
question posed by a Member.
    This hearing of the Subcommittee on Conservation and 
Forestry is adjourned.
    Thank you.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Submitted Report by Hon. Abigail Davis Spanberger, a Representative in 
                         Congress from Virginia
Sustainable Agriculture Research and Education (SARE)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Ag Innovations Series Technical Bulletin
          Peer-reviewed research findings and practical strategies for 
        advancing sustainable agriculture systems
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Cereal rye is the most widely planted cover crop in the 
        United States, being used on several million acres for erosion 
        control, weed suppression and soil improvement. Photo by Edwin 
        Remsberg.
Cover Crop Economics
Opportunities to Improve Your Bottom Line in Row Crops
June 2019
Contents
    Introduction
    How to Get a Faster Return from Cover Crops
    An In-Depth Look at Management Situations Where Cover Crops Pay Off 
Faster
    The Off-Farm Impacts of Cover Crops
    The Bottom Line on Cover Crops
    Resources and References

          Available at: www.sare.org/cover-cropeconomics, or order free 
        hard copies at (301) 779-1007.

    When it comes to making the big decisions about managing a farm, 
whether it's to grow a new crop, buy an expensive piece of equipment or 
upgrade infrastructure, farmers are business people first. If the idea 
doesn't work out on paper, either by cutting costs or raising revenue, 
then it likely won't happen.

    With the decision to adopt cover crops, a conservation practice 
that is becoming increasingly popular throughout the country, the 
economic picture can admittedly be hard to decipher at first. This is 
because a simple, 1 year budget analysis of cover crops, one that just 
compares the cost of seed and seeding to the impact on the next crop 
yield, may indeed show a loss.
    Yet most farmers who have long-term experience with cover crops and 
who carefully keep their books have discovered that cover crops do in 
fact pay. These farmers usually look at cover crops from the broad, 
holistic standpoint of how they will improve the efficiency and 
resiliency of the entire farm over time.
    ``Look at cover crops as an investment rather than a cost,'' 
advises Justin Zahradka, who farms 900 acres in North Dakota and has 
been planting cover crops since 2011. Cover crops allow Zahradka to 
extend the grazing season for his livestock, grow his soil's organic 
matter and maintain more consistent yields in wet or dry years.
    Or, as he puts it, cover crops help him ``be more productive on 
each acre.'' (Zahradka's farm is profiled later in this bulletin.)

          Cover crop acreage increased 50% nationally from 2012 to 
        2017.
                                           (USDA Census of Agriculture)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Tennessee farmer Ray Sneed plants a five-species cover crop 
        mix to accomplish multiple management goals, in particular to 
        control weeds and improve irrigation efficiency. Photo by Pete 
        Nelson, AgLaunch Initiative.

    Every business-savvy farmer knows that some purchases cannot be 
evaluated solely on their first-year financial impact. Buying new farm 
machinery or applying lime to acidic soils are typical examples of 
purchases that come with longer pay-back periods. Similarly, crop 
insurance seldom pays for itself the year it is bought. In the same 
manner, because cover crops gradually improve soil health and the 
productivity of fields, their economic value is best understood over a 
multi-year period.
    Under circumstances where cover crops are the only change made to 
farm management, it can take a few years for cover crops to fully pay 
for themselves. But, as farmers gain experience and expand the number 
of fields that are cover cropped, they find a variety of ways to 
accelerate the return on their investment. In some situations, cover 
crops can provide a positive return in the first year or 2 of use.
    This bulletin will describe seven specific situations in which the 
profitability of cover crops can be accelerated. These situations 
reflect both common production challenges that row crop farmers face 
(for example, herbicide-resistant weeds) and opportunities (for 
example, the transition to no-till). Much of the baseline economic 
information that underlies the financial analysis of these situations 
derives from 5 years of data from the National Cover Crop Survey 
conducted by SARE and the Conservation Technology Information Center 
(CTIC) for the 2012-2016 growing seasons. Farmer profiles share real-
world examples of how the multifaceted benefits of cover crops 
translate into profitability.
    Three key takeaways on cover crop economics have become clear 
through our analysis:

  1.  A thorough evaluation of cover crop economics looks at the 
            overall changes farmers typically make to crop management 
            over a multi-year period of using cover crops. Farmers who 
            are most satisfied with their return on investment take a 
            holistic look at how they manage their overall cropping 
            system and often make a suite of changes that improve 
            overall efficiency, rather than alter just one practice 
            (such as planting a cover crop).

  2.  In most cases, farmers need to use a multi-year timeline to 
            evaluate the return from cover crops, much as they would 
            for applying lime or buying equipment. While an economic 
            return can come relatively quickly in certain situations, 
            such as when using cover crops for grazing or to control 
            herbicide-resistant weeds, the maximum return will build 
            steadily over several years as the soil improves and as the 
            farmer gains experience incorporating cover crops into 
            their overall system.

  3.  One of the most-often-cited economic benefits of cover crops by 
            experienced users is their impact on the resiliency of the 
            cropping system. Farmers are finding that by helping to 
            minimize drought-related yield losses or sometimes allowing 
            earlier planting in a wet spring, cover crops serve as a 
            type of crop insurance. As with ordinary crop insurance, 
            the premium you pay for cover crops will pay off big in 
            some years, but not every year.
How to Get a Faster Return from Cover Crops
    When evaluating average fields in average weather conditions, it 
can take 3 or more years for cover crops to pay off if no incentive 
payments are obtained and no special circumstances exist. However, 
every farmer has their own challenges and opportunities that can affect 
this picture. Therefore, when evaluating the economics of cover crops, 
it can be helpful to consider common situations or scenarios under 
which they will pay for themselves more quickly, often within a year or 
2. Seven situations in which cover crop profits are accelerated are 
listed here and then described in more detail in a later section of 
this bulletin.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Cover crops can pay their way more quickly when:
 
      1.  Herbicide-resistant weeds are a problem
 
      2.  Cover crops are grazed
 
      3.  Soil compaction is an issue
 
      4.  Cover crops are used to speed up and ease the transition to no-
       till
 
      5.  Soil moisture is at a deficit or irrigation is needed
 
      6.  Fertilizer costs are high or manure nutrients need to be
       sequestered
 
      7.  Incentive payments are received for using cover crops
------------------------------------------------------------------------

    Many farmers may experience more than one of these situations. 
Cover crops will quickly pay off when two or more of these situations 
occur together. The farmers profiled in this bulletin reflect this view 
that cover crops are most profitable when they provide benefits in 
multiple areas.
    For example, Tennessee farmer Ray Sneed plants a five-species cover 
crop mix with multiple goals in mind. ``Each species has a job, and 
those jobs are based on where I have problems,'' says Sneed, who farms 
10,000 acres of corn, soybeans, wheat and cotton.
    His mix includes tillage radishes, crimson clover, wheat, cereal 
rye and turnips. Their primary jobs are to scavenge nutrients, 
alleviate compaction, improve water infiltration and suppress weeds. 
After 6 years of cover cropping, Sneed is saving money by using less 
irrigation water, fertilizer and herbicide. ``We're learning that we 
can use some of these species to offset the costs of growing our 
crops,'' he says.
    Before getting into the detailed economics of these seven 
situations, the first step in this bulletin is to summarize some 
baseline data on cover crop yield impacts and to outline assumptions on 
cover crop costs and returns. These numbers will provide a baseline for 
the seven specific situations in which cover crops can provide a 
reasonably fast economic return.
How Do Cover Crops Impact Yield Over Time?
    Almost any farmer with several years of cover crop experience will 
report that they have seen improvements in both the soil and crop 
performance over time. ``You will have a cost savings if you stay with 
it,'' Sneed says. To better understand how the number of years spent 
planting a cover crop impacts crop yield, data was collected from 
farmers responding to the SARE/CTIC National Cover Crop Survey.\1\ 
Farmers who planted cover crops on some fields but not on others, and 
who otherwise managed those fields similarly, were asked to report on 
respective yields (Table 1). Though not all farmers had comparable 
fields with and without covers to report on, there were still several 
hundred farmers who provided yield data each year. The biggest yield 
differences were reported after the drought year of 2012, with average 
reported yield increases of 9.6% in corn and 11.6% in soybeans. Based 
on the high corn and soybean prices following the 2012 drought year, 
cover crops provided a helpful profit boost that year.
---------------------------------------------------------------------------
    \1\ The National Cover Crop Survey was conducted for 5 years 
covering the 2012-2016 cropping seasons. The survey was done by 
Conservation Technology Information Center staff with funding from 
SARE. In years 3 to 5 of the survey, partial funding was also provided 
by the American Seed Trade Association. Typically, about 2,000 farmers 
filled out the survey in years 2 to 5 of the survey, while in the first 
year 759 farmers responded. The full reports on the survey are 
available at www.sare.org/covercropsurvey.

Table 1. Percent increase in yield for corn and soybeans following cover
     crops versus comparably managed fields with no cover crops \1\
------------------------------------------------------------------------
        Crop Year                  Corn                  Soybeans
------------------------------------------------------------------------
             2012                      9.6%                   11.6%
             2013                      3.1%                    4.3%
             2014                      2.1%                    4.2%
             2015                      1.9%                    2.8%
             2016                      1.3%                    3.8%
------------------------------------------------------------------------
\1\ Data is from the SARE/CTIC National Cover Crop Surveys conducted
  annually for crop years 2012-2016.

    It is important to point out that although the several hundred 
farms reporting data represent a good-sized data set, these were self-
reported numbers. Also, it was clear that yields from field to field 
varied, with a few fields having yield losses after cover crops and 
with some fields showing no difference. Many farmers reported a yield 
increase on their fields, but individual experiences varied. While the 
SARE/CTIC survey data set is by far the largest set available on cover 
crop yield impacts, it is worth noting that other cover crop studies 
have reported a range of yield impacts, from minor losses to minor 
increases in corn yields. For soybeans, some studies have shown that 
yields are unchanged with cover crops, while others have shown a modest 
improvement in yields. Fewer data reports are available on the yield 
impact of cover crops on other cash crops.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Crimson clover is the most popular legume cover crop in the 
        United States. Photo by Rob Myers, North Central SARE.

    For cropping years 2015 and 2016, the survey included an additional 
question: How many years have you consecutively used cover crops in the 
fields for which you are reporting yields? Using those 2 years of data, 
a simple linear regression analysis was done to look at yield response. 
The farmer data set for those 2 years is very similar in a number of 
metrics, indicating a high percentage of the same farmers filled out 
the survey both years, so it was deemed valid to take an average of the 
2 years of data (crop years 2015 and 2016), covering yields of about 
500 farmers each year. From that regression analysis, Table 2 was 
constructed to look at how yields change in response to duration of 
cover crop use in a field.

  Table 2. Percent increase in corn and soybean yields after 1, 3 and 5
  years of consecutive cover crop use on a field, based on a regression
            analysis of data for crop years 2015 and 2016 \1\
------------------------------------------------------------------------
                        One Year         Three Years       Five Years
------------------------------------------------------------------------
          Corn               0.52%             1.76%                3%
      Soybeans               2.12%             3.54%             4.96%
------------------------------------------------------------------------
\1\ Figures shown are an average of yields from the 2015 and 2016
  growing seasons, with yield data obtained from about 500 farmers each
  year through the SARE/CTIC National Cover Crop Survey.

    The regression analysis of yields based on duration of cover 
cropping clearly showed that corn and soybean yields increased in 
response to the number of years that cover crops were planted in a 
field. This is presumably a reflection of improvements in soil health.
Creating a Baseline for Cover Crop Costs and Returns
    Table 3 shows the typical costs of seeding cover crops. Some 
farmers are able to buy cover crops for as little as $5-$10 an acre if 
they are using common cereals such as oats, wheat or rye, and 
especially if the seed is available locally with no shipping costs or 
has been grown by the farmer. At the other end of the spectrum, for 
complex mixes that include pricier legumes, it is possible to spend as 
much as $50 per acre on cover crop seed. However, this is not typical 
among grain farmers when planting cover crops on large acreages. 
(Expensive cover crop mixes with legumes are more common on organic 
farms and vegetable farms.)

                  Table 3. Cost of seeding cover crops
------------------------------------------------------------------------
                      Item                            Cost Per Acre
------------------------------------------------------------------------
Cover crop seed                                                  $10-$50
Seeding the cover crops                                           $5-$18
Termination                                                       $0-$10
                                                ------------------------
  Subtotal range                                                 $15-$78
                                                ========================
    Median cost from survey                                          $37
------------------------------------------------------------------------

    Likewise, the cost of seeding cover crops can really vary. If 
someone is hiring cover crop seed spreading, an aerial applicator may 
charge $12-$18 per acre, while a fertilizer dealer might charge $8-$15 
per acre. If the seed is broadcast with a fall fertilizer application, 
the cost of seeding is basically covered as part of the fertilization 
cost.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          A cover crop interseeder can broadcast several hundred acres 
        of cover crop seed in a day, allowing ag retailers and farmers 
        to get cover crop seed established efficiently and early in the 
        fall. Photo by Rob Myers, North Central SARE.

    If cover crop seeding is done using the farmer's own equipment, the 
cost will depend on the width of seeding equipment and whether it is 
done as a separate trip over the field or combined with another field 
operation. A small 10 drill might have an operation cost of over $10 
per acre when labor is included, while operating a 40 row crop planter 
will likely cost under $10 per acre. If broadcasting cover crop seed 
and lightly incorporating it with a vertical till tool, there is no 
extra labor or fuel cost since the vertical tillage is done anyway. 
However, there would be a one-time cost for modifying the tillage tool 
with an air seeder, which might amortize to $4-$5 per acre depending on 
the amount of use. In short, it is possible to buy and seed cover crops 
for as little as $10-$15 per acre, or to spend three to four times that 
amount.
    The national SARE/CTIC survey showed a median seeding cost of $25 
per acre in 2012. Although seed costs for some cover crop species have 
declined since 2012, that figure will be used for the analysis reported 
on here. The same survey had farmers reporting a median seeding cost of 
$12 per acre if they hired it out, making a total cost of $37 per acre 
for seeds and seeding. If the cover crop overwinters and needs to be 
terminated in spring, that can add an extra cost of $10-$12, but for 
this analysis it is assumed that a burndown spring herbicide 
application is being made anyway, since this is a common practice among 
corn and soybean farmers.
    To better show how the economics of cover crops change with 
improvements in soil health and under special situations, tables 4 and 
5 on corn and soybeans (respectively) were compiled from a variety of 
data sources. (See table footnotes.) The numbers are based on a 
combination of SARE/CTIC survey data, published input prices, research 
data and analysis by the authors of this bulletin. Prices shown are 
from spring 2019 unless otherwise noted. Where estimates were made on a 
few of the numbers, the goal was to be as realistic as possible based 
on reported farmer experiences. Some farmers report higher cost savings 
or greater yield increases than what is shown, but for the majority of 
situations, tables 4 and 5 should give an idea of approximate returns 
on typical corn and soybean farms.
    Similar tables could be built for other summer annual crops that 
might be rotated with cover crops, such as cotton, sorghum or 
sunflowers, but less farm-based data is currently available on the 
yield impact of cover crops with other commodities. The authors did not 
attempt to do an analysis of cover crop economics for vegetables, 
fruits or other specialty crops but expect a similar pattern of 
increasing economic return would be found as soil health improves over 
time.
    Tables 4 and 5 show the impact of cover crops on farm profitability 
under each of the seven situations outlined in the previous section. An 
important thing to keep in mind when reviewing the tables is that while 
some farmers will have none of the seven special situations that apply 
to them, others will have more than one. For example, they may be 
grazing a cover crop while also cutting back on their use of 
fertilizer, or they may be getting an incentive payment while at the 
same time addressing a compaction issue. Thus, there is an opportunity 
to gain even more net profit by combining strategies or by addressing 
more than one yield-limiting factor in a field through use of cover 
crops. Again, this becomes especially true as soil health improves over 
time.
    Another consideration is that tables 4 and 5 present information on 
corn and soybeans separately. Farmers are encouraged to look at their 
overall system and think about how cover crops fit into their crop 
rotations. For example, some farmers have gone back to adding a small 
grain into their rotation with corn and soybeans. If the small grain is 
winter wheat, it may be possible to either double crop beans or plant a 
cover crop ``cocktail'' mix after wheat harvest. Then the cover crop 
mix can be grazed in early fall and possibly again in late fall and/or 
spring, depending on the balance of warm season annuals and cool season 
annuals in the cover crop mix. Such a system may provide faster soil 
health benefits as well as a nice income from the grazing, but of 
course it depends on having access to grazing animals.
    Finally, the details about how the economic assumptions were 
established for each cover cropping situation are captured in the table 
footnotes. Each farmer's experience with cover crops will vary based on 
their particular situation. Readers are encouraged to substitute their 
own local conditions and numbers to evaluate the potential return from 
cover crops over time.

Table 4. Impact of cover crops on costs, returns and net profit for corn
following 1, 3 and 5 years of cover crop use and with various management
                                scenarios
------------------------------------------------------------------------
                                      Years of Cover Cropping
Budget Item (All figures -----------------------------------------------
      are per acre)            One           Three             Five
------------------------------------------------------------------------
             Estimated input savings when using cover crops
------------------------------------------------------------------------
Fertilizer \1\                      $0           $14.10           $21.90
Weed control \2\                $0-$15          $10-$25          $10-$25
Erosion repair \3\               $2-$4            $2-$4            $2-$4
                         -----------------------------------------------
  Subtotal                      $2-$19    $26.10-$43.10    $33.90-$50.90
                         -----------------------------------------------
    a. Savings on inputs            $2           $26.10           $33.90
     (the low end of the
     subtotal range from
     above)
    b. Income from extra         $3.64           $12.32              $21
     yield in normal
     weather year
     (survey data) \4\
    c. Cost of seed and            $37              $37              $37
     seeding (survey
     data) \5\
                         ===============================================
      Net return in a          ^$31.36            $1.42           $17.90
       normal weather
       year (a + b ^ c)
------------------------------------------------------------------------
         Special situations where cover crops can pay off faster
------------------------------------------------------------------------
I. When facing severe              $27              $27              $27
 herbicide-resistant
 weeds \6\
                         -----------------------------------------------
  Adjusted net return           ^$4.36           $28.42           $44.90
                         -----------------------------------------------
II. Potential grazing           $49.23           $49.23           $49.23
 income \7\
                         -----------------------------------------------
  Adjusted net return           $17.87           $50.65           $67.13
                         -----------------------------------------------
III. Compaction                 $15.30           $15.30           $15.30
 addressed by cover
 crops \8\
                         -----------------------------------------------
  Adjusted net return          ^$16.06           $16.72           $33.20
                         -----------------------------------------------
IV. Assisting the               $23.96           $23.96           $23.96
 conversion to no-till
 from conventional \9\
                         -----------------------------------------------
  Adjusted net return           ^$7.40           $25.38           $41.86
                         -----------------------------------------------
V. Income from extra            $58.70           $75.73           $92.55
 yield in a drought year
 (survey data) \10\
                         -----------------------------------------------
  Adjusted net return           $27.34           $77.15          $110.45
                         -----------------------------------------------
VI. Extra fertilizer            $15.20           $15.20           $15.20
 savings from improved
 fertility \11\
                         -----------------------------------------------
  Adjusted net return          ^$16.16           $16.62           $33.10
                         -----------------------------------------------
VII. Federal or state              $50              $50              $50
 incentive payments
 received \12\
                         -----------------------------------------------
  Adjusted net return           $18.64           $51.42           $67.90
------------------------------------------------------------------------
\1\ Assumes no fertilizer savings in year 1, then a savings of 15 pounds
  of nitrogen per acre in year 3 and 30 pounds per acre in year 5, at
  $0.38 per pound. Also assumes a phosphorus saving of 20 pounds per
  acre in year 3 and 25 pounds per acre in year 5, at $0.42 per pound.
\2\ The first year assumes a reduction of one herbicide pass if
  sufficient cover crop biomass is achieved. Savings are higher in later
  years due to reducing by two passes or by using less-expensive
  herbicide products.
\3\ Based on the cost of machinery operations and labor to repair
  gullies and clean ditches (assumes average cost, but fields will
  vary).
\4\ Assumes a corn price of $3.50 per bushel and a 200 bushel yield
  times the percent yield increases shown in Table 2.
\5\ Costs for seed, seeding and termination can vary from a low of about
  $10 to over $50 per acre; most farms estimated to be $25-$40 per acre.
\6\ In a field with a severe herbicide-resistant weed infestation, this
  figure assumes that a thick-biomass cover crop will reduce herbicide
  and labor costs and will reduce dockage for weed seed at harvest.
\7\ Assumes that grazing a cover crop (cereal rye in this example)
  results in a reduction of 1,093 pounds of hay fed per acre of cover
  crops. This is based on 1,500 pounds per acre of dry matter generated
  by rye, then reduced effective use of the rye by 50% due to hoof
  action and selective grazing. Assumes average feedlot waste of 22% for
  hay fed (88% dry matter). The hay is valued at $80 per ton. Additional
  savings of approximately $5.50 per acre generated due to lower labor,
  fuel and machinery depreciation from reduced hay fed. Assumes grazer
  already has water access for their grazing area and an electric
  fencing system.
\8\ This is based on a University of Minnesota machinery cost estimate
  for subsoiling at $15.30 per acre (2017 data used for machinery
  costs).
\9\ No-till savings versus conventional: No fall chisel plow ($11.22 per
  acre) and savings on two field cultivator passes in the spring (2 
  $6.37 per acre).
\10\ Assumes a corn price in drought of $6.89 per bushel and reduced
  base yield of 142 bushels per acre  percent yield increase for
  drought. Numbers are based on actual national average corn yield for
  2012 and national average corn price in the 2012-13 marketing year
  (USDA-NASS).
\11\ Assumes using legumes as a cover crop and that overall improved
  soil health allow nitrogen to be cut by an extra 40 pounds per acre
  over basic fertilizer savings.
\12\ The basic NRCS EQIP rate in the majority of Corn Belt states starts
  at $50 per acre or higher; some states have lower rates.


   Table 5. Impact of cover crops on costs, returns and net profit for
 soybeans following 1, 3, and 5 years of cover crop use and with various
                          management scenarios
------------------------------------------------------------------------
                                      Years of Cover Cropping
Budget Item (All figures -----------------------------------------------
      are per acre)            One           Three             Five
------------------------------------------------------------------------
             Estimated input savings when using cover crops
------------------------------------------------------------------------
Fertilizer \1\                      $0            $6.30            $8.40
Weed control \2\                $0-$15          $10-$25          $10-$25
Erosion repair \3\               $2-$4            $2-$4            $2-$4
                         -----------------------------------------------
  Subtotal                      $2-$19    $18.30-$35.30    $20.40-$37.40
                         -----------------------------------------------
    a. Savings on inputs            $2           $18.30           $20.40
     (the low end of the
     range from above)
    b. Income from extra        $11.45           $19.12           $26.78
     yield in normal
     weather year
     (survey data) \4\
    c. Cost of seed and            $37              $37              $37
     seeding (survey
     data) \5\
                         ===============================================
      Net return in a          ^$23.55            $0.42           $10.18
       normal weather
       year (a + b ^ c)
------------------------------------------------------------------------
         Special situations where cover crops can pay off faster
------------------------------------------------------------------------
I. When facing severe              $27              $27              $27
 herbicide-resistant
 weeds \6\
                         -----------------------------------------------
  Adjusted net return            $3.45           $27.42           $37.18
                         -----------------------------------------------
II. Potential grazing           $49.23           $49.23           $49.23
 income \7\
                         -----------------------------------------------
  Adjusted net return           $25.68           $49.65           $59.41
                         -----------------------------------------------
III. Compaction                 $15.30           $15.30           $15.30
 addressed by cover
 crops \8\
                         -----------------------------------------------
  Adjusted net return           ^$8.25           $15.72           $25.48
                         -----------------------------------------------
IV. Assisting the               $23.96           $23.96           $23.96
 conversion to no-till
 from conventional \9\
                         -----------------------------------------------
  Adjusted net return            $0.41           $24.38           $34.14
                         -----------------------------------------------
V. Income from extra            $65.24           $69.80           $74.36
 yield in a drought year
 (survey data) \10\
                         -----------------------------------------------
  Adjusted net return           $41.69           $70.22           $84.54
                         -----------------------------------------------
VI. Extra fertilizer                $7               $7               $7
 savings from improved
 fertility \11\
                         -----------------------------------------------
  Adjusted net return          ^$16.55            $7.42           $17.18
                         -----------------------------------------------
VII. Federal or state              $50              $50              $50
 incentive payments
 received \12\
                         -----------------------------------------------
  Adjusted net return           $26.45           $50.42           $60.18
------------------------------------------------------------------------
\1\ Assumes no fertilizer savings in year 1, then a savings of 15 pounds
  of phosphorus per acre in year 3 and 20 pounds per acre in year 5, at
  $0.42 per pound.
\2\ The first year assumes either no herbicide savings or a possible
  saving of $15 per acre by avoiding a fall herbicide pass ($7.50 per
  acre for the chemical and $7.50 per acre for application). The third
  and fifth years assume using a less expensive residual chemistry that
  costs $10 per acre, with the possibility of saving $15 per acre in the
  fall.
\3\ Based on the cost of machinery operations and labor to repair
  gullies and clean ditches (assumes average cost, but fields will
  vary).
\4\ Assumes a soybean price of $9 per bushel and a 60 bushel yield times
  the percent yield increases shown in Table 2.
\5\ Costs for seed, seeding and termination can vary from a low of about
  $10 to over $50 per acre; most farms estimated to be $25-$40 per acre.
\6\ In a field with a severe herbicide-resistant weed infestation, this
  figure assumes that a thick-biomass cover crop will reduce herbicide
  and labor costs and will reduce dockage for weed seed at harvest.
\7\ Assumes that grazing a cover crop (cereal rye in this example)
  results in a reduction of 1,093 pounds of hay fed per acre of cover
  crops. This is based on 1,500 pounds per acre of dry matter generated
  by rye, then reduced effective use of the rye by 50% due to hoof
  action and selective grazing. Assumes average feedlot waste of 22% for
  hay fed (88% dry matter). The hay is valued at $80 per ton. Additional
  savings of approximately $5.50 per acre generated due to lower labor,
  fuel and machinery depreciation from reduced hay fed. Assumes grazer
  already has water access for their grazing area and an electric
  fencing system.
\8\ This is based on a University of Minnesota machinery cost estimate
  for subsoiling at $15.30 per acre (2017 data used for machinery
  costs).
\9\ No-till savings versus conventional: No fall chisel plow ($11.22 per
  acre) and savings on two field cultivator passes in the spring (2 
  $6.37 per acre).
\10\ Assumes a soybean price in drought of $14.40 per bushel and reduced
  yield of 39.6 bushels per acre  percent yield increase for drought.
  Numbers are based on actual national average soybean yield for 2012
  and national average price in the 2012-13 marketing year (USDA-NASS).
\11\ Assumes that overall improved soil health allows an additional
  reduction in phosphorus of 10 pounds per acre ($0.42 per pound) and 10
  pounds per acre of potassium ($0.28 per pound) over basic fertilizer
  savings.
\12\ The basic NRCS EQIP rate in the majority of Corn Belt states starts
  at $50 per acre or higher; some states have lower rates.

An In-Depth Look at Management Situations Where Cover Crops Pay Off 
        Faster
    As outlined earlier, there are several different management 
situations where cover crops pay off faster than usual. Generally, 
these faster returns occur where farmers are either addressing a 
specific problem such as herbicide-resistant weeds or soil compaction, 
and/or where they are seizing opportunities in other aspects of their 
crop and soil management in order to be more economically efficient 
overall.

    For example, Alabama farmer Annie Dee has been combining cover 
crops with other conservation practices for many years because of the 
multiple cost-saving benefits she sees. ``If we get a big rain, the 
cover crops help keep soil from washing away,'' says Dee, who farms 
4,000 acres of corn and soybeans, with another 3,500 acres of forages 
and cattle pasture. ``They also help build up the fertility of the soil 
and keep the weeds down.''
    By using the baseline numbers on cover crops from the preceding 
section and then adding in the economic impact of these various 
management scenarios, a more specific set of economic numbers can be 
generated. These management-specific numbers are summarized in the 
``Snapshot'' sections at the end of each management section. The intent 
here is to help producers identify those profitability factors that are 
relevant to their own farms.
    When looking at the management situations that follow, producers or 
farmer advisors should keep in mind their goals for the cover crops 
they plan to use on each field, such as helping with compaction (Figure 
1). This can help guide their selection of cover crops, help set 
realistic expectations on potential returns and help suggest what other 
management changes might be needed to improve overall efficiency.
Figure 1: The many benefits of cover crops

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          The many benefits that cover crops provide contribute to 
        increasing yield response and lower input costs over time. 
        Illustration by Carlyn Iverson.
1. When Herbicide-Resistant Weeds are a Problem
    In the 2016-17 National Cover Crop Survey, 59% of farmers reported 
having herbicide-resistant weeds on some of their fields, and that 
percentage is expected to continue rising. Due to the rapid spread of 
herbicide-resistant marestail, Palmer amaranth and waterhemp, along 
with other herbicide-resistant weeds, farmers are having to spend more 
on herbicides while often getting worse results. In some situations, 
entire crop fields have been abandoned to weeds, particularly in the 
South. Even where partial control of these challenging weeds is 
obtained, yield losses occur and the crop delivered to the grain 
elevator may be docked substantially in price for weed seed 
contamination. This problem is only going to get worse in many areas. 
For example, a weed scientist from Southern Illinois University 
recently reported that some marestail weeds in Illinois are now showing 
resistance to four different classes of herbicide 
chemistry.<SUP>[14]</SUP>
    While no single crop management strategy can completely resolve the 
situation with herbicide-resistant weeds, cover crops are proving to be 
an effective tool in farmers' toolboxes for controlling these weeds. 
For example, when asked if cereal rye was helping with herbicide-
resistant weed control, 25% of the farmers in the SARE/CTIC survey said 
it always helped and 44% said it sometimes helped, while 31% said they 
saw no difference. In some cases, the farmers were able to get by with 
just one application of post-emergence herbicide instead of two, or 
were able to go with a less-expensive residual herbicide chemistry when 
they added cover crops to their weed control strategy.
    This potential savings in herbicide costs will not necessarily pay 
for the full cost of cover crop seeding, but when combined with 
possible yield advantages and avoiding dockage fees or even yield 
losses at harvest, it may provide a positive return in the first year 
or 2 of cover crop use. More specifically, using cereal rye biomass to 
get by with one less pass of post-emergence spray, along with lower-
cost residual herbicides, can lead to savings of $35 per acre or more 
when an herbicide-resistant weed infestation is severe and would 
otherwise cause yield loss and potential weed seed dockage in harvested 
grain.
    Where the cover crop investment is most likely to pay is when 
cereal rye and/or other covers grow long enough to create a biomass 
blanket that reduces weed seed emergence and growth. If the cash crop 
is ``planted green'' into the cover crop (seeded while the cover crop 
is still living), weed control is usually increased, particularly if 
planting in a no-till fashion with significant rye residue providing a 
weed protection mat on the soil surface. Recent work by the University 
of Nebraska has shown that cover crop rye biomass of 3,300-3,600 pounds 
per acre had a dramatic impact on weeds in corn, reducing both weed 
biomass and weed density by 90%.<SUP>[1]</SUP> (Note: If using cereal 
rye before corn, adjustments to your nitrogen fertilization strategy 
are recommended.)
    Nebraska results with soybeans were more variable, depending on the 
amount of cover crop growth, but higher cover crop biomass generally 
led to better weed control. University of Wisconsin researcher and SARE 
grantee Erin Silva has found that allowing rye to accumulate 8,000 
pounds of aboveground biomass, such as occurs with a dense stand of rye 
at flowering stage, is important when roller-crimping it for organic 
weed control in soybeans. Getting a large amount of biomass from rye 
may require boosting the cereal rye seeding rate, an extra cost of $5-
$10 per acre.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Alabama farmer Annie Dee uses different cover crop mixes 
        depending on her crop rotation and management goals. Reprinted 
        with permission, Progressive Farmer, mid-February 2019.

    Snapshot: The financial impact from herbicide-resistant weeds

    Cover crops can pay off in year 1 for soybeans and in year 2 for 
corn, assuming savings of $27 per acre from using cover crops when a 
substantial or severe herbicide-resistant infestation is occurring. 
Using the calculations summarized in Table 4 for corn, the increased 
net profit from cover crops average ^$4.36, $28.42 and $44.90 per acre 
after 1, 3 and 5 years of planting a cover crop. Using the calculations 
summarized in Table 5 for soybeans, the increased net profit from cover 
crops average $3.45, $27.42 and $37.18 per acre after 1, 3 and 5 years. 
(See tables 4 and 5 for details.)
    The $27 per acre savings is based on a comparison of using cover 
crops with an herbicide program to deal with herbicide-resistant weeds 
versus using herbicides alone. Keep in mind that the occurrence of 
herbicide-resistant weeds normally drives up overall herbicide costs, 
as more expensive residual herbicides are used. Oftentimes an extra 
post-emergence herbicide treatment is employed (making a second or 
third post-emergence application). Specifically, the $27 figure is 
based on a savings of $12 per acre due to one fewer post-emergence 
spray (assuming Roundup Powermax at $4.50 per acre plus $7.50 per acre 
application cost) and $15 per acre for a lower-cost residual herbicide 
chemistry.
    This analysis assumes that a farmer who uses cover crops to combat 
herbicide-resistant weeds would still apply both residual herbicides 
and at least one or two post-emergence herbicide passes to deal with 
them. The difference that a cover crop can make in this situation is to 
provide enough weed control that the farmer can avoid buying the more-
expensive herbicides that would otherwise be required in order to deal 
with an escalating weed problem.
    There may also be additional savings from not having dockage fees 
for weed seed contamination in the harvested grain, and from being able 
to buy less expensive commodity seed (such as using Roundup Ready 
soybeans as opposed to new varieties that have stacked traits for 
resistance to both Roundup and dicamba).
  Farmer Profile Justin Zahradka, Lawton, N.D. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Justin Zahradka, a fifth-generation farmer in North Dakota, 
        grazes his cover crops for optimal benefit. Photo by Lon 
        Tonneson, Dakota Farmer magazine (Farm Progress Companies).
  Positive Returns from Grazing Cover Crops
          Primary Cover Crops: oilseed radishes, turnips, cereal rye, 
        oats, peas, sorghum sudangrass and hairy vetch

          Justin Zahradka is no stranger to change, and he's even more 
        familiar with innovation. Farming the same ground his family 
        homesteaded in 1898, Zahradka is the fifth generation living on 
        and working their Walsh County, N.D., operation. His path to 
        farming and adoption of cover crops began in 2011, while still 
        in high school, with the purchase of bred heifers. Focused on 
        data and economics even at that early point in his career, 
        Zahradka participated in a data gathering project that examined 
        the costs and benefits of cover crops and grazing. With support 
        from state SARE funding, Zahradka found that cover crops 
        enabled him to ``be more productive on each acre.'' Based on 
        his work with cover crops and his overall qualifications, 
        Zahradka was named FFA's National Star in Agriscience for 2015.
          Since that time, he has explored a number of commercial 
        enterprises for his farm including feeder cattle, custom 
        grazing and row crops, and he ended up with the diversified 
        crop and livestock operation he currently operates. Cover crops 
        have been a common denominator throughout every shift in his 
        operation, which has grown to 900 acres including a 160 head 
        cow-calf operation and 500 acres of row crops. On his row crop 
        acres, Zahradka initially focused on just a couple cash crops 
        along with cover crops, but, driven by his bottom line, he has 
        since modified his rotation to include corn, soybeans, spring 
        canola and wheat, with half his land in forages for year-round 
        grazing.
          Preferring mixtures to the use of single species, Zahradka 
        typically plants a combination of oilseed radishes, turnips and 
        cereal rye after wheat. Those acres will routinely be grazed 
        from the end of September into November, extending forage 
        production for his cattle. Acres targeted for forage production 
        might see a mixture of oats, peas, sorghum sudangrass and 
        vetch. ``Those interested in a cover crop mix should start 
        simple with one grass, one legume and one brassica in a 
        mixture,'' Zahradka advises. ``Most importantly, look at cover 
        crops as an investment rather than a cost.''
          Continuous use of cover crops has netted a small but 
        sustained 0.1% annual increase of soil organic matter in his 
        soils, which has been verified by soil test data. When 
        considering the value of his investment in cover crops, 
        Zahradka also points to the resiliency of his soils in both wet 
        and dry years and the benefit of an extended grazing season for 
        his cow-calf operation. His data supports the conclusion that 
        profits per animal can be greater when incorporating cover 
        crops into an operation. In addition, Zahradka's labor is 
        decreased by having the livestock ``do the feeding,'' which 
        enables him to expand his operation without the need to add 
        full-time hired labor. ``Cover crops can help improve your 
        quality of life,'' Zahradka says. ``The operator gains labor 
        savings by letting the livestock do their job.''
2. When Cover Crops are Grazed
    Among the several ways that cover crops can boost profits, grazing 
them is one of the most likely ways to provide a positive first-year 
return. Whether grazing cover crops pays back the first year depends on 
the amount of cover crop growth, the length of the grazing period and 
the costs for fencing and a water supply, if those are not already in 
place. Where grazing infrastructure is present, even a modest amount of 
grazing from cover crops will normally pay for seed costs while also 
providing some soil improvements. Getting early fall establishment of 
fast-growing covers such as cereals and/or brassicas (such as turnips, 
radishes, canola, etc.) can boost your financial return well above cost 
of cover crop seeding.
    Some farmers doing cover crop grazing find they get optimum returns 
by using intensive grazing management techniques with low-cost, 
portable electric fencing and regular moves of livestock between 
paddocks. Daily or near daily moves not only lead to more efficient use 
of cover crop forage but also reduce potential hoof damage to crop 
fields. In established no-till or minimum-till fields with good cover 
crop stands, soil structure combined with the root anchoring ability of 
the covers helps minimizes any potential issues from the cattle 
grazing.
    Integrating livestock with cover crops can be a major plus for 
long-term soil health. The urine, manure and saliva from grazing 
animals has been found to stimulate soil biology. This is not 
surprising given that our soils, whether prairie or forest, evolved 
with herbivores impacting the soil biology. In fact, there is some 
evidence that grazing cover crops, especially where significant biomass 
is achieved, may be one of the fastest ways of building soil organic 
matter and soil biology. More research on this is needed, but early on-
farm results look promising.
    Since many farmers don't have or want livestock, they may think 
cover crop grazing does not apply to them. However, they may have 
family members or neighbors who would be interested in custom grazing 
their ground, bringing in temporary electric fencing and providing a 
rental payment that can boost profitability. Some families have found 
that cover crop grazing can help employ an additional family member on 
the farm without having to expand crop acres.
    How a producer integrates livestock into their operation will 
affect the economic value they see from grazing cover crops. A cow-calf 
operator who intends to extend their grazing season in the fall and 
spring may value cover crops based on the reduced amount of hay they 
need to buy. A backgrounding operation may focus more on the quantity 
and quality of the forage, and thus would value cover crops based on 
daily gains and fed cattle market values Whether or not a producer 
intends to graze both in the fall and spring, the seeding rates, 
available forage, value of hay and amount of selective grazing by 
livestock will all impact the financial benefit.

    Snapshot: The financial impact of grazing cover crops

    Cover crops pay off in year 1, assuming an annual return of $49.23 
per acre from grazing. Estimated returns for corn average $17.87, 
$50.65 and $67.13 per acre after 1, 3 and 5 years of planting a cover 
crop. Soybean returns average $25.68, $49.65 and $59.41 per acre after 
1, 3 and 5 years. (See tables 4 and 5 for details.) The assumed annual 
return includes assumptions that portable electric fencing is already 
on hand and water is accessible; costs for installing new fencing or a 
water supply would delay profit on grazing to year 2 or possibly 
longer. Practical Farmers of Iowa, in a detailed on-farm study of cover 
crop grazing, also found that grazing provided a net profit in year 1 
for each of the farms studied.<SUP>[6]</SUP>

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo by Mike Rankin, Hay & Forage Grower.
  Farmer Profile Mike Taylor, Helena, Ark.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Helena, Ark., farmer Mike Taylor with his children Merrie 
        Leigh (left) and Wells. Taylor's attitude toward soil health 
        includes a desire to leave the land in good shape for his 
        children. Photo by Chris Bennett, Farm Journal.
  Addressing Compaction, Erosion and Weeds
          Primary Cover Crops: cereal rye and mixes

          A sign hangs in Mike Taylor's shop that reads, ``You do not 
        inherit the land from your ancestors, you borrow it from your 
        children.'' Taylor and his father vividly remember 1992 as a 
        year that challenged that statement. High wind conditions 
        combined with their light, sandy soils resulted in sandblasting 
        and a near-total loss of their cotton crop. The following year 
        they began adding cover crops into their cotton rotation to 
        keep their soil in place, and their use of cover crops has 
        increased every year since. Cover crops are now normally used 
        on 90% of their roughly 4,000 acres of row crops in east 
        Arkansas near Helena. ``I want my ground to be there for my 
        kids,'' Taylor says.
          Taylor plants cereal rye as his cover crop of choice in their 
        corn, soybean, peanut and cotton rotation, but he has 
        incorporated blends as well and has even made use of 12- and 
        13-way mixes. He primarily seeks to prevent soil erosion and 
        promote root growth below the soil surface. Cover crops have 
        also helped to control herbicide-resistant Palmer amaranth and 
        horsetail (marestail) on the farm.
          For producers in his region considering a cover crop, Taylor 
        advises to ``drill it in and plant early.'' He has tried many 
        options for planting but prefers his no-till drill because it 
        allows him to cut back his seeding rate and he always gets a 
        stand. Taylor has seen producers who plant too late and 
        terminate too early to receive maximum benefits, making their 
        cover crops less profitable. In 2018, Taylor had some issues 
        with slugs for the first time and is searching for a cost-
        effective remedy if they recur.
          Taylor likes to point out that many people focus on annual 
        expenses and potential savings with cover crops, but one area 
        that has not received the same amount of attention is the 
        change in equipment needs. To address his hardpan issues, 
        Taylor drills cover crops instead of running a subsoiler 
        tillage tool, thereby avoiding the fuel and labor cost 
        associated with using his high-horsepower tractor. ``I look at 
        my no-till drill as my subsoiler,'' he says.
          Taylor also notes that cover crops seem to resolve the soil 
        crusting issues they historically had. Thus, they rarely need 
        to run their rotary hoe. A trackhoe implement, which was 
        purchased years earlier to dig out eroded soil that filled up 
        drainage ditches, is now seldom needed since cover crops have 
        significantly reduced erosion on his fields. The machinery cost 
        savings and better weed control have positively impacted his 
        bottom line and help justify his effort to increase soil 
        health, ensuring his children will have the same opportunity to 
        farm.
3. When Soil Compaction is an Issue
    With farmers planting more acres than ever before, the time window 
to get into and out of fields for planting, harvest and other 
operations is smaller than ever. Unfortunately, the sense of urgency to 
get over a lot of fields quickly can lead to situations where farmers 
are using large, heavy equipment on fields where moderate to high 
moisture leads to compaction. Once the soil is compacted, not only do 
yields sometimes drop by 10-20%,<SUP>[7]</SUP> but future rainfall 
infiltration is also negatively affected. This leads to a vicious cycle 
of muddy fields and compacted tracks that hurt crop stands, root growth 
and ultimately yields. The compaction, if widespread enough, can even 
delay the ability to get into the field in the future because of 
reduced drainage in compacted areas.
    Although prevention is the best solution, farmers facing compacted 
soils may feel little choice other than to buy deep subsoiling tillage 
equipment. This may require upgraded horsepower tractors to operate, 
not to mention expensive fuel and labor costs. When adding the extra 
equipment, fuel and labor costs, the cost of subsoiling a field to 
address compaction can be $15 per acre or more.<SUP>[11]</SUP> Even 
worse, the benefit from subsoiling is often very temporary as high-clay 
subsoils swell back together and new compaction occurs.
    Deep-rooted cover crops can provide a less costly and longer-
lasting solution to compaction issues. A 4 year research study on soil 
compaction at Ohio State University showed that soils compacted with a 
20 ton grain cart yielded better when soybeans were grown after cover 
crops compared to using annual subsoiling. In the same study, corn 
after cover crops yielded just as well as corn after subsoiling, with 
the notable exception of the 2012 drought year, when the cover crop 
plots yielded better than subsoiling.<SUP>[13]</SUP>
    Particular cover crop species such as cereal rye and radishes, if 
allowed enough time to grow, often root more deeply than summer cash 
crops such as corn and soybeans. The macropores created by those deeper 
roots help get air and water deeper into compacted soils. These deeper 
cover crop roots create paths for the cash crop roots to more 
effectively grow through the compacted zones in the next season. The 
living roots of cover crops also stimulate earthworm populations, which 
through their tunneling also start to improve compacted soils.
    In the long-term, improved soil organic matter from cover crops, 
especially when combined with less tillage, helps to build soil 
aggregates, which provide more structure and strength to the soil so 
that compaction is prevented in the first place. Think of driving a 
vehicle across a dense turf sod compared to a bare soil after a rain. 
Where would the vehicle get stuck? Combining no-till and cover crops 
can create an effective, long-term solution to soil compaction, 
allowing earlier spring planting and wider time windows to access 
fields for time-sensitive operations such as harvest.

    Snapshot: The financial impact of addressing compaction with cover 
crops

    Cover crops break even for corn in year 2 and provide a net profit 
for soybeans in year 2, assuming savings of $15.30 per acre from not 
having to do annual subsoiling. Returns for corn average ^$16.06, 
$16.72 and $33.20 after 1, 3 and 5 years of planting a cover crop. 
Soybean returns average ^$8.25, $15.72 and $25.48 after 1, 3 and 5 
years. (See tables 4 and 5 for details.) A positive net return could be 
delayed to year 3 if subsoiling is done less frequently than on an 
annual basis.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Cover crops that can root deeply, such as radishes, can help 
        alleviate soil compaction. Photo by Rob Myers, North Central 
        SARE.
  Farmer Profile Ralph ``Junior'' Upton, Springerton, Ill.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Illinois farmer Ralph Upton began planting cover crops 
        decades ago to control erosion. Now they play an important role 
        in maintaining the overall resiliency of his soil. Photo by 
        Ciji Taylor.
  Deeper Rooting Builds Resilience into the Cropping System
          Primary Cover Crops: cereal rye, ryegrass and hairy vetch

          Junior Upton's history with cover crops began almost 50 years 
        ago with frost-seeded red clover into winter wheat. Producing 
        corn and soybeans on 1,800 acres about 100 miles east of St. 
        Louis, Mo., Upton recalls that his original interest in cover 
        crops and no-till arose from a desire to limit soil erosion. 
        Although he has never lost sight of this benefit, his many 
        years of planting cover crops and seeing the enormous positive 
        impact they have on the resilience of his soil has expanded his 
        appreciation of them. Cover crops have literally improved his 
        ability to weather storms, he says.
          Upton has experimented with multiple cover crop species, 
        including buckwheat, radishes, rapeseed, cereal rye, vetches 
        and ryegrass. He explains that trial and error along with in-
        field research through partnerships with programs such as SARE 
        have enabled him to pinpoint cover crop mixtures that work with 
        his management system. Upton no-till drills a three-way mix of 
        cereal rye, ryegrass and hairy vetch after both corn and 
        soybeans. He has a specific reason for each cover crops he 
        relies upon. Cereal rye helps with weed control and soil 
        erosion, and is a great companion crop for the other cover 
        crops. The root system of ryegrass helps to break up the 
        fragipan in his soil and also assists with weed control. When 
        managed properly, hairy vetch generates both supplemental 
        nitrogen and additional weed control.
          Upton recalls introducing ryegrass into his system and seeing 
        roots 48" deep, growing through the fragipan, even though 
        above-ground biomass was less than 5" tall. Being vulnerable to 
        droughts was an ongoing concern in the past, but now cover 
        crops have helped to alleviate some of that worry by improving 
        both the water-holding capacity of his soil and the rooting 
        depth of his corn and soybeans. ``Dry weather killed me in the 
        past due to a fragipan,'' Upton explains. ``I had been farming 
        the top 5" of soil, where now I use 4 of soil.''
          When discussing his conservation practices, Upton quickly 
        points to his focus on the bottom line and how his farm 
        management has changed over the years. Switching to no-till and 
        cover crops in the mid-1990s decreased his capital outlay for 
        equipment and lessened his fuel bill. Now, after years of 
        experience, Upton has tweaked his management again. By using 
        different seed maturity groups and slightly later planting 
        dates, he has been able to reap additional soil health 
        benefits, reduce fertilizer inputs and get better weed control. 
        He has also seen improved profit, in part due to better yields 
        where he has used cover crops. Upton recommends that producers 
        take the time to evaluate their own situation, soils and 
        management priorities. ``What works for me may not work out as 
        well on someone else's farm,'' he says.
          The bottom line for Upton is that every acre on his farm is 
        destined to have a cover crop. He looks forward to additional 
        breeding work with cover crops and hopes to take advantage of 
        additional benefits in the future, such as increased nitrogen 
        availability.
4. When Cover Crops are Used to Speed and Ease the Transition to No-
        Till
    Some of the earliest grain crop farmers to adopt cover crops in 
recent decades have been no-tillers. In fact, No-Till Farmer magazine 
reported that 83% percent of their no-till farmer readership used cover 
crops on at least some of their fields in 2017.<SUP>[2]</SUP> However, 
a new trend has become apparent with the rapid expansion of cover 
crops, which is that a segment of conventional till farmers using cover 
crops have become motivated to transition to no-till or strip-till. 
Many cover crop users have cited their increased appreciation for soil 
health as a reason for making changes to their tillage system.
    While the triggering effect cover crops have on reducing tillage is 
notable, what is more important economically is that cover crops seem 
to ease the transition to no-till. Farmers have been advised for 
decades that they can expect an initial yield dip when changing to no-
till but that if they stick with it, after 4 to 5 years their yields 
will be restored to previous levels and will probably improve in 
drought years. More research is needed, but there are many anecdotal 
reports of farmers who use cover crops finding less of a yield dip when 
transitioning to no-till on a given field compared to transitioning 
without cover crops.
    A specific approach that some farmers have followed is to plant a 
cereal rye cover crop before soybeans and then begin the no-till 
process in the spring, in this case by no-till planting the soybeans 
into the rye residue. Changing to no-till without a cover crop would 
cause less aeration and possibly more initial compaction in a field 
compared to a conventionally tilled field, but the use of rye offsets 
these negatives. The root macropores from the cover crop, along with 
increased earthworm activity, will help improve initial aeration of the 
soil and reduce crusting and compaction. The stimulated soil biology 
from the living cover crop roots can also speed the growth of 
mycorrhizal fungi, allowing fungal hyphae to form, which provide more 
nutrients and potentially more moisture to the cash crop roots.
    By using a cover crop before starting no-till, it may be possible 
to avoid taking the typical yield penalty that a no-till transition may 
otherwise incur.<SUP>[8]</SUP> No-till leads to cost savings from 
reduced labor and machinery expenses, and using cover crops to minimize 
a potential yield penalty provides an added financial benefit. The 
pairing of cover crops and no-till will lead to significant long-term 
improvements to soil health and crop performance, much more so than 
using either practice alone.

    Snapshot: The financial impact of using cover crops to ease the 
transition to no-till

    Cover crops pay off starting in their second year of use for corn 
and break even during the first year of use with soybeans, assuming 
savings of $23.96 per acre from using cover crops to help the 
transition to no-till. The assumed savings are from the reduced fuel 
and labor costs of doing one fewer fall tillage pass and two fewer 
spring tillage passes. Returns for corn average ^$7.40, $25.38 and 
$41.86 per acre after 1, 3 and 5 years of planting a cover crop. 
Soybean returns average $0.41, $24.38 and $34.14 per acre after 1, 3 
and 5 years. (See tables 4 and 5 for details.)
5. When Soil Moisture is at a Deficit or Irrigation is Needed
    One of the most dramatic examples of cover crop benefits occurred 
during the severe, widespread drought of 2012. On thousands of 
midwestern and western farms, crop growth suffered from rainfall levels 
that were far below normal. However, a pattern began to emerge when 
farmers found that corn or soybeans following cover crops were doing 
better than those in their conventional fields. This frequent 
observation was later supported by yield data. Farmers responding to 
the National Cover Crop Survey reported an average yield increase of 
9.6% in corn that followed a cover crop and an increase of 11.6% in 
soybeans. Even more remarkable, in the seven states hit hardest by the 
drought, yield increases were even larger: 11% for corn and 14.3% for 
soybeans.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Cover crop mulches significantly reduce moisture loss from 
        the soil, such as with the cereal rye residue shown here 
        between soybean rows. Photo by Rob Myers, North Central SARE.

    Looking just at those farmers who had 1 year of experience with 
cover crops leading up to the drought, their average yield increase in 
cover-cropped fields was 6% for corn and 11.4% for soybeans. With the 
high prices after harvest that year (national average prices of $6.89 
for corn and $14.40 for soybeans), cover crops more than paid for 
themselves in the 2012 drought year, even after just 1 year of use. 
Note that this conclusion is based on average yield response, using the 
survey regression analysis on yields. A small portion of individual 
fields and farms had yield losses following cover crops, while others 
had even larger yield increases.
    There are several reasons that cover crops can increase soil 
moisture and reduce yield losses caused by drought (Figure 2). One 
reason is that cover crops help improve rainfall infiltration through 
an increased number of macropores, both from cover crop roots and from 
increased earthworm activity. Once the rain has soaked into the soil, 
it is more likely to stay in the root zone, partly because the cover 
crop residue on the soil surface reduces evaporation. That residue can 
also keep the soil cooler, which further reduces moisture loss and crop 
stress, and allows soil microbes to operate more beneficially. Over 
time, improving soil health can lead to increased moisture-holding 
capacity in the soil as organic matter increases and soil aggregate 
structure improves. However, even in the short-term, cover crops can 
stimulate mycorrhizal fungi, and those fungi can help drought-shortened 
crop roots better access moisture and nutrients.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Cover crops can increase soil moisture in a number of ways: 
        stimulating the growth of mycorrhizal fungi on crop roots, 
        providing surface residue, creating root channels for the 
        following crop to use, and improving both rainfall infiltration 
        and the soil's water-holding capacity. Illustrations by Carlyn 
        Iverson.

    Cover crops can pay significant dividends by improving soil 
moisture management in fields that often suffer from moisture stress, 
such as lighter-textured soils or fields in marginal rainfall areas. 
The improved infiltration from cover crops can also increase the 
efficiency of irrigation and reduce evaporation. Steve Stevens, an 
Arkansas cotton farmer, estimated that when he uses cover crops he can 
save about $0.06 per pound of cotton produced ($60 per acre) through 
reduced irrigation expenses.<SUP>[9]</SUP>
    Noah Williams, who farms 2,800 dryland acres in eastern Oregon, has 
found cover crops to be a benefit even though he has very limited 
rainfall. Working with his local USDA Natural Resources Conservation 
Service (NRCS) soil conservationist, Williams monitored soil moisture 
levels in fields left fallow and in fields planted to cover crops in 
place of fallow. Overall, soil moisture was about the same between 
fallow and the cover crops. But after a rain, Williams observed that 
the moisture reached the 2 depth zone of the soil profile in his cover 
cropped fields, whereas that zone was dry in the fallow system. When 
combined with grazing, Williams says, ``Cover crops are paying for the 
cost of seeding.''

    Snapshot: The financial impact of cover crops during a drought

    Based on data from the 2012 drought, cover crops significantly 
boost yield (on average) during a drought year, and cover crops pay off 
in year 1. Returns for corn average $27.34, $77.15 and $110.45 per acre 
after 1, 3 and 5 years of planting cover crops. Soybean returns average 
$41.69, $70.22 and $84.54 per acre after 1, 3 and 5 years. (See tables 
4 and 5 for details.) For the purpose of this analysis, the 1, 3 and 5 
year increments mean that cover crops had been used for that amount of 
time when a drought occurred.
6. When Fertilizer Costs are High or Manure Nutrients Need to be 
        Sequestered
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Clover cover crop roots form nodules with symbiotic bacteria 
        that fix nitrogen, reducing the need for applying nitrogen 
        fertilizers. Photo by Rob Myers, North Central SARE.

    Cover crops are often an essential part of an organic farmer's 
strategy to supply nutrients to their crops, particularly through 
nitrogen-fixing legumes. Some legumes, such as hairy vetch and Austrian 
winter peas, can supply over 100 pounds of nitrogen per acre if allowed 
to grow until they flower. However, for conventional farmers, it has 
normally been cheaper to obtain nitrogen from synthetic fertilizer than 
from cover crops. This is particularly true for corn, which is planted 
before legumes have much chance to grow in spring.
    New developments in understanding soil health and soil-nutrient 
cycling are leading to a recognition that cover crops can do more than 
just fix nitrogen (assuming the cover is a legume). They can play an 
important role in sequestering nutrients from manure or nutrients that 
are left at the end of a cash crop season. This sequestration can 
prevent those nutrients from being lost from the root zone. Nitrogen 
sequestration is particularly important, given its mobility in the soil 
and the chance of both nitrogen leaching and denitrification (when soil 
nitrogen goes into the atmosphere as a gas).
    Soil biology also plays a greater role than previously understood 
in soil- and crop-nutrient dynamics. Cover crops, by increasing the 
portion of the year with living roots in the soil, stimulate soil 
biology and can enhance the growth of mycorrhizal fungi, particularly 
if soil disturbance is minimized. These changes in soil biology can 
begin in the first year of cover crop use, and they continue as soil 
health improves. Fungi and bacteria contribute nutrients to plant roots 
in exchange for carbohydrate exudates from the roots. Cash crops may 
also root more deeply following a deep-rooted cover crop, and 
earthworms create nutrient-rich tunnels that roots can access. These 
changes can occur in the soil fairly quickly, allowing a short-term 
fertility response. In the long-term, organic matter starts to improve, 
which also increases the pool of nutrients annually available in the 
soil. For these reasons, modest fertilizer cost savings are often 
possible with cover crop use, including where legumes are used to fix 
nitrogen. Moreover, the amount of those cost savings increases over 
time as soil health improves.
    Researchers and farmers are still working to understand the optimum 
amount of fertilizer efficiency that can be achieved with cover crops. 
From what is currently known, the most straightforward steps are to 
soil test regularly for phosphorus and potassium levels and to consider 
using sensor technology or tissue testing to evaluate in-season 
nitrogen needs in corn. The inseason nitrogen evaluation can be used to 
guide side-dress fertilizer applications rather than applying all the 
nitrogen fertilizer before planting the cash crop. Using the latest 
soil health tests can also provide insights on how to best manage a 
field's fertility.
    For now, we know that fertilizer needs will gradually decline over 
time as cover crops improve soils and after a few years may lead to a 
savings of $10-$40 per acre in fertilizer costs for corn and $5-$10 for 
soybeans. Soybean savings are lower due to the fact they produce their 
own nitrogen. The biggest potential in saving fertilizer costs is from 
using legume cover crops that can fix sufficient nitrogen to contribute 
to commodities such as corn, sorghum or cotton, but the overall 
improvements in soil health and increased mycorrhiza can certainly 
provide fertility dividends as well.

    Snapshot: The financial impact of extra fertilizer savings

    Cover crops break even in year 2 for corn and pay off by year 3 for 
soybeans, assuming a field situation where soil fertility can be 
improved by cover crops. Returns for corn average ^$16.16, $16.62 and 
$33.10 per acre after 1, 3 and 5 years of planting a cover crop. 
Soybean returns average ^$16.55, $7.42 and $17.18 per acre after 1, 3 
and 5 years. (See tables 4 and 5 for details.) See the footnotes in 
tables 4 and 5 for details on specific fertilizer assumptions.
7. When Incentive Payments are Received for Cover Crop Use
    Most crop farmers across the United States are eligible for cover 
crop incentive payments through the NRCS. In recent years, thousands of 
farmers have received payments in support of cover crops through the 
NRCS Environmental Quality Incentives Payment (EQIP) program. These 
payments are intended to help farmers begin the process of cover 
cropping. They should not be looked at as a long-term subsidy, but they 
can be helpful during a 3 year transition period to cover cropping.
    The NRCS cover crop payment rates vary by state, often starting at 
$50-$54 per acre for the ``basic'' cover crop rate of a single species 
and increasing with the use of multi-species cover crop mixes or for 
special categories (such as organic farming or being a beginning farmer 
or socially disadvantaged farmer). Iowa is an example of a state with 
lower rates, starting at $34 per acre and going over $50 per acre for 
special situations. The highest EQIP cover crop incentive rates can be 
$60-$75 per acre or more, depending on the level set by the state NRCS 
office. (See Table 6.) EQIP contracts for cover crops are typically for 
a 3 year period, and renewal is possible if state criteria are met.

Table 6. Examples of NRCS EQIP incentive rates \1\ for cover crops in FY
                                  2019
------------------------------------------------------------------------
                                        Multi-Species
                       Basic Rate           Rate          Highest Rate
------------------------------------------------------------------------
Alabama                       $50.98            $57.05            $75.22
Arkansas                      $39.24            $44.10            $58.86
California                    $50.55            $56.62            $74.47
Georgia                       $49.95            $56.02            $67.23
Illinois                      $51.32            $57.39            $75.80
Indiana                       $28.18               N/A            $33.83
Iowa                          $33.83            $37.88            $56.81
Kansas                        $41.11            $45.96            $58.23
Maryland                      $50.81            $56.88            $68.26
Michigan                      $51.35               N/A            $61.62
Minnesota                     $34.02            $38.07            $62.76
Missouri                      $51.58               N/A            $61.90
Montana                       $50.67            $56.73            $60.80
Nebraska                      $26.96            $33.97            $52.88
New York                      $53.54            $59.61            $71.53
North Carolina                $50.95            $57.02            $75.16
North Dakota                  $16.89            $26.48            $45.39
Ohio                          $49.90               N/A            $59.88
Oregon                        $33.44            $37.48            $56.22
Pennsylvania                  $53.59            $59.66            $79.23
South Carolina                $50.94            $57.01            $61.13
South Dakota                  $28.35               N/A            $42.53
Texas                         $19.59            $36.69            $55.04
Vermont                       $51.03            $57.10            $75.30
Virginia                      $51.35            $57.41            $68.90
Washington                    $50.13            $56.20            $73.75
Wisconsin                     $51.18            $57.25            $68.70
------------------------------------------------------------------------
\1\ The basic rate is for a single species of cover crop; multi-species
  is the rate for two or more species of cover crops. The highest rates
  generally are for either organic and/or beginning farmers and/or
  historically under-served farmers.

    Another NRCS program that supports a wide variety of conservation 
practices, including cover crops, is the Conservation Stewardship 
Program (CSP). Under CSP, farmers typically agree to do a suite of 
conservation practices, which can include cover crops, during a 5 year 
contract period (renewal is possible). As with EQIP, CSP payment rates 
for cover crops vary by state.
    Some state agencies also offer cover crop incentive payments, often 
through local soil and water conservation districts. Some of the 
programs are available to any farmer in the state, while others are 
targeted to specific watersheds. Sometimes the funding is through a 
state agriculture department, and in other cases it is through a state 
natural resources or conservation agency. These payment rates also 
vary, typically starting at $30 per acre and in a few cases reaching 
upwards of $60 to $80 per acre, such as in the Chesapeake Bay area.
    Whether the payments come from state or Federal sources, financial 
assistance can make the transition to using cover crops affordable. 
Going simply by the median national cover crop seed cost of $25 per 
acre and a median cost of contracting out seeding at $12 per 
acre,<SUP>[5]</SUP> incentive payments will quite often completely pay 
for the cost of using cover crops.

    Snapshot: The financial impact of incentive payments for cover 
crops

    Cover crops pay off in year 1, assuming an incentive payment rate 
of $50 per acre, based on typical NRCS EQIP rates in the Corn Belt. 
Returns for corn average $18.64, [$]51.42 and $67.90 per acre after 1, 
3 and 5 years of planting a cover crop. Soybean returns average $26.45, 
$50.42 and $60.18 per acre after 1, 3 and 5 years. (See Tables 4 and 5 
for details.) The majority of states have a ``basic'' cover crop 
incentive payment rate of $50 per acre or more, and rates for multi-
species cover crops, beginning or organic farmers, or under-served 
audiences can be even higher. A minority of states have a basic cover 
crop incentive rate below $50 per acre. (See Table 6.) Applications for 
incentive payments are not guaranteed to be funded, but as long as 
guidelines are met, generally a majority of applications are approved. 
As stated previously, these incentive payments should be viewed in the 
context of providing transition support rather than as a long-term 
economic subsidy.
  Farmer Profile Ken Rulon, Rulon Enterprises, Arcadia, Ind.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Ken Rulon (far right) with family members who help manage 
        their 6,000 acre farm in Indiana. Photo courtesy Ken Rulon.
  Data Drives Fertility Decisions
          Primary Cover Crops: cereal rye, annual ryegrass, oats, 
        radish, clover, rapeseed and hairy vetch

          To say that data drives decisions for Ken Rulon is an 
        understatement. Utilizing 1 acre grid sampling for twenty-four 
        years, Rulon and his family have learned there is a linear 
        relationship between soil organic matter and yield. ``The data 
        is clear. We need something growing on the soil at all times,'' 
        Rulon says. He farms approximately 6,000 acres with his family 
        in north central Indiana. This fourth-generation family farm 
        has used no-till management since 1989 and started using cover 
        crops around 2006. Their general philosophy is that 
        conservation is the best economic model and that oxidizing soil 
        carbon through tillage is not sustainable long-term.
          Once they combined cover crops with no-till, Rulon's soil 
        organic matter levels increased more than 1% over the next 
        decade on some fields. With cover crops, he documented 
        increased soil moisture during the growing season, decreased 
        soil surface temperatures, increased soil aggregate stability, 
        increased soil organic matter levels and improved yields.
          One of Rulon's primary goals with cover crops has been to 
        increase soil organic matter levels and reduce input costs. He 
        notes that research at Purdue University found cover crops 
        reduced nitrogen leaching by 50%. Through his own experience, 
        years of cover cropping has allowed Rulon to cut fertilizer use 
        and still maintain adequate soil fertility levels. He reduced 
        phosphorus inputs by 20 pounds per acre, potassium by 30 pounds 
        per acre and nitrogen by 35 pounds per acre. In-field trials 
        conducted for multiple years with multiple rates of nitrogen 
        fertilizer demonstrate that 165 pounds of nitrogen per acre 
        achieves maximum economic yields for his operation. This 
        compares to the more typical rate for his region of 200 pounds 
        of nitrogen per acre for corn.
          The cost savings that come from reducing his fertilizer 
        inputs has not resulted in lower yields. In fact, Rulon's 
        operation consistently achieves yields higher than the county 
        average. Multiple years of yield data confirm a yield benefit 
        of approximately 7 bushels per acre for corn and almost 2 
        bushels per acres for soybeans.
          Profitability aside, Rulon believes managing a sustainable 
        operation implies they must meet their present needs without 
        sacrificing the future. That is why he appreciates the role 
        cover crops and no-till play in protecting the soil, 
        sequestering carbon and improving the overall resilience of the 
        farm. ``We encourage everyone to develop data for their 
        operation to find the system that works best on your soils and 
        in your region,'' Rulon says.

    Potential Impact of Cover Crops on Land Rentals and Tenancy

    Efforts to identify how cover crops influence land values and rents 
are in their early stages. However, it is easy to imagine that because 
cover crops improve soil health, which in turn improves field 
productivity, they could in time raise land values. This could benefit 
both the farmer and the landowner.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Incentive payments offered through NRCS are higher when 
        planting a multi-species cover crop mix. The mix in this field 
        includes oats, proso millet, canola, sunflowers, dry peas, 
        soybeans and pasja turnips. Photo by Mark Liebig, USDA ARS.

    For the farmer

    Farmers who rent cropland or farm under crop-share tenant 
agreements know that having good relationships with relevant landowners 
is important. With an increasing number of landowners expressing 
interest in having their land managed with good stewardship, there are 
opportunities to enhance relationships with landowners by using cover 
crops. The National Cover Crop Survey found that 61% of farmers using 
cover crops had support from their landowners to do so, and only 5% had 
landowners who opposed cover crops; the rest were either neutral or the 
farmer did not know the landowner's attitude toward cover 
crops.<SUP>[5]</SUP>
    Looking ahead, farmers seeking to expand their acres could cite 
their cover crop experience as a selling point for winning a new lease 
agreement, at least with conservation-minded landowners. Greater access 
to land may be one of the hidden economic benefits of being a cover 
crop farmer. A young farmer in Missouri recently reported that his use 
of cover crops had given him an advantage when he picked up an extra 
150 acres to rent. The rental rate he offered to pay was a little lower 
than other farmers who bid to rent the ground, but his emphasis on 
cover crops was attractive to the landowner.

    For the landowner

    Many landowners value conservation and certainly all want the value 
of their farmland maintained or enhanced. As understanding of soil 
health measurement continues to grow, we can expect that soon it will 
be possible to gauge farmland productivity with selected soil health 
measurements, at least in aggregate. Where landowners have documented 
improvements in soil health, such as long-term increases in soil 
organic matter, it should be possible to gain economic value from that 
increased soil health. That economic value associated with soil health 
may reflect itself in increased land prices should the land be sold at 
some point.
    Fall Line Capital is an example of how land investment and 
management is changing. Clay Mitchell, an Iowa farmer who cofounded 
Fall Line and is now a managing director, has sought to improve soil 
health on the farms they invest in through the use of cover crops and 
other conservation strategies such as no-till. A key goal for the 
company is improving the overall value of the land as part of the value 
proposition for their investors.

    Looking Ahead on Cover Crop Economics

    Two new trends are likely to impact cover crop economics going 
forward, in terms of both on-farm and off-farm economics. (See the 
section The Off-Farm Impacts of Cover Crops.) One trend is the rising 
interest of food, beverage and clothing companies in documenting the 
sustainability of their supply chain. These companies are identifying 
cover crops as a relatively easy way to document which fields are being 
managed in a more sustainable fashion. Using cover crops may increase a 
farmer's access to these companies' markets, or in some cases, lead to 
incentives. For example, Unilever has done pilot projects to encourage 
cover crops in Iowa by paying a $0.10 premium per bushel of soybeans, 
as well as more standard per acre incentive payments.
    Likewise, a number of U.S. commodity buyers, including Cargill, 
Tyson, General Mills, Unilever and Wal-Mart have shown strong interest 
in the use of cover crops to improve soil health and sustainability 
within their supply chain. In 2018, Tyson announced efforts to improve 
environmental practices, including cover crops, on 2 million acres of 
corn in close proximity to select mills. Wrangler Jeans launched their 
``Tough Denim, Gentle Footprint'' initiative that encourages cotton 
growers to use soil conservation practices, including cover crops.
    The second trend is the interest in developing ``ecosystem services 
markets.'' The underlying concept is that farmers will receive 
financial incentives from the private sector for doing conservation 
practices such as cover crops. The Soil Health Institute has been 
working with the Noble Research Institute to set up a sizable new 
ecosystem services market. Initially, this market will be offered to 
producers in the Southern Plains, but will likely expand to other 
geographic areas later on. The exact details were still developing as 
this publication went to press.
The Off-Farm Impacts of Cover Crops
    The real-world effect of farm activities extends well beyond the 
farm gate. Collectively, the activities of farming operations affect 
not only regional ecosystems but also rural communities and society as 
a whole. As part of a holistic review of cover crop economics, it is 
worth noting some of the ways that cover crops can influence off-farm 
economics, especially in a consumer culture where buyers increasingly 
want to know the origin and environmental impact of the products they 
buy.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Researchers have found that cover crops are very effective at 
        protecting water quality. Here, cover crops are growing in 
        fields along the Chesapeake Bay. Photo by Edwin Remsberg.
Water Quality
    Everyone wants clean water, whether it is safe drinking water or 
clear lakes and rivers. Unfortunately, nitrates and phosphorus have 
become a water quality issue in many areas due to a variety of nonpoint 
sources. Hypoxic (low oxygen) zones in the Chesapeake Bay, Gulf of 
Mexico and elsewhere are caused by the presence of too many nutrients 
like nitrogen and phosphorus. In these areas, fish and shellfish cannot 
survive due to a lack of oxygen, and as a result local fishing 
industries suffer millions of dollars of losses per year. Concern over 
these hypoxic zones has caused policymakers and farmers to work to 
reduce nitrogen and phosphorus loads to U.S. waterways, including the 
Mississippi River Basin. Agriculture is by no means the only source of 
nutrients to the Gulf and other waterways, but it is a significant 
source, which means that producers have an opportunity to reduce 
pollutant loads and improve water quality.
    Cover crops represent one of the best ways farmers can improve 
water quality while also contributing to the profitability of their 
operation. Cover crops reduce nutrient losses by holding the soil in 
place and taking up excess nitrogen from the soil during winter months. 
A review of numerous research studies showed that they provide a median 
reduction of 48% in nitrogen leaching from farms.<SUP>[17]</SUP> In 
addition, cover crops have shown to reduce soil erosion, on average 
reducing soil loss by 20.8 tons per acre compared to conventional 
fields.<SUP>[18]</SUP> Cover crops also promote rainfall infiltration, 
which increases water flow into the soil profile by more than six-fold 
in some systems. The more water that enters the soil profile, the less 
runoff that flows over the field and the less total risk of erosion. 
Eroded soil particles carry sediment with them into waterways.
    Closer to home for Iowa farmers, the state of Iowa is increasingly 
concerned about the human health consequences of nutrient water 
pollution and is actively looking for solutions. Some utilities in the 
state have invested over $1.6 million in recent years to improve their 
nitrate removal systems due to high levels.<SUP>[15]</SUP>
Infrastructure Costs
    When cover crops improve rainfall infiltration and reduce soil 
erosion, the potential benefits extend beyond curbing pollution. It is 
possible that by reducing sediment loads to waterways, cover crops may 
actually reduce how often waterways must be dredged, thus saving 
taxpayer dollars. And, with increasingly heavy rainfalls occurring in 
recent years, the promise of better infiltration means that cover-
cropped farmland could reduce flood risk and mitigate the costs 
associated with post-flood cleanup like repairing damaged bridges. A 
recent report by the Union of Concerned Scientists discussed how 
building healthy soils could reduce runoff and flood frequency by 20% 
in flood years.<SUP>[1]</SUP> Using cover crops and no-till over the 
majority of a watershed to improve rainfall infiltration can also 
lessen the need for costly work to raise dam heights in order to deal 
with more rain.
Carbon
    Carbon dioxide concentrations in the Earth's atmosphere have led 
state and Federal governments across the globe to consider policy 
measures aimed at pulling down carbon and storing it, with the ultimate 
goal of mitigating climate change.
    The soil is one of the Earth's largest carbon reservoirs, and cover 
crops are one practice that actively promotes carbon sequestration. A 
literature review found that cover crops can sequester a median value 
of 0.58 tons of carbon per acre.<SUP>[16]</SUP> The societal benefits 
of carbon sequestration can be realized in reduced costs associated 
with a changing climate; the direct economic value of a ton of carbon 
was listed as $15.10 in the state of California in 2018.<SUP>[3]</SUP> 
It has been suggested that farmers should be compensated at $16 per 
acre per year for sequestering soil carbon and for provisioning other 
ecosystem service benefits to society.<SUP>[10]</SUP>
Biodiversity
    Wild insects, birds and mammals can benefit from cover crops, too. 
Groundcover increases the available forage and habitat for these 
animals, especially during seasonal changes when birds are migrating 
and when winter food may be tough to find. For example, an Illinois 
research project documented more waterfowl and songbirds where cover 
crops were used compared to fields without covers.<SUP>[19]</SUP> For 
pollinators, cover crops provide forage, which helps keep these 
beneficial insects healthy and fed.
    Increased biodiversity may also benefit state tourism by allowing 
better hunting opportunities for birds and deer during the non-growing 
season.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Cover crops can represent a recreation opportunity by helping 
        to provide year-round food and habitat for wildlife such as 
        deer. Photo Courtesy the Missouri Department of Conservation.
Other Potential Societal Savings from Cover Crops
    The biggest single outlay by the Federal Government in support of 
crop farms is for crop insurance. From 2007 to 2016, the Congressional 
Research Service (CRS) calculated that the net cost of Federal crop 
insurance was $72 billion. Looking ahead, CRS projects that Federal 
crop insurance will cost $77 billion from 2018 to 2027. Cover crops are 
certainly not a replacement for the Federal Crop Insurance Program, but 
there is evidence that widespread use of cover crops over multiple 
years can reduce some of the costs of crop insurance for taxpayers. 
This is because cover crops improve soil resiliency, which helps reduce 
yield losses in drought years.
The Bottom Line on Cover Crops
    To be sure, determining the economic impact of planting a cover 
crop is not as simple as a 1 year, cost-and return analysis. 
Ultimately, the decision to plant a cover crop should be viewed as an 
investment in the long-term resilience of the farm. Many factors, from 
particular on-farm challenges to the gradual accrual of soil health 
benefits, will influence when cover crops start to pay off.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Four types of cover crops, including annual rye, oilseed 
        radish, crimson clover and rapeseed, are being seeded into 
        wheat stubble. Photo by Dianne Johnson, USDA NRCS.
When do cover crops start to pay?
    With all of the variables described in this bulletin, it's probably 
safe to say that often, by year 3, cover crops will be paying for 
themselves, if not earlier. There are times when that return on 
investment could take a little longer, but there are even more 
situations in which that return can be accelerated. This happens most 
often when a cover crop is meeting particular on-farm needs, such as 
dealing with herbicide-resistant weeds, reducing soil compaction, 
helping with soil moisture management and soil fertility, or providing 
grazing opportunities.
What is the soil health impact from cover crops 3 to 5 years down the 
        road?
    After 3 to 5 years of annual use, well-managed cover crops should 
start to bring about soil health improvements that improve yields and 
save on input costs. Not all soil health measures will respond equally 
fast. For example, earthworm activity and some bacteria and fungi will 
respond within the first year of cover crop use. However, it can take 5 
years or more before soil organic matter starts to noticeably improve, 
depending on how the cover crops are managed and what tillage is done. 
A key point is that cover crop benefits keep accruing over several 
years. The economic return at year 5 should generally be greater than 
year 3, and year 7 should be greater than year 5.
What is the bottom-line economic impact?
    A positive first-year return from cover crop use will often occur 
during drought conditions, where cover crops are grazed (assuming that 
grazing infrastructure is already in place), or potentially in a 
situation with challenging herbicide-resistant weeds. When converting 
from conventional till to no-till, cover crops can help ease that 
transition, making it possible to break even in year 1 for soybeans and 
to make a small return by year 2 with corn. When compaction or soil 
fertility is limiting yield, cover crops may provide a positive net 
return by the second year. Receiving incentive payments from Federal or 
state government programs can also make it possible to immediately pay 
for the cost of cover cropping during a transition period.
    Under the most conservative assumptions for the analysis reported 
here, where there are no particular issues being addressed, no 
incentive payments or grazing, and normal rainfall, it will take on 
average about 3 years of planting a cover crop for the practice to 
break even or provide a net profit, not unlike applying lime to address 
soil pH. By year 5, on most fields, cover crops should be producing a 
modest profit due to a combination of yield increases and somewhat 
lower production costs.
    The contribution cover crops make to farm resiliency is also under-
appreciated. Consider that the majority of farmers carry crop insurance 
to reduce risk. Cover crops are a form of risk management like crop 
insurance; investing in them to improve soil health will help reduce 
future risk from weather extremes. Significant cover crop payoffs have 
been documented in drought years, where yield increases of more than 
10% may be seen. Even in wet years there can be a noticeable benefit 
from the improved aeration and soil structure provided by cover crops, 
allowing spring planting or fall harvest to start 2 to 3 days earlier 
following cover crops.
    Ultimately, a broad-based, holistic perspective is helpful in 
factoring in all the different ways that cover crops can benefit a 
field and a farm. As farmers gain experience with cover crops, they end 
up making other management changes that complement the cover crops and 
maximize their overall economic efficiency while improving the 
sustainability of their farming livelihood. The bottom line is that 
cover crops should be valued both for their immediate benefits and as 
an investment in the long-term success of the farm.
Resources and References
    The NRCS ``cover crop economics tool'' is a free downloadable 
spreadsheet that evaluates the cover crop payoff period based on the 
user's data. Interpretative materials and supportive videos are also 
available through the NRCS website. Additionally, NRCS has an extensive 
series of soil health fact sheets and videos available through their 
website. Search ``NRCS soil health.'' SARE has multiple publications 
and online resources pertaining to cover crops, including:

  <bullet> Managing Cover Crops Profitably (www.sare.org/mccp)

  <bullet> Building Soils for Better Crops (www.sare.org/bsbc)

  <bullet> The Cover Crops topic room, an extensive set of cover crop 
        resources (www.sare.org/covercrops)

    The nonprofit Soil Health Institute offers a growing number of 
publications and videos pertaining to cover crops and soil health. See 
www.soilhealthinstitute.org.

 
 
 
    1. Basche, A. 2017. Turning soils into sponges: how farmers can
 fight floods and droughts. Union of Concerned Scientists.
    2. Bruggink, D. 2018. Cover crop train keeps rolling on. No-Till
 Farmer magazine blog: March 10, 2018.
    3. California Carbon Dashboard. 2018. Carbon price. Climate Policy
 Initiative.
    4. Congressional Research Service. 2018. Federal Crop Insurance:
 Program Overview for the 115th Congress. Library of Congress report
 R45193.
    5. Conservation Technology Information Center (CTIC). 2013-2017.
 Annual reports of the National Cover Crop Survey. Joint publication of
 CTIC and SARE.
    6. Filbert, M. 2017. Economic impact of grazing cover crops in cow-
 calf operations. Practical Farmers of Iowa: Ames, IA.
    7. Hanna, M., and M.M. Al-Kaisi. 2009. Understanding and managing
 soil compaction. Iowa State University Extension publication PM1901b.
    8. Hoorman, J., R. Islam, A. Sundermeier, and R. Reeder. 2009. Using
 cover crops to convert to no-till. Ohio State University Extension
 guide SAG-11.
    9. Johnson, C. 2017. Cotton in cover. Furrow Magazine. October 30,
 2017.
    10. Lal, R. 2014. Societal value of soil carbon. Journal of Soil
 Water Conservation 69(6): 186A-192A.
    11. Lazarus, W.F. 2018. Machinery cost estimates. University of
 Minnesota.
    12. Monast, M., L. Sands, and A. Grafton. 2018. How stewardship
 generates value for farmers, lenders, insurers and landowners. Report
 of the Environmental Defense Fund.
    13. Sundermeier, A., and R. Reed. 2013. Tillage, cover crop, and
 compaction effects on corn and soybeans. Ohio State University research
 reports.
    14. Sunderlage, B. 2019. Presentation on cover crops and weeds at
 2019 Midwest Cover Crop Council Annual Conference. Springfield, IL.
    15. Tang, C., G.E. Lade, D. Keiser, C. Kling, Y. Ji, and Y. Shr.
 2018. Economic benefits of nitrogen reductions in Iowa. Iowa State
 University Center for Agricultural and Rural Development.
    16. Tellatin, S. and R. Myers. 2018. Cover crop impacts on U.S.
 cropland carbon sequestration. Journal of Soil Water Conservation
 73(5): 117A-121A.
    17. Tellatin, S. and R. Myers. 2018. Cover crops at work: Keeping
 nutrients out of waterways. USDA-SARE cover crop fact sheet series.
    18. Tellatin, S. and R. Myers. 2018. Cover crops at work: Cover the
 soil to prevent erosion. USDA-SARE cover crop fact sheet series.
    19. Wilcoxen, C.A., J.W. Walk, and M.P. Ward. 2018. The use of cover
 crop fields by migratory and resident birds. Agriculture Ecosystems and
 Environment 252: 42-50.
 

    This bulletin was written by Rob Myers (University of Missouri and 
North Central SARE), Alan Weber (MARC-IV Consulting), and Sami Tellatin 
(University of Missouri). The authors appreciate the helpful review 
comments provided by Lauren Cartwright, Wayne Honeycutt, Jim Hoorman, 
Eileen Kladivko, Kim Kroll, Lynn Knight, Steven Mirsky, Josh Payne, 
Wally Tyner, Andy Zieminski and Lizi Barba. The authors also thank 
Stacy Zuber for help with yield data analysis, and the Conservation 
Technology Information Center and American Seed Trade Association for 
their involvement in the National Cover Crop Survey.
    This material is distributed by SARE Outreach for the SARE Program 
and based upon work supported by the National Institute of Food and 
Agriculture, U.S. Department of Agriculture, under award number 2015-
38640-23778. SARE Outreach operates under cooperative agreements with 
the University of Maryland to develop and disseminate information about 
sustainable agriculture.

          This publication was developed by the Sustainable Agriculture 
        Research and Education (SARE) program with funding from 
        National Institute of Food and Agriculture, USDA. Any opinions, 
        findings, conclusions or recommendations expressed here do not 
        necessarily reflect the view of the U.S. Department of 
        Agriculture.
                                 ______
                                 
 Submitted Statement by Ben Scholz, President, National Association of 
                             Wheat Growers
    Chair Spanberger, Ranking Member LaMalfa, and Committee Members, I 
am Ben Scholz, a wheat farmer from Lavon, Texas and President of the 
National Association of Wheat Growers (NAWG). NAWG represents wheat 
growers across the nation and works with a team of 21 state wheat 
grower organizations to advocate for the wheat industry. Thank you for 
the opportunity to submit testimony regarding soil health. The National 
Wheat Foundation (NWF), of which NAWG is the only member, serves as the 
national center for wheat research information, education and outreach.
    Wheat growers see conservation as the heart of farming. Farmers 
want to leave the land in better condition than they found it which 
means including management practices aimed at improving soil health 
into their operations. It may come as no surprise to Members of the 
Subcommittee, but the reality of wheat production in the U.S. is that 
acres planted to it have been on a steady decline. To address this 
decline while promoting long-term sustainability, the National Wheat 
Foundation is investing in programs to help growers have a better 
understanding of the link between crop rotation, on-farm management 
practices, yield and quality of the wheat crop harvested. Let me remind 
you, wheat is a ``food'' crop. Unlike the other large acre, feed grain 
commodities in the U.S., quality of wheat is measured at the first 
point of delivery and reflected in the price a wheat grower receives. 
Wheat growers are motivated to look at all management practices that 
will improve the quality of wheat for millers, bakers, and ultimately, 
the consumers of all products made from wheat.
    In late 2017, the National Wheat Foundation joined the Soil Health 
Partnership (SHP). The Soil Health Partnership is a farmer-led 
initiative that fosters transformation in agriculture through improved 
soil health, benefiting both farmer profitability and the environment. 
SHP's mission is using science and data to support farmers in adopting 
practical agricultural practices that improve the economic and 
environmental sustainability of the farm. Administered by the National 
Corn Growers Association, the partnership has more than 140 working 
farms enrolled in 14 states. The SHP brings together broad and diverse 
partners to work towards common goals, with initial and continuing 
funding and guidance from NCGA, Bayer, the Environmental Defense Fund, 
the Foundation for Food and Agriculture Research, The General Mills 
Foundation, Midwest Row Crop Collaborative, National Wheat Foundation, 
Natural Resources Conservation Service, The Nature Conservancy, the 
Pisces Foundation and the Walton Family Foundation. NWF and SHP are 
working together to demonstrate the soil health benefits of management 
practices and crop rotations that include wheat. Data will be collected 
to help assess the impact of different systems on productivity, 
profitability and wheat quality. SHP and NWF are working with wheat 
farmers to set up research trials and demonstration sites to move the 
project forward.
    NWF and NAWG see wheat production having a key role in soil health. 
Wheat cropping systems provide opportunities to improve soil health. 
Improved soil health offers a potential link to grain quality as well 
as grain yield that we would like to further understand and share 
across wheat production systems. Our ability to quantify and 
communicate the connection of soil health helps wheat farmers and their 
supply chain partners ensure a productive, long-term supply of high-
quality U.S. wheat. Through wheat's involvement in SHP, we hope to gain 
more information about the management practices needed to improve soil 
health, the soil health benefits on productivity, then share the 
information with growers and throughout the supply chain.
    An important part of soil health practices and conservation tillage 
for wheat growers is access to appropriate crop protection tools. 
Glyphosate is an exceptional product for wheat growers because of its 
ability to effectively control a broad spectrum of plants post-
emergent. Rather than using tillage to eliminate emerged weeds in their 
fields prior to planting, growers, instead, apply a labeled treatment 
of glyphosate to the weed growth. Undesirable plants that would 
otherwise provide competition for water and nutrients to the crop are 
controlled without using a tillage trip across their fields. Thus, 
glyphosate allows for direct seeding without disturbing the soil. This 
conservation tillage practice enables growers to leave the crop residue 
on the surface of the field. Maintaining residue on the field without 
disturbing the soil with tillage protects the soil from wind erosion, 
preserves moisture, preserves nutrients, and improves soil health. 
Direct seeding and conservation tillage have proven to sequester carbon 
in the soil, producing a carbon sink on farms. Keeping residue on the 
field serves as a mulch, allowing the soil to retain moisture and 
increase water filtration into the soil, reducing the amount of water 
that runs off the field. I have been practicing no-till/minimum till 
for more than 10 years and according to USDA, conservation tillage 
practices were used by wheat growers on 67% of wheat acres in 2017, up 
from under 40% in 2004. Reducing tillage trips across the field is a 
conservation practice wheat growers know has a positive impact on soil 
health and on their ability to produce a quality crop over wide 
variation of climatic conditions. Conservation practices preserve the 
environment and improve soil health, sustaining the long-term viability 
of the farming operation. This would not be possible without the use of 
glyphosate. This unique product is critical to the sustainability of 
wheat production in the United States long-term.
    Wheat growers across the country are also working directly with 
their local Natural Resource Conservation Services and Farm Service 
Agency offices to participate in USDA conservation programs. Working 
lands conservation programs such as the Environmental Quality 
Incentives Program, the Conservation Stewardship Program (CSP) and the 
Conservation Reserve Program provide valuable assistance to wheat 
growers. For example, under my CSP contact, one of the practices I am 
doing is to take tissue tests to lean results from soil test 
recommendations and application of nutrients. This helps me understand 
the impact of the nutrient application on the crop.
    Whether working directly with USDA programs, state programs, or 
adopting conservation practices on their own, wheat growers are 
committed to managing their operations in a manner for long-term 
productivity, profitability and sustainability--economically and 
environmentally. We are investing in research to more clearly show the 
links between soil health, wheat crop quality and yield. We look 
forward to continuing to work with this Subcommittee on these important 
issues.
            Sincerely,
            
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
Ben Scholz,
President,
National Association of Wheat Growers.

                                  [all]
</pre></body></html>
